<html>
<title> - RENEWING THE PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSAL FOR THE U.S. DEPARTMENT OF LABOR</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        RENEWING THE PRESIDENT'S
                    FISCAL YEAR 2013 BUDGET PROPOSAL
                    FOR THE U.S. DEPARTMENT OF LABOR

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 21, 2012

                               __________

                           Serial No. 112-55

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
73-319                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE


                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Lynn C. Woolsey, California
Bob Goodlatte, Virginia              Ruben Hinojosa, Texas
Duncan Hunter, California            Carolyn McCarthy, New York
David P. Roe, Tennessee              John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Dennis J. Kucinich, Ohio
Tim Walberg, Michigan                Rush D. Holt, New Jersey
Scott DesJarlais, Tennessee          Susan A. Davis, California
Richard L. Hanna, New York           Raul M. Grijalva, Arizona
Todd Rokita, Indiana                 Timothy H. Bishop, New York
Larry Bucshon, Indiana               David Loebsack, Iowa
Trey Gowdy, South Carolina           Mazie K. Hirono, Hawaii
Lou Barletta, Pennsylvania           Jason Altmire, Pennsylvania
Kristi L. Noem, South Dakota         Marcia L. Fudge, Ohio
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 21, 2012...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     3
        Prepared statement of....................................     5
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     6
        Prepared statement of....................................     8

Statement of Witnesses:
    Solis, Hon. Hilda L., Secretary, U.S. Department of Labor....     9
        Prepared statement of....................................    12

Additional Submissions:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina, questions submitted for the record    68
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio, questions submitted for the record..........    69
    Chairman Kline, questions submitted for the record...........    67
    McCarthy, Hon. Carolyn, a Representative in Congress from the 
      State of New York, letter, dated Dec. 19, 2011, from 
      Assistant Secretary Borzy..................................    44
    Mr. Miller, letter, dated Mar. 21, 2012, to Chairman Kline...    64
    Roby, Hon. Martha, a Representative in Congress from the 
      State of Alabama, letter, dated Jan. 18, 2012, from 
      Assistant Secretary Borzy..................................    66
    Rokita, Hon. Todd, a Representative in Congress from the 
      State of Indiana, questions submitted for the record.......    68
    Secretary Solis:
        Bureau of Labor Statistics news release, Jan. 6, 2012, 
          Internet address to....................................    65
        Bureau of Labor Statistics news release, Feb. 3, 2012, 
          Internet address to....................................    65
        Bureau of Labor Statistics news release, Mar. 9, 2012, 
          Internet address to....................................    65
        Response to questions submitted for the record...........    70
    Woolsey, Hon. Lynn, a Representative in Congress from the 
      State of California:
        Bureau of Labor Statistics news release summary, Jan. 6, 
          2012...................................................    57
        Questions submitted for the record.......................    69


                        RENEWING THE PRESIDENT'S
                    FISCAL YEAR 2013 BUDGET PROPOSAL
                    FOR THE U.S. DEPARTMENT OF LABOR

                              ----------                              


                       Wednesday, March 21, 2012

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Wilson, 
Foxx, Goodlatte, Roe, Thompson, Walberg, DesJarlais, Hanna, 
Bucshon, Gowdy, Noem, Roby, Heck, Kelly, Miller, Kildee, 
Andrews, Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Holt, 
Davis, Altmire and Fudge.
    Staff present: Andrew Banducci, Professional Staff Member; 
Katherine Bathgate, Press Assistant/New Media Coordinator; 
James Bergeron, Director of Education and Human Services 
Policy; Casey Buboltz, Coalitions and Member Services 
Coordinator; Molly Conway, Professional Staff Member; Ed 
Gilroy, Director of Workforce Policy; Benjamin Hoog, 
Legislative Assistant; Barrett Karr, Staff Director; Ryan 
Kearney, Legislative Assistant; Rosemary Lahasky, Professional 
Staff Member; Donald McIntosh, Professional Staff Member; Brian 
Newell, Deputy Communications Director; Krisann Pearce, General 
Counsel; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Todd Spangler, Senior Health Policy Advisor; Linda 
Stevens, Chief Clerk/Assistant to the General Counsel; Alissa 
Strawcutter, Deputy Clerk; Loren Sweatt, Senior Policy Advisor; 
Joseph Wheeler, Professional Staff Member; Aaron Albright, 
Minority Communications Director for Labor; Tylease Alli, 
Minority Clerk; Jody Calemine, Minority Staff Director; John 
D'Elia, Minority Staff Assistant; Waverly Gordon, Minority 
Fellow, Labor; Brian Levin, Minority New Media Press Assistant; 
Celine McNicholas, Minority Labor Counsel; Richard Miller, 
Minority Senior Labor Policy Advisor; Megan O'Reilly, Minority 
General Counsel; Julie Peller, Minority Deputy Staff Director; 
Michele Varnhagen, Minority Chief Policy Advisor/Labor Policy 
Director; and Michael Zola, Minority Senior Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good morning, Secretary Solis. Thank you very much for 
being with us today to discuss the policies and priorities of 
the Department of Labor.
    Before we begin, I am saddened to recognize the passing of 
our dear friend and colleague, Donald Payne. For 23 years--23 
years--Donald served this nation and the people of New Jersey's 
10th congressional district with intelligence, tact, and honor.
    America's teachers, workers, students, and employers lost a 
strong advocate earlier this month, and I know I speak for all 
my colleagues on the committee when I say Donald will be deeply 
missed. And I know that my friend and colleague, the ranking 
Democrat on the committee, would like to express his thoughts, 
and I yield to him.
    Mr. Miller. Thank you very much, Mr. Chairman. It is with a 
great, deep sense of sadness that we remember our friend and 
colleague, Donald Payne. This is our first full committee 
hearing since his passing earlier this month. His passing took 
so many of us, his friends and colleagues, by surprise.
    As we all know from serving with him on this committee, he 
was an uncompromising voice for the disadvantaged, and for the 
powerless, and the disenfranchised, and that is where he began 
his work with the--with the YMCA's National Council, and when 
he came to the Congress of the United States. I first met 
Donald when I was speaking to the National YMCA and he 
introduced himself to me and told me he thought in a short time 
he would be joining me in the Congress of the United States. I 
next ran into him and his brother in Latin America during the 
troubles in El Salvador and Nicaragua, where again, he was 
working on behalf of poor people in those communities.
    Recently, over the last couple years, I have had a chance 
to go to Africa with Congressman Payne. He served on that 
subcommittee--chair in the Foreign Affairs Committee. And it is 
just amazing, the people who knew his name in Africa--the 
poorest people in the country and the presidents and the rulers 
of different nations, and everybody in between. And he knew 
more about Sudan and Darfur and the problems there, and in 
Rwanda, where he accompanied President Clinton.
    Just an amazing advocate on behalf of the disenfranchised, 
and his passion on this committee for Head Start and early 
childhood education, and Pell Grants, and expanding 
opportunities is just his legend in the sense that he never 
ever stopped working on behalf of those individuals in our 
country. As our colleagues from New Jersey will tell you, he 
had a magnificent remembrance ceremony--his funeral--and a 
wonderful sendoff from the people of Newark and the people of 
New Jersey, and so many from around the nation who came to 
honor him.
    And with that----
    Chairman Kline. Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman. Thank you for this 
honor for our friend and colleague.
    Thank you, Mr. Miller, as well.
    And thank you for the way you honored him and his service 
here when he was here with us by treating every member of the 
committee with respect.
    Madam Secretary, Donald would have been delighted to be 
here with you this morning. He was proud that you served with 
him and all of us on this committee. He knows of your passion 
for the work that he shared, as well.
    And I must tell you that I come to this hearing this 
morning in a very melancholy sense knowing it is the first time 
we are gathering without Donald's presence because we are 
talking about things he cared so very much about. He was both 
and mentor, and a teacher, and a friend to all of us on this 
committee. We are profoundly saddened by his loss but inspired 
by his life.
    Mr. Chairman, we thank you for this remembrance to our 
esteemed colleague.
    Chairman Kline. Mr. Holt, did you wish to be recognized? 
You are recognized.
    Mr. Holt. I thank the chair.
    There is more than--more to say about Don than we could say 
in a week, but Representative Payne was true to the word 
``representative,'' and beyond that he was a real leader. Mr. 
Miller has talked about how he was--you know, he was one person 
who would go from meeting a freedom fighter in a country to 
meeting the president of that country against whom the freedom 
fighter was fighting with enormous respect from all.
    He never lost his smile, never lost his sense of humor, but 
never lost his passion for truth and for justice, and 
especially for the little guy.
    I thank you for this recognition of our colleague.
    Chairman Kline. I thank the gentleman.
    Now, as I know Secretary Solis' time is limited here today, 
I will move to the issue of the day. On February 13th President 
Obama released his fourth budget proposal since taking office. 
The Associated Press reported the fiscal year 2013 budget 
blueprint, quote--``takes a pass on reining in government 
growth'' and ``reprises a long roster of prior proposals,'' 
such as more stimulus spending and tax increases.
    According to Politico, ``the bottom line is a fourth 
straight year of $1 trillion-plus deficits.'' And USA Today 
editorialized the ``Best test of a budget proposal these days 
is whether it reins in the national debt,'' adding, ``The 
election year budget of President Obama fails that test.''
    I couldn't agree more. The reality of the president's 
budget is disturbing. Among its flaws, it contains $47 trillion 
in government spending over the next decade, $1.9 trillion in 
tax hikes on families and job creators, and $11 trillion in new 
debt piled on the backs of our children and grandchildren.
    Now, these figures come from the House Budget Committee, 
but in the interest of nonpartisanship I would also like to 
note the Congressional Budget Office said the president's 
budget will lead to a $977 billion deficit next year, breaking 
the president's promise to cut the deficit in half by the end 
of his first term. Additionally, CBO said this budget proposal 
will bring a total of $6.4 trillion in deficit spending over 
the next 10 years.
    One year ago more than 150 of the nation's leading 
economists called for immediate action to rein in federal 
spending to support economic growth and private sector job 
creation. It is clear that with this budget the administration 
has again chosen to ignore the urgent plea for fiscal 
responsibility. Regrettably, the president's budget is less of 
a serious plan to help the economy back on track and more of a 
political document.
    As secretary of labor you are well aware of the 
difficulties facing the nation's workers and employers. With 
gas prices rising, consumer confidence falling, and job 
creation largely flat, it is now more important than ever to 
ensure the federal government is not standing in the way of 
economic growth and job creation.
    The modest improvement we have experienced in recent months 
is a testament to the strength and enduring optimism of the 
American people that as a nation we always overcome adversity. 
However, a budget that simply doubles down on the failed 
policies of the past is a disservice to the country and will 
undermine the progress we have made. Working families cannot 
prosper under the crushing weight of this much debt, and no 
economy built to last can be constructed on massive tax 
increases and explosive federal spending.
    Quite frankly, the president's budget embraces the wrong 
priorities and reflects a failure of leadership. The policies 
and priorities for the Department of Labor present a clear 
example of the flawed policies that are hurting job creation 
and restricting our economic recovery.
    The department's use of taxpayer dollars sends a strong 
message to employers that they have an adversary in the federal 
government, not an ally. For example, in policies government 
workplace safety and wage and hour standards punitive 
enforcement actions take precedent over efforts to help 
employers understand and comply with the law.
    The department is also advancing costly regulatory schemes 
that are creating even more uncertainty for job creators, such 
as crafting an injury and illness prevention plan that would 
burden employers with more mandates but do little to improve 
workplace safety. And while employers face more punitive 
measures, union leaders continue to enjoy less transparency and 
accountability over how they spend workers' dues.
    Despite this misguided agenda, I remain committed to 
finding common ground on real solutions that will help our 
economy grow and create jobs. We have found areas of agreement 
in the past, including expanding free trade and extending tax 
relief. It is vital that we build on these past efforts.
    One area in which I hope we can work together is reform of 
our nation's job training system. I commend the president for 
highlighting in his State of the Union address the confusing 
maze of job training programs spread across the federal 
government. However, in recent months and in the budget 
proposal before us today the president has also called for new 
job training programs which would further complicate the tangle 
of existing programs.
    To reconcile the president's statements with his policy 
proposals Ms. Virginia Foxx and I sent a letter to you, Madam 
Secretary, requesting additional information about the 
president's plan, and while I appreciate the response you 
provided I am afraid it still leaves important questions 
unanswered.
    Where is the plan to create one program for job seekers and 
how does it fit into the president's call for more programs? 
Your letter described two new initiatives as, quote--``short-
term investments.'' Well, how short-term will these investments 
be and how do we ensure they don't add to the confusion already 
facing workers?
    These are just some of the important questions we are 
interested in discussing with you today, Madam Secretary. We 
share a commitment to ensuring America's workers, employers, 
and entrepreneurs have every opportunity to prosper and I look 
forward to learning how the manner in which you intend to spend 
taxpayer resources will aid in this endeavor.
    Before I recognize my distinguished colleague, George 
Miller, I want to welcome back to the committee--if she is--
yes, indeed--my colleague from Ohio's 11th district, 
Congresswoman Marcia Fudge.
    We are glad to have you back. Welcome to the committee. 
[Applause.]
    And now I yield to Mr. Miller for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good morning, Secretary Solis. Thank you for being with us today to 
discuss the policies and priorities of the Department of Labor.
    Before we begin, I am saddened to recognize the passing of our 
friend and colleague, Donald Payne. For 23 years, Donald served his 
nation and the people of New Jersey's10th congressional district with 
intelligence, tact, and honor. America's teachers, workers, students, 
and employers lost a strong advocate earlier this month, and I know I 
speak for all my colleagues on the committee when I say Donald will be 
deeply missed.
    Now, as I know Secretary Solis' time is limited here today, I will 
turn to the issue of the day. On February 13, President Obama released 
his fourth budget proposal since taking office.
    The Associated Press reported the fiscal year 2013 budget blueprint 
``[takes] a pass on reining in government growth'' and ``reprises a 
long roster of prior proposals,'' such as more stimulus spending and 
tax increases.
    According to Politico, ``the bottom line is a fourth straight year 
of $1 trillion-plus deficits.'' And USA Today editorialized the ``best 
test of a budget proposal these days is whether it reins in the 
national debt,'' adding, ``The election-year budget of President Obama 
* * * fails that test.''
    I couldn't agree more. The reality of the president's budget is 
disturbing. Among its flaws, it contains:
    <bullet> $47 trillion in government spending over the next decade;
    <bullet> $1.9 trillion in tax hikes on families and job creators; 
and
    <bullet> $11 trillion in new debt piled on the backs of our 
children and grandchildren.
    These figures come from the House Budget Committee--but in the 
interest of nonpartisanship, I'd also like to note the Congressional 
Budget Office recently said the president's budget will lead to a $977 
billion deficit next year--breaking the president's promise to cut the 
deficit in half by the end of his first term. Additionally, CBO said 
this budget proposal will bring a total of $6.4 trillion in deficit 
spending over the next 10 years.
    One year ago, more than 150 of the nation's leading economists 
called for immediate action to rein in federal spending to support 
economic growth and private-sector job creation. It is clear that with 
this budget, the administration has again chosen to ignore the urgent 
plea for fiscal responsibility. Regrettably, the president's budget is 
less of a serious plan to help get the economy back on track than a 
partisan, political document.
    As Secretary of Labor, you are well aware of the difficulties 
facing the nation's workers and employers. With gas prices rising, 
consumer confidence falling, and job creation largely flat, it is now 
more important than ever to ensure the federal government is not 
standing in the way of economic growth and job creation.
    The modest improvement we've experienced in recent months is a 
testament to the strength and enduring optimism of the American people 
that as a nation we always overcome adversity. However, a budget that 
simply doubles down on the failed policies of the past is a disservice 
to the country and will undermine the progress we have made. Working 
families cannot prosper under the crushing weight of this much debt, 
and no ``economy built to last'' can be constructed on massive tax 
increases and explosive federal spending.
    Quite frankly, the president's budget embraces the wrong priorities 
and reflects a failure of leadership. The policies and priorities for 
the Department of Labor, for example, present a clear example of the 
flawed policies that are hurting job creation and restricting our 
economic recovery.
    The department's use of taxpayer dollars sends a strong message to 
employers that they have an adversary in the federal government, not an 
ally. For example, in policies governing workplace safety and wage and 
hour standards, punitive enforcement actions take precedent over 
efforts to help employers understand and comply with the law.
    The department is also advancing costly regulatory schemes that are 
creating even more uncertainty for job creators, such as crafting an 
injury and illness prevention plan that would burden employers with 
more mandates but do little to improve workplace safety. And while 
employers face more punitive measures, union leaders continue to enjoy 
less transparency and accountability over how they spend workers' dues.
    Despite this misguided agenda, I remain committed to finding common 
ground on real solutions that will help our economy grow and create 
jobs. We have found areas of agreement in the past, including expanding 
free trade and extending tax relief. It is vital that we build on these 
past efforts.
    One area in which I hope we can work together is reform of our 
nation's job training system. I commend the president for highlighting 
in his State of the Union address the confusing maze of job training 
programs spread across the federal government. And while I appreciate 
the response you provided to our request for additional information, 
I'm afraid it still leaves important questions unanswered.
    Where is the plan to create one program for job seekers and how 
does it fit into the president's call for more programs? Your letter 
described two new initiatives as ``short-term investments.''
    How ``short-term'' will these investments be and how do we ensure 
they don't add to the confusion already facing workers? These are 
questions I hope we will explore later today and we look forward to 
your testimony.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman, and thank you for 
recognizing Congresswoman Marcia Fudge, who is rejoining the 
committee. She first joined the committee in 2009 and made a 
very strong mark on behalf of children's nutrition and 
education, and generally, in children's health, where--she has 
also doubled down on that effort with her service on the--on 
the House Agriculture Committee and trying to--to make sure 
that we can avoid these childhood diseases that are presenting 
themselves to us because of the nutritional habits of--of many 
of our children and families.
    And so welcome so much back to the committee, Marcia. We 
are happy to have you.
    Secretary Solis joins us at a turning point for our 
nation's workers and families. The Wall Street financial 
scandals and the resulting 2008 global financial crises threw 
our economy into a tailspin. The resulting recession was long 
and deep and in January 2009, the month that President Obama 
took office--the month President Obama took office--the economy 
lost 839,000 jobs.
    When Secretary Solis first appeared before the Education 
and Labor Committee 2 years ago the unemployment rate stood at 
10.6 percent. More than 8 million workers had been laid off and 
millions more were rightfully concerned that they could be 
next. This country was going through the worst economic 
downturn since the Great Depression.
    Fortunately, things have begun to turn around, and while 
much work remains to be done the economy is beginning to heal 
and we are in a much better place today than we were when 
Secretary Solis first joined us in February of 2010. But this 
wasn't a matter of luck. The crisis was turned around in large 
part because of the actions taken by the Obama administration, 
the previous Congress, and the Federal Reserve.
    Economists across the ideological spectrum agree that bold 
action laid the groundwork for the economic recovery. By 
working together for the good of the economy we stopped the 
hemorrhaging and laid the tracks for a return to economic 
growth.
    The facts are indisputable. Today the unemployment rate is 
dropped to 8.3 percent. There have been 24 straight months of 
private sector job growth and 3.9 million new jobs have been 
created. In fact, private sector job growth is at its fastest 
rate since early 2006, back when the housing bubble was driving 
the economy.
    Over the last 2 years the economy added 429,000 
manufacturing jobs after years of sector decline, and the 
American automobile industry and its extensive network of 
suppliers throughout the country have been rescued along with 
millions of good, middle class jobs. Small Business Optimism 
Index has seen 6 consecutive months of gains in confidence as 
the recovery builds, and the markets are up nearly 27 percent 
since Secretary Solis' first appearance.
    While we are headed in the right direction there is no 
question that more work remains to be done if we are to fully 
rebuild our middle class economy and reignite the American 
dream. And Secretary Solis has been in the forefront of these 
efforts.
    By statute, the mission of the Department of Labor is to 
foster, promote, and develop the welfare of wage-earners in the 
United States, to improve their working conditions, and to 
advance their opportunities for profitable employment. This 
mission expresses an important American value. Not only do we 
value hard work and entrepreneurial spirit, our nation also 
values a job that is safe. It values the careers that treat 
workers fairly and compensate them according to the law. 
Upholding these values creates more jobs and more business 
opportunities.
    Another piece of the agency's mission is to advance the 
opportunities for profitable employment, and central to this is 
the millions of workers and local businesses who utilize the 
Workforce Investment Act employment and training services each 
year. A modern workforce investment system must rise to meet 
the needs of the country's labor market and create 
opportunities for Americans to step into the middle class.
    Now is not the time to gut its mission, as some are 
proposing, but the fact remains that the current system needs 
improvement. It needs to better align education and training 
programs so that workers have the skills for the in-demand 
careers.
    It does no good to provide training to jobs that don't 
exist. That is why Congressman Tierney and Congressman Hinojosa 
and I introduced a bill yesterday to modernize the workforce 
investment programs.
    It will do this by encouraging the innovative programs that 
connect workers with in-demand industries, streamlining access 
to important services, and increasing the accountability for 
those services. WIA must be doing more to encourage the private 
sector partnerships and connect employers and labor unions, 
community colleges, workforce boards, local governments to meet 
the local workforce needs.
    I join you, Mr. Chairman, in recognizing that this is 
something that this committee can and should be working on 
together right now. It would modernize and introduce real 
accountability to a system of--a system in desperate need of 
it.
    In the process, it will help give millions of Americans the 
opportunity to climb into the middle class. A bipartisan panel 
of governors delivered that exact message when they testified 
before the committee earlier this year. They asked us to put 
aside those issues that divide us and work together where we 
could find consensus, like reforming the Workforce Investment 
Act.
    It is my hope that we will heed their message, especially 
during these times of crises for so many American workers and 
employers, that Congress would be working together to benefit 
all of them. The country deserves a Congress that solves its 
problems and I look forward to working with you on the 
reauthorization of WIA, and I want to thank Secretary Solis for 
her appearance here today and look forward to her testimony.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Washington.--Secretary of Labor Hilda Solis testified today before 
the House Education and the Workforce Committee emphasizing efforts 
that she and the Obama administration are taking to improve employment 
opportunities and ensure that all Americans can benefit from the 
economic recovery.
    ``At stake is the very survival of the basic American promise that 
if you work hard, you can do well enough to raise a family, own a home 
and put enough away for retirement,'' said Sec. Solis. ``The best way 
to continue moving our nation forward is to work with Congress in a 
bipartisan manner to support meaningful policies that help our economy 
grow.''
    While the 2008 Wall Street financial scandals and subsequent 
recession resulted in the worst economic crisis since the Great 
Depression, the economy is headed in the right direction. There have 
been 24 straight months of private sector job creation culminating in 
3.9 million new jobs. Despite the good news, Democrats agreed with 
Secretary Solis that more needs to be done and urged Congress and the 
Obama administration to work together to continue to grow the economy.
    ``Economists from across the ideological spectrum agree: Bold 
action laid the groundwork for the economic recovery. By working 
together for the good of the economy, we stopped the hemorrhaging and 
laid the tracks for a return to economic growth,'' said Rep. George 
Miller (D-CA), the senior Democrat on the committee. ``While we are 
headed in the right direction, more work remains to be done if we want 
to fully rebuild our middle class economy and reignite the American 
Dream.''
    Miller and other members including Reps. Ruben Hinojosa and John 
Tierney pointed out the need to work together to reform and modernize 
the Workforce Investment Act in order to better align education and 
training programs so that workers have the skills for in-demand 
careers. Yesterday, the lawmakers introduced the Workforce Investment 
Act of 2012 (H.R. 4227), legislation to strengthen the existing system 
by streamlining and increasing access to training, promoting 
innovation, and ensuring accountability and transparency.
    ``The Democratic bill develops a 21st century delivery system for 
workforce training and adult education that leads to career pathways, 
increased educational and workforce training opportunities and economic 
self-sufficiency for our nation's workers,'' said Rep. Hinojosa.
    Rather than modernizing the Workforce Investment Act to meet the 
needs of workers and businesses looking for qualified employees today, 
House Republicans are instead pushing forward on a budget proposal that 
would cut back these important services.
                                 ______
                                 
    Chairman Kline. Thank the gentleman.
    Pursuant to committee rule 7(c) all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. Without objection, the hearing record 
will remain open for 14 days to allow statements, questions for 
the record, and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished 
witness. And again, this is one of those cases where she 
probably needs no introduction, but let me just briefly say 
that--remind my colleagues that the Honorable Hilda Solis was 
confirmed as secretary of labor on February 24, 2009. Boy, that 
was very quickly done.
    Prior to her confirmation, Secretary Solis served as a 
member of Congress, representing the 32nd district in 
California from 2001 to 2009, and many on this committee had a 
chance to serve with her not only in Congress but on this 
committee. She graduated from California State Polytechnic 
University and earned a master of public administration from 
the University of Southern California.
    It is really nice to have you back. My script here now 
tells me I am supposed to explain our lighting system. I don't 
think I am going to need to do that. It hasn't changed in many 
years. It is still green, yellow, red.
    Secretary Solis. All right.
    Chairman Kline. And with that, Madam Secretary, you are 
recognized.

          STATEMENT OF HON. HILDA L. SOLIS, SECRETARY,
                    U.S. DEPARTMENT OF LABOR

    Secretary Solis. Thank you very much, Chairman Kline. It is 
a pleasure to be here with you and my colleagues.
    And to Ranking Member Miller and members of the committee, 
I want to thank you for inviting me here this morning to 
testify to you about what we are doing at the Department of 
Labor. It is always a pleasure to come back and see so many 
friends and colleagues.
    But I want to take also a moment to pay tribute to a dear 
friend, also, and colleague and member of this committee, and 
that was the fabulous Congressman Donald Payne, somebody that I 
got to know sitting there with you on the dais talking about 
issues relating to workers, and children, and disadvantaged 
communities. He indeed was a true champion for working people 
and did so much to improve our nation's workforce.
    I think the last time I had the chance to really see him 
and work with him was at an Aspen Institute retreat that I 
attended with him in Cancun before the hurricane, and I 
remember our conversations and I believe some of the committee 
members were also in attendance. But just to hear his passion 
and his commitment to people around the world and the struggles 
that people were suffering and how important that was and 
bringing it home here to this committee and how we could help 
make efforts change working through bipartisan support.
    So I say that I would hope that we could move forward in 
his memory working together on bipartisan direction and matters 
that will help to improve our nation and hopefully correct 
those many things in the world that he saw that needed 
improvement that I think all of us can agree on. So I thank you 
for the opportunity to say that.
    Since I last came here and testified before you more than a 
year ago many economic indicators show we are moving on a path 
to long-term economic recovery. Just 3 years ago we had upwards 
of 10 percent unemployment and now it stands at 8.3 percent, 
the lowest since the Recovery Act was passed. The African 
American unemployment rate has dropped from over 16 percent to 
14.1 percent; and the Latino unemployment rate, which was well 
over 13 percent, to 10.7 percent.
    In 2009 there were seven unemployed Americans for every job 
opening. Today that ratio is under four-to-one.
    However, you and I know we still have a lot more work to do 
because we realize there are 12.8 million people that are still 
looking for work; they remain unemployed. And 43 percent have 
been out of work for longer than 6 months.
    And I believe to create an economy that is built to last 
President Obama has laid out a blueprint that emphasizes 
strengthening American manufacturing, growing our energy 
sector, and improving job training skills for our workers. To 
do our part, the Department of Labor is supporting the 
president's $8 billion Community College to Career Fund to 
forge new partnerships between community colleges and local 
entrepreneurs and integrate that in our workforce system.
    Last September, as you know, we awarded $500 million in the 
Trade Adjustment Assistance community college and career 
training grant program. And just last month I had the privilege 
to be joined with Vice President Biden and Dr. Jill Biden to 
announce a second round of $500 million for these grants.
    My department's Green Jobs Training Grants are preparing 
workers for careers in renewable energy fields. These grants 
have reached nearly 83,000 workers and more than 51,000 have 
completed training. Of these, 87 percent have received a 
credential such as a certificate or degree and 20,000 have 
entered into new employment with 81 percent of them in green 
training-related jobs. Keep in mind that many of them were 
incumbent workers and were able to keep their jobs or move up 
the ladder at their current job site.
    We are also pushing ahead to modernize, streamline, and 
reform our job training program. We have proposed a universal 
core set of services to help all displaced workers find new 
jobs. We are establishing one program, one Web site, and one 
place, and an American job center network that will unify the 
workforce system and better connect job seekers with employers.
    We are also supporting workers through our Center of Faith-
Based and Neighborhood Partnerships, who is working with job 
clubs and career ministries across the country. The connections 
formed here can help job seekers expand their professional 
networks and get to other critical support.
    I recently visited one of the largest job clubs close to 
Washington, the McLean Bible Church Career Network Ministry, in 
Vienna, Virginia. The group has many success stories and I 
would like to say hello and welcome them--we have some of them 
here in the Career Network Ministries who are here with us 
today.
    And, Chairman Kline, you may be interested to know that 
just last month we hosted a job club symposium at the Temple 
Israel synagogue in Minneapolis. One of the panels featured 
Catherine Byers Breet, who leads the Easter Lutheran Church Job 
Transition Support Group in Eagan. It is a model group that is 
helping individuals get back to work and help those displaced 
professionals and especially returning veterans.
    And to assist our veterans we have launched a new Web site 
called ``My Next Move for Veterans'' to help them discover jobs 
where their skills can be translatable. I have also developed 
the Veterans Gold Card, which allows post-9/11 veterans to get 
6 months of intensive job counseling and personalized case 
management services. This builds upon existing programs to help 
veterans find work.
    However, our role to support and train workers doesn't just 
stop with adults. I recently joined President Obama to announce 
our Summer Jobs-Plus Initiative. It is a call to action for 
businesses, nonprofits, local mayors, and government entities 
to put our young people to summer youth employment.
    We have also secured commitments from more than 200,000 
summer work opportunities. Our goal is to reach about 250,000. 
This is all volunteer.
    Also, the department Job Corps program, YouthBuild 
programs, continue to provide work opportunities and training 
for our most vulnerable youth. In fact, some of our local D.C. 
YouthBuild participants are here in the audience.
    We have also had many Job Corps success stories that I 
would like to talk about, but one in particular I would like to 
share that may be of particular interest to Congressman Kildee. 
Last March Nate Ford graduated from our Flint Job Corps Center 
in Michigan. He did great work through the center learning 
carpentry skills.
    After graduating from the Job Corps program Nate got an 
internship as a youth construction supervisor with Habitat for 
Humanity, where he taught other youth volunteers how to use 
various tools of the trade and other construction basics. He 
stayed in the position for 3 months and then was hired full 
time to interview and instruct new members of the different 
Habitat for Humanity products.
    Nate happens to be here today and I also want to welcome 
him and congratulate him for a job well done. So I want to 
point that out. Thank you.
    Another area where we continue to focus is helping 
America's women earn equal pay for equal work, and as we 
commemorate Women's History Month we are reminded that almost 
50 years after the passage of Equal--the Equal Pay Act a 
stubborn wage gap is consistent. Women earn, on the average, 
about 80 cents on the dollar for men doing the same jobs. The 
impacts are not only against women but also their entire 
families; they rely upon their earnings and the gap is even 
more pronounced when you talk about women of color.
    DOL is partnering in President Obama's Equal Pay 
Enforcement Task Force that is bringing agencies together to 
address that pay gap. The department continues to protect the 
rights of American workers and help level the playing field for 
employers who do play by the rules.
    The Occupational Safety and Health Administration and the 
Mine Safety and Health Administration are on the front lines 
protecting workers from workplace hazards and injuries. Almost 
2 years ago the Upper Big Branch mining tragedy in West 
Virginia claimed the lives of 29 miners.
    Our investigation found that this terrible incident was a 
result of intentional and systematic efforts to avoid 
compliance with MSHA standards and regulations. We recently 
completed our internal review of MSHA's actions at the Upper 
Big Branch Mine prior to the explosion, and of course, we are 
committed to continuing improvements at MSHA and to additional 
corrective action because we know that workers should not have 
to risk their lives for their livelihood.
    OSHA is also on the forefront of our efforts to ensure 
workplace safety. We understand that most employers want to do 
the right thing but we know some insist on taking shortcuts. 
That is why OSHA continues to aggressively enforce our health 
and safety laws, and we will continue to support the employers 
in your districts who do play by the rules and run safe 
workplaces.
    But we also remain committed to securing the incomes and 
benefits of all workers. Our Employee Benefits Security 
Administration, EBSA, protects the retirement security and 
health benefits of workers and retirees and their families. 
Recently EBSA finalized a rule improving the transparency of 
401(k) fees to ensure that workers' hard earnings are not 
eroded.
    The work of the Wage and Hour Division is also critical to 
working families and women. Last year we secured over $220 
million in back wages for well over 275,000 workers, the 
largest amount in the division's history. Wage and Hour has 
also undertaken initiatives to protect flight crews and in-home 
caregivers.
    I believe that programs and policies of the Department of 
Labor are making a difference in American lives. The economy is 
improving and we are seeing broad employment gains. As our 
recovery continues my department will continue our critical 
work to give Americans the job training, skills, and 
opportunities so that they can lead safe lives at work and also 
be a part of the middle class.
    Thank you again, Mr. Chairman, and members of the 
committee, and I am happy to respond to your questions.
    [The statement of Secretary Solis follows:]

         Prepared Statement of Hon. Hilda L. Solis, Secretary,
                        U.S. Department of Labor

    Chairman Kline, Ranking Member Miller and Members of the Committee, 
thank you for inviting me to testify about the work we are doing at the 
Department of Labor (DOL). As always, it is a pleasure to be back among 
my friends and former colleagues. This is now my third time testifying 
before this committee. I think you have a good understanding of where I 
come from and what our priorities are at the Department. However, I 
always appreciate having the opportunity to update you on the 
Department's work and receive feedback from the Members of the 
committee so we can continue to work together to move America forward.
    Since I was here over a year ago, much has changed and there are 
many indications that we are on the path to long-term economic 
recovery. It is useful to remind ourselves what a long way we have 
come. Before President Obama took office, 4.4 million jobs had been 
lost since the beginning of the recession. From the onset of the 
recession in December 2007 until the Recovery Act passed, we were 
losing an average of almost 370,000 per month; just under 820,000 jobs 
alone were lost in the month before the Recovery Act was passed in 
February 2009.
    The national unemployment rate now stands at 8.3 percent, down from 
its October 2009 peak and the lowest since the Recovery Act was passed. 
Importantly, the recent drop in unemployment has been driven by 
employment gains, not workers leaving the labor force. We have created 
3.9 million jobs in the private sector over the last 24 consecutive 
months.
    America's labor market grew stronger in 2011. We created over 2 
million private sector jobs, and the unemployment rate fell in 48 
states. Additionally, the number of mass layoffs continued to decline, 
with 12 of 19 industries reporting a decrease in new claims associated 
with mass layoffs over the year. Now we are seeing sustained job growth 
across almost every industry. Similarly, the number of people starting 
new claims for unemployment benefits has been declining since last 
September and has receded to March 2008 levels. In 2009, we saw seven 
unemployed Americans for every job opening; that ratio is now under 
four to one. This is due to a combination of more hiring and a decline 
in layoffs.
    There are other positive signs of our growing economic recovery. We 
have seen ten straight quarters of GDP growth. Private investment grew 
faster in 2011 than in the year before, and durable orders in the 
manufacturing sector have been trending upward. Also, the housing 
market is improving with building permits increasing sharply during the 
last six months, while personal spending continued to grow above pre-
recession levels. We are creating jobs on a consistent basis, but we 
will not be satisfied until everyone who wants a job can find one. We 
know that 12.8 million Americans are unemployed and, of those, 43% of 
them are long-term unemployed. We also know that the recession hit some 
groups particularly hard and that the recovery has only recently 
started to reach many of these groups.
    The unemployment rate of African Americans peaked at 16.7% as 
recently as August 2011, while the Hispanic unemployment rate peaked at 
13.1% in November 2010. But over the past six months, as the national 
unemployment rate has fallen, the African American unemployment rate 
has dropped to 14.1% and the Hispanic unemployment rate to 10.7%. 
Despite these improvements, the unemployment rate is still high, and 
there is still much work that needs to be done.
    To create an economy that is built to last, the President laid out 
a blueprint for growth that emphasizes strengthening American 
manufacturing, American energy, education, and skills training for 
workers in a way that is consistent with American values. Now is a make 
or break moment for the middle class and those trying to reach it. At 
stake is the very survival of the basic American promise that if you 
work hard, you can do well enough to raise a family, own a home, and 
put enough away for retirement. The best way to continue moving our 
nation forward is to work with Congress in a bipartisan manner to 
support meaningful policies that help our economy grow.
    This Administration strongly supported a bipartisan extension of 
the payroll tax cut and emergency unemployment insurance benefits. 
Unemployment insurance is a critical lifeline for those without a job. 
Since the beginning of the recession and through the recovery, the 
extension of unemployment benefits is estimated to have helped 17 
million workers and this year's extension will help another 4.3 million 
unemployed workers and an additional 8.1 million people living with 
them. But the extension of unemployment benefits and payroll tax cuts 
is not just the right thing to do for these families but also the smart 
thing to do. We know that for every dollar put in the pockets of the 
unemployed, about two dollars ripple through the economy, benefitting 
all of us. For the typical family, the payroll tax cut means an extra 
$40 in every paycheck.
    These two programs make a huge difference in helping families meet 
their daily responsibilities to feed and clothe their children, heat 
their homes, and pay for gas and transportation costs. The bipartisan 
extension legislation adopted several proposals that were included in 
the President's American Jobs Act, such as providing greater 
flexibility in the use of unemployment benefits to help the unemployed 
get back to work, funding reemployment services, and giving states the 
flexibility to use unemployment funds to help individuals establish 
their own businesses.
    In addition, this Administration has also stood with auto workers 
and the communities whose economies depend on the industry. The 
resurgence of the American automobile industry is seen in the fact that 
we've added roughly 200,000 new auto-related jobs over the past two and 
a half years. I am proud that the Department's Office of Recovery for 
Auto Communities and Workers (ORACW) has played an important role in 
coordinating the Federal response to help automotive communities and 
workers whose lives have been disrupted.

Investing in a Competitive Workforce
    The President has laid out proposals for ushering in a new era of 
American manufacturing, with more good jobs created and more products 
stamped ``Made in the USA.'' We are seeking new tools that help 
American small businesses compete and lower tax rates for companies 
that make products and create jobs in the United States. Our students 
and workers must receive critical skills training so our workforce is 
aligned with the increasingly technical needs of American 
manufacturers. For these reasons, we are forging new partnerships 
between community colleges, businesses and the public workforce system 
to train and place skilled workers in high-wage, high-growth jobs.
    Community colleges understand the needs of local employers. The 
Administration's new $8 billion Community College to Career Fund, which 
we would co-administer with our colleagues at the Department of 
Education, will better enable our community colleges to partner with 
industry and develop training programs for workers to enter high-growth 
and high-demand industries that meet the needs of local employers. The 
Fund will also allow federal agencies to partner with state and local 
governments to help businesses that want to invest in America train the 
local workforce that best meets their skill needs. We are helping 
employers match what's taught in the classroom with their needs in an 
office or on the factory floor. This program will also support 
entrepreneurship training for workers and entrepreneurs. Altogether, 
the Community College to Career Fund will train up to 2 million 
American workers by 2015.
    When I last came before you, we had just announced the grant 
competition for the Trade Adjustment Assistance Community College and 
Career Training (TAACCCT) program. Last September, we awarded $500 
million to educational institutions that partnered with employers in 
every state. Last month, I was excited to visit Roane State Community 
College (RSCC) in Harriman, Tennessee, the recipient of a $2.86 million 
TAACCCT grant. I am sure Congressman DesJarlais can attest to the good 
work they are doing there. With this funding, RSCC is launching the 
Advanced Materials Training and Education Center with the mission of 
helping workers get back on their feet through training, and building 
partnerships with a number of local industry and economic development 
partners. Roane State also has partnered with Oak Ridge National 
Laboratory in an effort to develop a low-cost, low-density carbon fiber 
that can replace heavier steel used in airplanes, autos, and boats. The 
workers enrolled at the Center are being trained for good-paying 
advanced manufacturing jobs that can ultimately help reduce our 
dependence on foreign oil.
    RSCC was one of the many strong applications we received. Last 
month, I joined Vice President Biden and Dr. Jill Biden at Davidson 
County Community College in Thomasville, North Carolina, to announce a 
solicitation for $500 million in TAACCCT grants for FY 2012. We plan to 
make available $500 million in additional funding over each of the next 
two Fiscal Years. This program will help advance our national goals to 
have every American obtain at least one year of post-secondary 
education and have the highest proportion of college graduates in the 
world by 2020.
    We need to further advance these new skills to match the new 
challenges of our 21st century economy. In his State of the Union 
address, President Obama drove home the point that it's unacceptable 
that American companies have millions of unfilled job openings at a 
time of high unemployment. We must do more to help job-seekers acquire 
the skills to land jobs that already are open. Right now, there are 
high-growth industries that cannot find skilled labor to fill open 
positions, and we need to train our workers immediately to fill them.
    One way we are addressing this challenge is through our H-1B 
Technical Skills Training Grant Competition, which has awarded $342 
million in grants to 79 public-private partnerships serving 31 states 
and the District of Columbia over the last 9 months. These grants will 
provide American workers with education, training and job placement 
assistance in high-growth industries and occupations where employers 
are currently using the H-1B nonimmigrant visa program to hire 
temporary foreign workers to respond to workforce shortages. Industries 
served by this program include advanced manufacturing, energy, health 
care, and information technology.
    I was happy to see Congress pass some key Administration priorities 
in legislation extending the payroll tax cut, providing businesses tax 
credits for hiring our veterans, extending unemployment insurance 
benefits for the long-term unemployed, providing incentives for states 
to run short-time compensation programs so employees can avoid being 
laid off, and authorizing the use of emergency unemployment insurance 
funds to help the long-term unemployed participate in self-employment 
assistance programs. Additionally, the President's FY 2013 budget 
proposes a $12.5 billion Pathways Back to Work Fund to provide 
employment opportunities for low-income adults and youths and to make 
it easier for the long-term unemployed and low-income workers to remain 
connected to the workforce and gain new skills for long-term 
employment.
    The Department is also actively supporting policies and initiatives 
that don't require congressional approval to ensure our economy 
continues on the path to full recovery. We continue to develop new 
partnerships with the public and private sector to leverage their 
combined expertise. One such collaboration is our Social Jobs 
Partnership with Facebook. We have teamed up with the social media 
site, the National Association of State Workforce Agencies, the 
DirectEmployers Association, and the National Association of Colleges 
and Employers to provide employment resources to a large group of job 
seekers who utilize social networking. This initiative is providing 
immediate, meaningful and ready-to-use information for job seekers and 
employers, and a modern platform to better connect them with career 
opportunities.
    I also understand the impact high energy prices have on middle 
class families. This is why the President has made clear we need an 
all-of-the-above approach to energy policy, one that makes strategic 
investments in a clean energy future. The transition to a clean energy 
economy will reduce our dependence on foreign energy while also 
spawning a new industry of sustainable green jobs in the United States. 
The President presented a vision for a new era in American energy 
fueled by homegrown and alternative energy sources designed and 
produced by American workers.
    In June of last year we awarded $38 million through the Green Jobs 
Innovation Fund to help existing training programs leverage additional 
resources to build sustainable green career pathways. And through the 
Recovery Act, the Department invested nearly $500 million in 189 green 
job training programs to help train workers for careers in solar, wind, 
biofuels, and other renewable energy sources available throughout the 
United States.
    These grants are helping train workers for the jobs of tomorrow and 
retain employment today. Our Recovery Act green job training grants 
have served and are still serving nearly 83,000 workers. Over 51,000 
have completed training and of these, 87% have received a credential, 
such as a certificate or degree. Despite tough economic times, almost 
20,000 training completers have now entered new employment with 81% of 
them in green training-related jobs. It is important to note that of 
the 83,000 number, almost 39,000 were incumbent workers. We estimate 
that at least 90% of these workers who received green jobs training 
retained employment because of the skills upgrades they received, with 
the remaining workers finding new positions. These were smart 
investments that are preparing Americans for the clean energy jobs 
driving our 21st century economy, and it is important to remember that 
some of the programs will not be finished until 2013. These grants have 
already helped thousands of people and they continue to help more 
people every day. This is important because a report last year from the 
Brookings Institution, in collaboration with the Battelle Technology 
Partnership Practice, entitled Sizing the Clean Economy: A National and 
Regional Green Jobs Assessment, estimated that 2.7 million Americans 
are employed in positions related to the ``clean economy.'' And 
although much smaller in size than traditional industry sectors, green 
energy is growing rapidly: these sectors grew at a rate of 8.3% between 
2003 and 2010--almost double the growth rate of the overall economy 
during that time.
    I am particularly proud of our partnership, led by our Center for 
Faith-based and Neighborhood Partnerships, with job clubs and career 
ministries across the country. While we do not provide any funding to 
the job clubs, they are a valuable component of the workforce 
investment system. The personal connections within a congregation or 
community can help job seekers expand their professional networks and 
get other support critical to employability. This support includes 
emotional and even spiritual support through a process that--as anyone 
who has had to search for a job can attest--can often be isolating and 
emotionally draining. Employers that have worked with job clubs have 
successfully met their hiring needs by building trust with job club 
leaders and members. Through these strategic partnerships, job clubs 
also offer a nice community complement to the workforce investment 
system to serve more job seekers in an efficient manner.
    I recently visited one of the largest job clubs in the country, the 
McLean Bible Church Career Network Ministry in Vienna, Virginia. This 
group draws between 100 and 250 people every Tuesday evening. They have 
hundreds of success stories from the past two years, including Karen 
McCann, who showed up at her office one day in December 2010 to learn 
that her position was being terminated through no fault of her own. She 
was out of work for nearly nine months. During this time, she attended 
the ministry to learn how to become a better networker and how to more 
effectively market her skills and experience. The camaraderie of the 
group meetings helped her maintain a positive outlook during the job 
search process. As a result, she landed a new management position with 
a technology firm.
    Chairman Kline, you may be interested to know that in your own 
Congressional District there are a handful of job clubs hosted by local 
churches that are providing invaluable support to job seekers--or as 
the clubs like to call them, people in transition. Last month, we 
hosted a Job Clubs Symposium at the Temple Israel Synagogue in 
Minneapolis. One of the panels featured Catherine Byers Breet, who 
leads the Easter Lutheran Church Job Transition Support Group in Eagan, 
a model group that is helping a range of individuals get back into the 
workforce, from dislocated professionals to returning veterans.
    The Department also continues to use National Emergency Grants 
(NEG) to help those communities that have been hit hard by disasters or 
large layoffs. In 2011, the Department made available over $265 million 
to 34 states and Puerto Rico. We all remember the devastating impact 
Hurricane Irene had on the East Coast and Puerto Rico. To help with the 
clean-up and recovery in these communities, we have made available over 
$50 million in NEG funding to New Jersey, New York, North Carolina, 
Pennsylvania, Puerto Rico, and Vermont. I know that there are Members 
on this Committee whose districts were hit hard and you have my 
commitment that the Department will continue to work with those 
communities to provide all the assistance and support we can.
    We also all remember the horrific images of the City of Joplin, 
Missouri after it was hit by a tornado in May of last year. The 
Department was one of the first agencies on the ground to help the 
affected families. To date, we have provided almost $20 million in NEG 
funds to help dislocated workers and support clean-up and humanitarian 
efforts. Our Occupational Safety and Health Administration (OSHA) 
personnel were also on the ground to provide vital health and safety 
advice and guidance to responders. I am proud of the assistance the 
Department of Labor provided as part of the larger effort to help 
Joplin rebuild.
    Also last year, communities in Illinois, Missouri, Kentucky, and 
Tennessee felt the impact of storms that spawned several tornadoes. 
Once again, the Department used nearly $30 million in NEG funds to help 
families in many of these states. Finally, I hope committee Members 
from Tennessee are aware of the support the Department is giving to the 
workers and families affected by the closure of the Goodyear Tire and 
Rubber Company in Union City. DOL has made available nearly $3.5 
million in NEG funds to help nearly 850 job seekers to search for new 
employment.

Modernizing the Workforce System
    The Department believes we can provide a ladder to higher-paying 
careers for more Americans with the reauthorization of the Workforce 
Investment Act (WIA). WIA reauthorization presents a unique opportunity 
to promote innovation in the public workforce system, build on its 
strengths, and address its challenges. Through the reauthorization 
process, the public workforce system can be positioned to help even 
more workers gain a foothold in the middle class by ensuring they have 
skills to succeed. It also can assist more American businesses by 
giving them the highly qualified human capital that will help them 
succeed in the 21st century global economy. WIA has helped many 
individuals find work during one of our country's most challenging 
economic times. During Program Year (PY) 2009 and PY 2010, 1.57 million 
WIA assisted adults and dislocated workers entered employment. In PY 
2010, nearly 70% of individuals receiving training services became 
employed within one quarter after program completion and over 85% 
retained employment in both the second and third quarters after program 
completion.
    In Congresswoman Foxx's home state of North Carolina, David Waugh 
experienced the power of WIA programs in helping unemployed workers get 
back on their feet. After many years in the construction industry, 
David suddenly found himself unemployed. But through the Jobs Now 
Program funded by WIA, David reinvented himself as a welder for a 
machinery manufacturer. He received career counseling and a scholarship 
through WIA-funded DavidsonWorks in Lexington to study welding and take 
math and computer courses. When he graduated, David entered an on-the-
job training program where he sharpened his skills for his new career. 
He was subsequently offered a full-time welding job with a local 
machinery manufacturer and was promoted into a supervisory position 
with the company. David said the training he received through the 
program helped define his career path and gave him the skills necessary 
to succeed.
    I remain committed to working with this Committee and Congress to 
support a bipartisan reauthorization proposal that includes the 
streamlining of service delivery, one-stop shopping for high quality 
services, engaging employers on a regional and sectoral level, 
strengthening accountability, and promoting innovation. The workforce 
proposals put forth by the President go hand in hand with these 
principles, and I share the commitment to building a public workforce 
system for the 21st century that is more efficient and responsive to 
the challenges of this economy and the labor market. Reforming the 
workforce system is an important goal, and the Administration seeks to 
work with the Congress to achieve this goal.
    The Department supports establishing ``one program, one website, 
and one place'' for workers to receive employment support. We seek to 
streamline, reform and modernize the way our job training system helps 
laid off workers get training to transition to new careers. In this 
increasingly global economy, it will be difficult to distinguish 
between trade, technology, outsourcing, consumer trends and other 
economic shifts that cause displacement. Therefore, as mentioned 
earlier, the FY 2013 budget proposes a universal core set of services 
to help all displaced workers, including workers who lost jobs in 
trade-impacted industries, find new jobs. Under the President's 
proposed Universal Displaced Worker program, up to a million workers a 
year would receive high-quality job-search assistance, together with 
access to critical skills training for high-growth and in-demand 
industries or, for older workers, the option of wage insurance--a 
significant improvement on the current system.
    We also plan to launch a new website and a single phone number that 
can be used by job seekers and employers to link to all available 
employment and job training resources. The FY 2013 budget proposes to 
strengthen One-Stop Career Centers and increase public awareness and 
use of the public workforce system. This budget request reflects an 
anticipated uptick in the use of the public workforce system by Post-9/
11 veterans returning home and seeking intensive services under the 
Department of Labor's ``Gold Card'' initiative, which is discussed in 
further detail below. For this reason, the President's proposal also 
calls for the creation of an American Job Center Network to unify all 
Federally-supported One-Stop Career Centers and electronic resources. 
We seek to expand access to workforce services by partnering with 
libraries and other entities to offer more convenient hours, and create 
better online tools that offer personalized services that reach the 
unemployed sooner and on a continuous basis. In addition, we propose to 
extend online and personalized services to better serve employers 
through our American Job Center Network.
    We have also implemented a number of administrative reforms to 
ensure that the workforce system is able to meet the needs of job 
seekers and businesses during this economic recovery. These include 
increasing innovation in workforce service delivery; improving 
reemployment strategies; strengthening connections between unemployment 
insurance and the workforce system; promoting industry recognized 
credential attainment; and making labor market and credential 
information more accessible to job seekers and employers.

Supporting Our Youth
    Our role to support, train, and prepare workers doesn't stop with 
adults. Our national youth unemployment rate currently stands at 16.5 
percent for youth ages 16 to 24. That number is better than the April 
2010 peak of 19.6 percent, but it's still unacceptably high. Youth 
summer unemployment has almost doubled since before the recession. Last 
July, the youth unemployment rate stood at 17.4 percent compared with 
10.5 percent in the summer (July) of 2007.
    Minority youth have had an especially difficult time finding summer 
employment. Last July, the unemployment rate for African American youth 
was 31 percent and 20.1 percent for Latino youth. Job opportunities are 
not only important for the youth themselves; in these tough economic 
times, many young people share their earnings with their families to 
help them make ends meet.
    It is more important than ever that our youth have opportunities 
that prepare them for the future and that encourage their growth and 
enrichment. That is why we announced President Obama's Summer Jobs Plus 
initiative, a call to action for American businesses, nonprofits and 
government entities to put our young people to work this summer. I've 
heard from countless employers about the value they have found in 
hiring young summer workers. These opportunities create lasting 
personal connections that build loyalty and add value to a company. 
They help companies build a pipeline of highly qualified local talent--
something critical to building strong communities.
    In 2009 and 2010, the Recovery Act helped around 368,000 young 
people to find summer work opportunities. Unfortunately, we have not 
had additional funding to fully continue this effort. In 2011, I 
traveled to communities across the country and challenged employers to 
make a commitment to summer jobs. A number of major corporations, 
nonprofits, local governments and others signed on and together we 
opened up 80,000 summer job opportunities for America's youth.
    We are building on this momentum in 2012. We have already secured 
commitments for more than 180,000 positions and our goal is to reach 
250,000 work opportunities before the beginning of summer. To help meet 
that goal, we will soon be launching a Summer Jobs Plus Bank, a one-
stop online search tool being built with help from Google, 
AfterCollege, LinkedIn, and Internships.com. These efforts will allow 
young people to access opportunities in their local communities.
    Our Job Corps program does just that by helping prepare 
disadvantaged youth for a brighter future. For PY 2010, the last full 
time period for which we have complete data, 84% of graduates entered 
employment, the military or enrolled in post-secondary educational 
training. More than 20,000 students earned a high school diploma or GED 
and more than 33,000 completed their career technical training and 
received a Career Technical Training certificate. Since July 2010, Job 
Corps has opened three new centers in Pinellas, Florida, Milwaukee, 
Wisconsin, and Ottumwa, Iowa. These centers are already up and running 
and making a huge difference in the lives of our youth.
    As you know, Job Corps also is focused on training and preparing 
our youth for the jobs of tomorrow. Our new green training programs 
have resulted in over 29,000 ``green graduates'' since PY 2009 in 
fields such as electronic health records, overhead linesman training, 
weatherization, solar, and smart grid technology. Job Corps also has 
developed an interim credentialing program with the Office of 
Apprenticeship designed to provide apprenticeship opportunities to 
graduates.
    We have many Job Corps success stories, but I'd like to share one 
that may be of interest to Congressman Kildee. In March of last year, 
Nate Ford graduated from our Flint/Genesee Job Corps Center in 
Michigan, working through the center's carpentry training area. Through 
the Work-Based Learning program, Nate worked with a local insulation 
company, Retrofoam, where he applied his training skills on a daily 
basis. After graduating from Job Corps, Nate got an internship through 
AmeriCorps as a youth construction supervisor with Habitat for 
Humanity. His responsibilities included teaching the youth volunteers 
about construction basics. He stayed in this position for about 3 
months and because his work was exceptional, he was hired full time. He 
now interviews and instructs new members for different Habitat for 
Humanity projects.
    Our 2013 Budget also proposes reforms to improve the Job Corps 
program. While most centers meet program standards, some centers have 
been persistently low-performing based on their educational and 
employment outcomes, and have remained in the bottom cohort of center 
performance rankings for many years. Especially in a constrained budget 
environment, and given the resource intensiveness of the Job Corps 
model, it is neither possible nor prudent to continue to invest in 
centers that have historically not served students well. The 
populations previously served by these Job Corps centers will be 
eligible to attend higher-performing centers. Job Corps will also make 
changes to its strategies and approaches based on the findings of 
program evaluations, strengthen the performance measurement system, and 
report center-level performance in a more transparent way.
    I'd also like to briefly update you on our YouthBuild program. 
Since 2007, 22,950 participants have been enrolled into the YouthBuild 
program. Since this time, a total of 7,887 participants have been 
placed into employment and 12,530 have received an industry-recognized 
certificate, credential or high school diploma. We expect more positive 
news as more youth finish their service in the YouthBuild program. We 
are proud of the success of our youth programs in helping to turn 
around the lives of youth who face difficult barriers to employment.

Honoring Our Veterans
    We also are working hard to do the same for our nation's veterans. 
We ask so much of our military personnel. They often put their careers 
on hold, leave their loved ones behind and embark on dangerous missions 
across the world to protect our daily freedoms.
    Our returning service members deserve a hero's welcome and a chance 
to utilize their unique skills to help rebuild our economy. By 
promoting priority of service for veterans in the One-Stop Career 
Center system, we ensure that veterans receive the training and 
employment assistance they need to obtain good jobs. Our homeless 
assistance programs help nearly 18,000 veterans in their efforts to 
reintegrate into the workforce. We provide transition assistance to 
144,000 service members and spouses as they move from the military into 
civilian careers.
    The Department of Labor has launched a number of new initiatives in 
the past year to assist veterans return to the civilian workforce. A 
new website called My Next Move for Veterans allows our veterans to 
enter their military occupation code and discover civilian jobs where 
their skills translate. They can browse more than 900 career options. 
We have also developed the veterans' ``Gold Card,'' which gives Post-9/
11 veterans increased access to six months of intensive job counseling 
and personalized case management services at one of the approximately 
3,000 One-Stop Career Center locations across the country. These 
services include career assessments, direct referrals to open jobs, 
interview coaching, resume assistance, and training referrals.
    Many veterans have already downloaded the Gold Card since its 
creation last November, increasing the number and quality of services 
to veterans over and above the 1.8 million served through the workforce 
system in PY 2010. Additionally, our Veterans' Employment and Training 
Service (VETS) has embarked on a number of partnerships to connect 
veterans with jobs and training. Our partners include the U.S. Chamber 
of Commerce and the Departments of Defense and Veterans Affairs. We 
will continue to work with our partners at the federal level and in the 
private sector to increase employment opportunities for our brave 
service men and women and their families.
    What makes me proud are stories like that of Navy Veteran Glen 
Williams of Illinois, who has a passion for helping his fellow veterans 
and especially those like himself, who have a disability. But when he 
found himself out of work, Glen turned to VETS for assistance. After 
researching the federal job hiring process and struggling to navigate 
it, he wrote an email to VETS and asked for assistance to better 
understand the process and his rights and benefits as a veteran.
    VETS worked with Glen to refine his resume and showed him the 
general protocol on replying to job leads. He received a Linked-In 
message seeking someone who was familiar with the government, military 
and human resources recruiting companies, leading him to a position as 
a disability and military outreach community recruiter. He began the 
job last year and now works to connect veterans and individuals with 
disabilities to employment opportunities.
    We also are strengthening our enforcement and affirmative action 
initiatives for veterans. We continue to educate about and enforce the 
provisions of the Uniformed Services Employment and Reemployment Rights 
Act and VETS has engaged in an aggressive public outreach campaign, 
aimed not only at our service men and women, but also at employers, 
attorneys, and human resources professionals as well. Since the passage 
of the Veterans' Benefits Improvement Act of 2008, which imposed a 90-
day deadline for USERRA case investigations and a 60-day deadline for 
USERRA case referrals to DOJ or OSC, case processing times have 
diminished. We attribute this to increased scrutiny on investigative 
procedures, ensuring that case investigations are completed in a timely 
manner. VETS' USERRA Quarterly Reports to Congress measure VETS' 
compliance with the 90- and 60-day investigation and referral time 
limits, and reflect that VETS continues to meet its deadlines. 
Additionally, last summer we proposed updates to the Vietnam Era 
Veterans Readjustment Assistance Act (VEVRAA) that would require 
federal contractors and subcontractors to conduct more substantive 
analyses of recruitment and placement actions taken under VEVRAA.
    Through our Jobs for Veterans State Grants, last year DOL provided 
services to nearly 589,000 veterans and 201,000 veterans found jobs. 
The grants fund two types of veterans' employment specialist positions 
in the states: (1) the Disabled Veterans' Outreach Program specialist, 
who provide intensive services to those veterans most in need, and (2) 
Local Veterans' Employment Representatives, who provide outreach to 
employers and engage in advocacy efforts to increase employment 
opportunities for veterans.
    An important program aimed at assisting veterans as they transition 
back into the workforce is the Transition Assistance Program (TAP), 
which provides Employment Workshops and direct services for separating 
service members, including members of the National Guard and Reserve. 
In FY 2011, over 144,000 transitioning service members and spouses 
attended a TAP employment workshop at one of 272 locations worldwide. 
VETS has taken steps to provide demobilizing members of the guard and 
reserve services in the event they are not located near any of the 
locations where TAP is normally provided. Moreover, our State Directors 
for Veterans' Employment and Training are part of the planning process 
when units in their area demobilize. Supporting veterans and their 
families is part of our larger effort at the Department of Labor to 
provide equal opportunity for all workers. We also are in the process 
of completely overhauling TAP for the first time in 19 years to help 
veterans translate their military experience into full-time civilian 
employment. The redesign is based on established best practices and 
will create solutions for a successful transition from military to 
civilian life. We are now in the midst of deploying the Workshop at 
pilot sites across the services so that we can refine and finalize this 
curriculum based on feedback and evaluation.
    Progress has also been made in implementing Executive Order 13518, 
``Employment of Veterans in the Federal Government,'' signed by 
President Obama in November 2009. The Executive order created the 
Veterans Employment Initiative with the goal of helping Federal 
agencies identify qualified veterans, clarifying the hiring process for 
veterans seeking employment with the Federal government, and helping 
them adjust to the civilian work environment once they are hired. 
Veterans were 28.3 percent of total new hires in the Federal Government 
in FY 2011 based on preliminary data obtained by the U.S. Office of 
Personnel Management, which is one of the Department's strategic 
partners in implementing the initiative. This increase is approximately 
4.3 percentage points over the FY 2009 total of 24.0 percent and 
approximately 2.7 percentage points over the FY 2010 result of 25.6 
percent.

Equal Opportunity for All Workers
    As we observe Women's History Month, it is important to note that 
the number of women in the military is growing rapidly. Women are now 
20% of recruits, 14% of the current military population, and make up 
18% of the National Guard and Reserves. But today, over 12 percent of 
our Post-9/11 female veterans are unemployed. We can and must do 
better. The Department of Labor is committed to making sure these women 
have better access to jobs and job training to help them transition 
back into the civilian workforce.
    Too many women who once proudly wore our uniform now go to sleep in 
our streets, under our bridges and in vacant homes. The Department is 
addressing issues that lead to increasing rates of homelessness among 
women veterans, shedding light on the challenges of homelessness, and 
creating solutions that bring about positive change. That is why our 
Women's Bureau hosted a series of ``Women-to-Women Stand Downs'' around 
the country for female veterans. In local communities, service 
providers and businesses came together to provide homeless female 
veterans with a variety of free services that ranged from employment 
counseling, job training, housing vouchers, mental health screening, 
and child care. The Women's Bureau has also created a new online 
publication entitled ``Trauma-Informed Care for Women Veterans 
Experiencing Homelessness: A Guide for Service Providers.'' The guide 
gives service providers--like social workers, mental health 
practitioners and community organizations--the tools to assess the 
specific traumas suffered by female veterans and make them conscious of 
their unique experiences and needs.
    Women's History Month also reminds us that almost 50 years after 
passage of the Equal Pay Act, a stubborn wage gap continues to impact 
women and their families who rely upon their earnings. On average, 
women, who now comprise almost half of the workforce and work full-
time, still earn only about 80 cents for every dollar a man earns. The 
gap is even larger for African American women who earn about 70 cents 
and Hispanic women who earn about 60 cents for each dollar that white 
males earn. Over a woman's lifetime, this wage gap adds up and grows 
over time. By age 65, the cumulative gap in earnings can be hundreds of 
thousands of dollars.
    An America built to last is a nation where every man and woman is 
paid equally for equal work. And while we continue to struggle to 
achieve that fundamental promise, we are making steady progress in our 
pursuit. President Obama created the National Equal Pay Task Force, 
bringing together DOL and other Federal agencies to address this 
problem in a more coordinated way. Since the Task Force was founded in 
January 2010, through the end of 2011, DOL's Office of Federal Contract 
Compliance Programs (OFCCP) has closed 41 compliance evaluations with 
financial settlements remedying compensation discrimination on the 
basis of gender and race, totaling $1,547,427 in back pay and salary 
adjustments to 549 workers.
    Multiple agencies within DOL are working hard to help women workers 
and eliminate the wage gap. We are increasing our enforcement against 
employers who discriminate, and leveling the playing field for those 
who follow the law. We have launched a competition to develop a pay 
equity software application that is intended to educate users about the 
gender pay gap so that women have the information they need to 
negotiate better with their employers and to help them identify cases 
of discrimination. OFCCP is also considering a proposal to collect 
compensation data with respect to gender, race and national origin from 
federal contractors and subcontractors. We can't solve the problem of 
pay inequity until we can see it, count it and put a dollar figure on 
it.
    The Women's Bureau has also been instrumental in this regard. They 
are developing educational materials for both employers and working 
women, including information to help employees identify potential wage 
discrimination and resources to assist employers in complying with all 
applicable equal pay laws. Recently, they also released a guide 
entitled ``Why Green is Your Color: A Woman's Guide to a Sustainable 
Career,'' which is designed to help women find and keep higher paying 
jobs in the clean energy economy.
    We are also working to create more opportunities for workplace 
flexibility so that workers have more options to help care for their 
families without being penalized. The labor force has changed 
significantly during the last few decades, including an increase in the 
number of working women. The demands of work and personal life, 
including family care-giving and personal health or education, require 
that employers adapt to the changing needs of its workers.
    Policies that support the realities of work-life balance are 
critical to workers and to our economy as a whole. Promoting work-life 
balance, including flexible workplace polices, is one of the many ways 
the Department of Labor will improve working conditions and promote 
economic security for all working women.
    As the economy begins to recover, we also must ensure it provides 
opportunities to all Americans who want to work--including people with 
disabilities. The Office of Disability Employment Policy (ODEP), which 
celebrated its 10 year anniversary in December, continues to develop 
and influence disability employment-related policies and practices. The 
Office helps individuals with disabilities get the tools they need to 
improve their employment outcomes and helps businesses find talented 
workers with disabilities.
    To assist small businesses--including those in minority 
communities--access the talent of adults and youth with disabilities, 
ODEP continues its Add Us In initiative. Through this initiative, ODEP 
funds eight grantees across the nation to develop innovative models for 
small business to increase disability hiring. The Disability Employment 
Initiative (DEI), a joint initiative between ODEP and the Employment 
and Training Administration (ETA), supports the public workforce system 
in providing effective integrated employment services to people with 
disabilities. Funding for this program started in 2010 and last year we 
provided over $21 million to seven states for the DEI.
    Finally, ODEP continues to partner with the Department's Office of 
Workers' Compensation Programs (OWCP) to help federal workers who are 
injured or become disabled on the job return to productive employment. 
Both agencies will continue to support the Protecting Our Workers and 
Ensuring Reemployment (POWER) Initiative by conducting research to 
document best practices that get folks back to work safely and as soon 
as is possible. These efforts on behalf of the disability community are 
critical--for workers and employers--and we are proud to be making 
them.

Protecting American Workers
    Equally important are the efforts we are making to protect American 
workers. We know that workers need protection more than ever during 
difficult economic times. It is in these periods--when workers fear 
losing their jobs--that they may be more reluctant to complain about 
unsafe conditions.
    Our worker safety and health agencies--the Occupational Safety and 
Health Administration (OSHA) and the Mine Safety and Health 
Administration (MSHA)--are on the front lines protecting workers from 
workplace hazards. Since these agencies were created, we have made 
significant progress in protecting workers. It is estimated that in 
1970 around 14,000 workers were killed on the job compared with more 
than 4,500 today. But 4,500 workplace deaths and over almost 4 million 
serious injuries are still far too high. There is still much work to be 
done.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Almost two years ago, the Upper Big Branch (UBB) disaster, the 
worst coal mining disaster in 40 years, claimed 29 lives and injured 
two miners. We pledged to do everything within our power to make sure 
such a tragedy would never happen again. This deadly explosion shook 
the foundation of mine safety and caused us all to take a deeper look 
at the weaknesses in the safety net expected to protect the nation's 
miners. Our investigation found that this terrible incident was, in 
fact, preventable. It was the result of intentional and systematic 
efforts by Massey Energy to avoid compliance with MSHA safety and 
health standards and regulations. Those 29 miners did not have to die.
    We know that the dangers of mining are well documented. But we also 
know that mining can be both safe and profitable, and the compliance 
records of many mine operators are a testament to this fact. However, 
too many mine operators still do not make safety their number one 
priority, and we need the tools to promptly address mines that 
disregard the law and put miners in harm's way.
    We recently completed our internal review of MSHA's actions at the 
Upper Big Branch mine prior to the explosion. At the time of the 
accident, I personally committed to performing the most thorough review 
ever, and I believe that we did that. The internal review team made a 
number of recommendations, which we are committed to implementing, for 
improvements in MSHA's enforcement policies and procedures, training 
programs, and regulations. Immediately after the tragic accident, 
Assistant Secretary Main had begun implementation of a number of 
program improvements at MSHA to make the most of the tools we already 
have to strengthen miner safety and health.
    In April 2010, MSHA began conducting impact inspections across the 
country, focusing on mines with poor compliance histories or particular 
compliance concerns. To date, we have conducted more than 400 impact 
inspections, yielding over 7,000 citations, many for obvious violations 
of basic and necessary safety standards. As a result, some mine 
operators have worked to clean up their practices. Unfortunately, some 
mine operators still choose to blatantly disregard the law. Last 
December, for example, on an impact inspection at a mine in Kentucky, 
MSHA issued an imminent danger order when an inspector observed a coal 
pile 5 feet high and 10 feet wide on fire, just feet away from an 
unsecured explosives storage magazine.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Impact inspections alone are not enough to sufficiently address the 
worst offenders. A number of mine operators seem to believe that 
citations and the associated fines are simply part of the cost of doing 
business. In October 2010, MSHA began using new screening criteria for 
the pattern of violations program to more accurately identify mines 
with chronic and persistent health and safety violations. Those mines 
that chronically fail to maintain safe working conditions can be 
subject to additional sanctions through the pattern of violations 
process. MSHA has worked to make this process transparent and created 
an online tool that enables mine operators, miners, the media, and the 
public to see how a specific mine matches up with the criteria for a 
potential pattern of violations. To further enhance the use of its 
available tools, MSHA recently announced a reorganization that will 
allow it to better manage, support, and coordinate special enforcement 
actions.
    MSHA recently began the third phase of its ``Rules to Live By'' 
initiative, using this opportunity to educate miners and mine operators 
about the most common causes of mining deaths. Some of these problems 
cannot be addressed without solving the backlog of cases before the 
Federal Mine Safety and Health Review Commission. Together, the 
Commission, the Office of the Solicitor and MSHA have been working at 
reducing the backlog of contested violations. I appreciate the support 
Congress has shown for these efforts and we will continue to work 
tirelessly to not just address the current backlog, but to also prevent 
future backlogs of cases before the Commission.
    MSHA's work to protect our nation's miners is a combination of 
inspections, enforcement, education and improved regulations. Recently, 
we finalized a rock dust rule that will help prevent coal mine dust 
explosions. This rule responds to one of the many lessons we have 
learned in the past two years.
    Our efforts are beginning to have an impact. In 2011, we saw the 
second-lowest numbers of mining deaths since statistics were first 
recorded in 1911. This was accomplished while employment in the mining 
sector increased. Several of the larger coal producing states 
experienced zero mine fatalities in 2011. But 37 fatalities is still 37 
too many.
    I believe that more can be done to protect workers in our nation's 
mines. They are the backbone of our economy. No worker should ever have 
to sacrifice their life for their livelihood. And no family should ever 
worry whether they will lose their loved one for a paycheck. In order 
for MSHA personnel to effectively protect miners and prevent another 
tragedy like Upper Big Branch, we need to be able to deal with the 
small percentage of mine operators that believe miner injuries, 
illnesses, and deaths are just part of the cost of doing business. They 
absorb the ``cost'' of fines and temporary work stoppages and risk 
their workers' lives. Thus, I urge you to pass legislation that would 
provide MSHA with stronger enforcement tools to ensure mine operators 
meet their responsibility to protect their workers.
    We all agree that good jobs should also be safe jobs. OSHA works 
hard to ensure employers have the knowledge and tools to live up to 
their responsibility to ensure safe workplaces for their employees. We 
have seen the results of our hard work. In FY 2011, OSHA set a goal of 
removing 475,000 workers from hazards--and exceeded it by 20 percent, 
actually removing over 625,000 workers from hazards through 
inspections.
    However, OSHA only has the ability to reach a small number of 
workplaces each year. Therefore, the best way to promote safe and 
healthy workplaces is to ensure that workers can raise concerns to 
their employers--or to OSHA--about unsafe working conditions without 
fear of reprisal.
    In addition to protecting worker's health and safety rights, the 
agency has also been given responsibility to administer 20 other 
whistleblower laws that protect employees. For that reason, over the 
past year, we have made the improvement in our whistleblower program a 
top priority.
    Responding to recommendations from the Government Accountability 
Office, DOL's Inspector General and OSHA's own internal study, we have 
improved training for the investigators, restructured the office to 
raise its priority within the agency, implemented pilot projects to 
increase consistency and improve customer service, improved the 
investigation tracking system, and published a Whistleblower 
Investigations Manual that provides further guidance and helps ensure 
consistency and high-quality investigations. The agency has recently 
hired 25 new investigators and will be further increasing the staff as 
a result of the increase the program received in the FY 2012 budget.
    It is also our duty to help both workers and employers know their 
rights and responsibilities. We are continuing our active compliance 
assistance program so that all workers understand the hazards they face 
and their rights under the law. We are providing that same kind of 
compliance assistance and education to employers, ensuring they have 
access to important information and that they understand how to comply 
with the law.
    Additionally, even amidst tough economic times, we are protecting 
increased levels of funding for our free small business consultation 
program. This program provides funding to every state so that small 
employers can call for a free onsite consultation visit without risk of 
receiving citations. This program provided services to almost 28,000 
small businesses during FY 2011, removing over 3.6 million workers from 
hazards.
    Another way OSHA is promoting the culture of safety is by reaching 
out directly to vulnerable workers. Last year, together with partners 
around the country, we launched a campaign to educate workers and their 
employers about the hazards of working outdoors in the heat, spreading 
the simple message of ``water, rest, and shade'' in both English and 
Spanish.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also know that OSHA inspectors save lives directly. Last year, 
OSHA's Rick Burns was performing a worksite inspection on a deep, 
unprotected trench Mercerville, Ohio, when he detected conditions that 
indicated collapse was imminent. He directed a worker to exit the 
trench, less than five minutes before the trench collapsed, burying the 
area where the worker had been with six to seven feet of soil. ``The 
actions of the compliance officer likely saved this worker's life,'' 
said David Wilson, assistant area director in the Columbus area office.
    OSHA has continued the process of streamlining and simplifying 
regulations in order to reduce the burden on employers. Under the 
Standards Improvement Project, OSHA reviews and eliminates outdated and 
duplicative regulations. The latest rule issued under this project 
saves employers $43 million annually and eliminates almost 2 million 
annual hours of paperwork burdens. In addition, the modifications to 
OSHA's current Hazard Communication rule that will allow it to 
harmonize with the global system of labeling chemicals will be 
published soon.
    We understand that most employers want to do the right thing and 
make their workplaces safe. But there are still some who insist on 
taking shortcuts when it comes to safety. Americans were reminded of 
that in January 2011 when OSHA cited two companies for the suffocation 
deaths of three workers in a grain silo. Two of these workers were 
teenagers--just 14 and 19 years old. These deaths could have been 
prevented if the employer had followed the law. The American people 
cannot tolerate such disregard for the lives and health of our 
citizens. We will continue to aggressively enforce our safety and 
health laws against those employers who choose shortcuts and profits 
over people. And we will continue to work with the employers who play 
by the rules and run safe workplaces. As we continue to advance our 
progress on the issue of worker protection, we remain committed to 
securing the incomes and benefits for all workers.

Securing Americans' Incomes and Benefits
    The Department of Labor's Employee Benefits Security Administration 
(EBSA) is continuing this important work to protect the security of 
retirement and health benefits for America's workers, retirees, and 
their families through a combination of compliance assistance, 
regulations, and enforcement.
    Recently, EBSA finalized a rule improving the transparency of 
401(k) fees to ensure that workers' hard-earned savings are not 
unwittingly being eroded by undisclosed fees. For the first time, 
workers will be provided with a simple and comprehensible schedule of 
what fees apply to what retirement investment options in a way that 
allows for an easy apples-to-apples comparison. A related effort 
enhances disclosures to fiduciaries responsible for sponsoring and 
operating retirement plans about the fees they pay to plan service 
providers. This will be especially useful to small businesses as they 
review their 401(k) plans in helping them understand the relative costs 
of the investment choices they offer their employees.
    The agency is also working to enhance the protections that apply 
when participants and beneficiaries, business owners, and retirement 
savers in pension plans and IRAs receive advice regarding their 
retirement investments. Today, more and more individuals are 
responsible for making their own decisions about how to invest for 
retirement. As a result, a growing number of individual brokers and 
businesses are offering financial services, including advice as to what 
retirement products and services to choose and where retirement assets 
should be invested.
    The financial professionals who offer advice for a fee should be 
required to place the interests of those they are advising first and 
avoid conflicts of interest. That's exactly what the law currently 
provides. However, there are regulatory loopholes that advisers can use 
to avoid accountability. This is what EBSA's effort to update its 
fiduciary definition is all about--making sure that those who provide 
investment advice on retirement savings do so in a way that is unbiased 
and free from conflicts of interest.
    In addition to these critical initiatives, EBSA has had tremendous 
success in protecting employee benefits through both civil and criminal 
enforcement actions. EBSA's enforcement and participant assistance 
efforts achieved total monetary results in FY 2011 of more than $1.3 
billion, and EBSA closed 302 criminal investigations. Additionally, 
EBSA's criminal investigations, as well as its participation in 
criminal investigations with other law enforcement agencies, led to the 
indictment of more than 100 people.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2011, our Benefits Advisors, who provide assistance, and 
education and outreach for workers, retirees, and their employers, 
closed more than 230,000 inquiries, helping informally resolve the 
complaints of 173,164 individuals and recovering over $478 million 
through informal dispute resolution. We also conducted 1,831 outreach 
activities reaching more than 155,000 individuals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recently in New York, a middle-aged woman with breast cancer had 
her health claims denied because of mistakes made by her husband's 
former employer and its insurance company. Michelle Khalife, a benefits 
advisor with EBSA, discovered that the husband routinely had paid for 
extended health coverage under COBRA. However, the employer's insurer 
had failed to activate his coverage on time, causing his ill wife to 
fall under a pre-existing condition exclusion. As the bills mounted, 
the family approached Khalife for help. Khalife gathered all of the 
parties in one meeting to hammer out the details, resulting in 
reinstatement of the woman's coverage, and the insurance company paying 
the family $42,000 in medical bills.
    It can be easy to forget, but in the midst of tough economic times, 
merely having a job is not always enough. Workers need good jobs that 
pay fair wages, keep them safe, and provide basic benefits.
    The work of the Wage and Hour Division (WHD) is critical to 
achieving this goal. These investigators are committed not only to 
informing workers of their rights, but also to informing employers of 
their responsibilities in the workplace. Detecting and remedying labor 
violations protects law-abiding employers from unfair competition 
against those who flout the law and cut corners by paying workers less 
than they are owed. This commitment on behalf of my staff is important 
to the success of workers, and the businesses that employ them.
    WHD has made great strides in ensuring that workers are respected 
and that their rights are protected. The Division has also worked to 
ensure that employers who break the law do not keep an unfair advantage 
over the vast majority of employers who do play by the rules. Under my 
leadership the Wage and Hour Division has secured impressive amounts of 
back wages for workers across the country. This is important, 
especially as our economy continues to recover.
    In FY 2011, Wage and Hour investigators collected more than $220 
million in back wages for American workers--the largest amount 
collected in a single fiscal year in the Division's history. These back 
wages were collected on behalf of more than 275,000 workers, including 
nearly 90,000 who had not been paid the minimum wage for all of the 
hours they had worked. This unprecedented back pay represents the 
rightful return of hard earned wages to the pockets of America's 
workers. Further, it means more direct spending on goods and services, 
stimulating our economy and helping to create new jobs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Much of this impact is felt at the local level. When an employer in 
your district violates the Fair Labor Standards Act by not paying the 
required minimum wage or overtime, that employer is taking money out of 
the pockets of your constituents. Consider that WHD was able to recoup 
over $45 million in back wages for over 40,000 workers in the state of 
New York since 2009. In North Carolina, WHD's work on over 2,600 cases 
resulted in nearly 23,000 workers receiving $18 million in back wages. 
And, under this Administration's tenure, WHD has recouped nearly $600 
million in back wages in over 85,000 cases--impacting more than 720,000 
workers nationwide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I want to make it clear that our work is about more than just the 
numbers. It is driven by a passion for the people we seek to help every 
single day. Because much our focus is on low wage and vulnerable 
workers, the amount we collect per individual may seem small, but it 
can--and does--make all the difference for that worker and his or her 
family.
    For example, a cable installer in Minnesota had been paid less than 
minimum wage by his employer. This worker was facing foreclosure of his 
home, but one of our investigations resulted in him receiving $3,000 in 
back wages, allowing him to pay his mortgage and keep his home. And 
after an investigation in South Dakota recouped $5,500 for a 
construction worker, he and his wife were able to buy back the wedding 
rings they had pawned in order to pay rent and avoid eviction.
    Beyond the agency's enforcement efforts, WHD has undertaken a 
number of important initiatives and rulemakings to protect workers and 
employers. We have proposed a rule that would expand military family 
leave provisions under the Family and Medical Leave Act (FMLA) and 
incorporate a special eligibility provision that would ensure the 
eligibility of flight crew employees. All interested parties are 
invited to review and submit written comments on the proposed rule. We 
also have a proposed rule under Fair Labor Standards Act (FLSA) that 
would extend minimum wage and overtime protections to many of the 
nearly two million in-home caregivers across America--protections that 
are currently denied.
    Protecting youth on the job and enforcement of our child labor laws 
has always been a top priority of mine. After issuing a Final Rule in 
2010 designed to protect youth employed in nonagricultural occupations, 
the WHD began work on updating and revising the safety requirements for 
young workers employed in agriculture.
    The Department has engaged federal and state agencies in an effort 
to end the practice of misclassifying employees as independent 
contractors. Improperly classifying workers deprives those employees of 
many of the rights and benefits they are legally entitled to, including 
the minimum wage and overtime and makes it difficult for law-abiding 
employers to compete. We have signed Memorandums of Understanding with 
the Internal Revenue Service that will allow us to share information 
with them about our enforcement efforts, and also with thirteen state 
labor agencies, from Minnesota to Massachusetts and California to 
Hawaii, that will allow us to share information and coordinate 
misclassification enforcement. All of these efforts will help the 
Department of Labor protect workers and level the playing field for the 
vast majority of responsible employers who are playing by the rules.

Increasing Effectiveness and Accountability
    To create an economy that is built to last, we have to do more to 
live within our means and restore fiscal accountability and 
responsibility. This means increasing the effectiveness of our current 
programs and investing in innovation for the future. We are building 
evaluation into everything we do, which helps ensure accountability and 
efficiency. We have performance measures for every agency, which were 
in many cases non-existent prior to my arrival. This tracking allows us 
to know how each agency is performing against its goals and what we can 
do to best allocate our resources.
    We continue to invest in the Department's Chief Evaluation Office, 
which is working to implement, manage and coordinate the Department's 
evaluations. This investment provides the Department with valuable 
intelligence about strategies and approaches that work for the benefit 
of all America's workforce. Through this effort, we are supporting the 
Administration's goal of building a transparent, high-performance 
government.
    Our Chief Evaluation Office is working jointly with our Chief 
Economist's Office to create a centralized website on the evidence-
based best practices. Many evaluations exist that inform us about which 
programs work, but the information is dispersed and does not always 
reach policy makers and practitioners. Readily available information 
will allow us all to make better-informed decisions.
    Thanks to Congress's support, we have made available approximately 
$98.5 million through the Workforce Innovation Fund to invest in 
projects that demonstrate and evaluate innovative workforce investment 
strategies, particularly to serve vulnerable populations. We look 
forward to a new Workforce Innovation Fund competition in FY 2013. The 
mission of the public workforce system is to find good jobs for 
everyone. These grants will significantly enhance the capacity of our 
public workforce system by identifying, evaluating and expanding 
successful programs. In addition to providing technical assistance to 
grantees throughout the life of the grants, the Department will share 
program evaluation results and best practices with both grantees and 
stakeholders in workforce, education, and human services systems.
    We are also well underway into an evaluation of the WIA Adult and 
Dislocated Worker programs. Previous, non-experimental studies show 
that reemployment services and training provided through WIA increases 
employment and earnings after participation in this program, especially 
for adults. However, this random assignment evaluation will help us 
ascertain the impact and cost-effectiveness of WIA programs for the 
individuals we serve. The evaluation is beginning enrollment of 
participants at selected sites and we expect final results in 2017 with 
an interim report in 2016. Ultimately, this information will help us 
minimize duplication and maximize efficiency. I know these are goals 
upon which we can all agree and I sincerely hope we can work together 
to make improvements where they are needed.

Conclusion
    We are on the right track and we believe the programs and policies 
of the Department of Labor are making a difference for American 
families. The economy is improving and we are seeing broad employment 
gains. But we cannot stop now. We must continue to innovate and build 
upon what we know works, because we will not be satisfied until every 
American who wants work can find a job. Creating an economy built to 
last requires good jobs that pay well, fair and safe workplaces for our 
workers, a level playing field for businesses, and help for American 
workers to provide for their families and keep the pay and benefits 
they earn.
    The President has put forward proposals that invest in our country 
and will help prepare Americans with the skills they need today, for 
the jobs of tomorrow. Together, we can accomplish our goals for our 
country by moving forward on these common sense measures that ensure 
good jobs for American workers. We will not always agree on how we get 
there, but we cannot delay action on important initiatives that will 
keep our economy growing and our nation moving in the right direction.
    Thank you again for inviting me today. I am happy to respond to any 
questions that you may have.
                                 ______
                                 
    Chairman Kline. Thank you, Madam Secretary.
    We will go on the 5-minute clock now, my colleagues. I 
announce that in a futile effort to--every time.
    Madam Secretary, I appreciated you talking about the 
importance of protecting the rights of workers, but picking up 
where we were last year in your hearing, I would like to talk 
for just a minute about the Office of Labor Management 
Standards. As you know, Madam Secretary, it is the only federal 
agency responsible for establishing safeguards for union 
democracy and union financial integrity. You didn't mention it 
in your written testimony or oral testimony--I missed it.
    We have kibitzing going on up here. I am sorry.
    The number of enforcement personnel at OLMS is now down to 
its lowest level in 10 years. Since fiscal year 2008 OLMS's 
staffing level has dropped by 27 percent. In fact, OLMS is the 
only enforcement agency at DOL to decrease enforcement staff 
under this administration.
    Last year you explained OLMS's staffing decrease by 
referring to OLMS as a, quote--``leaner, meaner machine,'' that 
is capable of doing more with less. But this Office of Labor 
Management Standards, under this administration, is actually 
trying to do less.
    The fiscal year 2013 goals, which they have set for 
themselves, will have OLMS investigating fewer delinquent and 
deficient financial integrity reports and conducting fewer 
compliance audits than it did in the past. How do you explain 
that?
    Secretary Solis. Mr. Chairman, I did make that statement 
the last time I was here because we also were looking at 
changes in our budget, but I remain committed to fully 
supporting the role of OLMS, and we know that historically they 
have had a strong enforcement record. And if you look at our 
figures from 2007 and 2010 and compare them to 2011 we have 
actually done more work in terms of indictment, and also in 
convictions and election investigations. We have fewer people 
on the ground but we are being more strategic in our work.
    And I would say that in the past, in fiscal year 2011 we 
proposed an increase for OLMS. Not only did Congress not 
approve the increase, but two cuts in the C.R. reduced funding 
for the agency. So much of that occurred outside of my control.
    But nevertheless, I do remain committed. We continue to 
investigate where there are abuses that occur with collective 
bargaining, and especially in the area of elections. I have to 
tell you that that is probably one of the most exciting parts 
of what I am seeing happening right now with OLMS, where we are 
going in and actually investigating where there have been 
corruption or typical, say, fraudulent activities occurring 
when elections occur at particular union sites. And that is 
something that we can be proud of and it is because we are 
using the taxpayer dollars more effectively.
    So I would say that overall, while you can see that our 
budget has decreased our commitment to these investigations has 
not deterred what our enforcement capabilities are. We are 
trying to do the best we can.
    Chairman Kline. I thank you for the answer and I appreciate 
your attention to establishing safeguards for union democracy 
and for elections. But union financial integrity is also 
important, too. You are the organization that makes sure that 
those dollars are being watched and safeguarded. There is 
nobody else, really, that is doing that.
    And we know that many, many union leaders are behaving 
perfectly well, like many, many, and most employers are 
behaving perfectly well, but not all of them do. And so it is 
important that these workers--these union workers--have the 
visibility and the transparency.
    So I would appreciate your attention to that, and I can 
assure you, of course, we will continue to watch that closely 
because this is the only place where we have got that. And so I 
am concerned when you have a decrease, and I am always for 
leaner and meaner--leaner and meaner as we go forward in these 
tough budgetary times. But it is really, really important, I 
think, to those workers that somebody there is looking out for 
them.
    And then I have one more question--going to have to answer 
it quickly. You addressed it, but I just--I am still confused 
by the approach towards job training where you mention we are 
trying to go to renaming, apparently----
    Secretary Solis. Rebranding.
    Chairman Kline [continuing]. Rebranding. I am not exactly 
sure why that is necessary, but we are rebranding and trying to 
refocus, and yet it seems to me like we are not really reducing 
programs and we are spending a lot more money. I would like to 
hope that we are making this effort simpler, and I am looking 
forward to working with my colleagues here and, frankly, Madam 
Secretary, with the department as we go forward in the WIA 
reauthorization and looking at how we get out these 47, or 48, 
or 49, or maybe it is 50 now, different job training programs 
and try to make that more effective.
    And I see my time has expired, and because I am going to 
insist that others stay within the time I will now yield to Mr. 
Miller.
    Mr. Miller. I was going to ask unanimous consent that you 
have an additional minute or whatever. [Laughter.]
    Chairman Kline. I would object.
    Mr. Miller. But you would object. I figured that you would 
probably object, so----
    Welcome, Madam Secretary, to the committee, and thank you 
for your service on behalf of working men and women and their 
families in our country. To follow up on the discussion here on 
going forward on worker training programs and the 
reauthorization of WIA, my--one of my district offices is right 
next to our veterans service center and I spend a lot of time 
talking with veterans as they come and visit that center, and 
employment obviously continues to be a big problem with respect 
to our returning veterans--and veterans more general, 
especially those who are returning and transitioning back to 
civilian life.
    And concerns have been expressed by my local veteran 
service agencies and--by Disabled American Veterans and the 
American Legion on the questions of the consolidation that are 
reflected in Ms. Foxx's bill. And again, we are trying to 
streamline these programs and we are trying to consolidate them 
in a manner that is rational, but we know that there are hard 
to serve populations and that--we have disproportionate number 
of people that are unemployed in those populations. And I just 
wonder if you could speak to that so that we can continue to 
focus the necessary resources and attention on our returning 
vets.
    Secretary Solis. Well, the whole issue of dealing with the 
vets is very complicated because we are also dealing with 
trying to provide service to a military that are still 
enlisted, so we have a program that you are aware of called the 
TAP program, the Transition Assistance Program. We are 
revamping that; we are trying to make it more efficient so that 
we can actually capture those individuals before they leave so 
they understand where the one-stop centers are where case 
management will be available. If they have issues--post-
traumatic stress--or if they are at risk of becoming homeless 
because they may not secure employment, we want to provide them 
readily--them and their families--with this kind of 
information.
    With the whole rebranding of our one-stops, our WIA 
program, we want to make sure that everybody understands that 
regardless of where you go city to city or state to state you 
know what a one-stop center is supposed to do, and that is why 
the president has urged us to rebrand and put a name on where 
you can go and shop for a job, find assistance--counseling that 
you might need, resume writing, and hook up with employers so 
you can identify where that job place is at. So that is the 
rebranding part of it, but it is also part of what we do with 
veterans.
    Now, if we were to look at proposals that would somehow 
consolidate these programs and cut them back because they would 
be block-granted, there would be fallout because many of these 
programs are identifying certain populations with different 
needs, and while we have programs that deal with homeless 
veterans we also have the WIA workforce investment programs 
that deal with veterans that are coming from their communities, 
so they are not necessarily homeless but we have different 
entry points for them, and especially for homeless veterans. 
And that number continues to go up, and with respect to women 
veterans and homeless women veterans it is astronomical. And we 
are barely, in my opinion, touching the tip of the iceberg 
there, but we have attempted to try to bring these programs to 
work to consolidate and to provide better standards of 
efficiency, and I think that is where we are going in our 
budget.
    We know we have to do a better job of employment placement, 
and that is why we are working aggressively with the chamber of 
commerces. We have already done 100, I think, over 100 fairs 
with the national and local chamber of commerces and we want to 
do more. That is why the president is asking us to also set 
aside new tools, one of them called the Gold Card Standard, 
that would allow for any veteran that is coming out of war to 
be able to utilize 6 months of intensive services. That is 
unprecedented and we know that the success rate for those 
veterans is much higher when they have the ability to receive 
those services and they don't fall out of the system. They get 
assessments, diagnostic treatment, and whatever they need.
    Mr. Miller. Thank you. Just if you could quickly, in the 
time remaining--and I have seen some of this consolidation 
driven by the economy and budget cuts that--in one of my 
counties, where I think it is a much more efficient office than 
it was before, in fact, because people are now in a central 
location, they are--the specialists are talking back and forth 
across----
    Secretary Solis. Right.
    Mr. Miller [continuing]. You know, to help these 
populations.
    But the other question I have is this constant discussion 
in the nation about the mismatch of jobs available but skills 
not in that geographical location, apparently, and we see 
different publications--in my own area it would be machine tool 
operators would be in short supply in Northern California.
    Secretary Solis. And I believe that some proposals from WIA 
that you all are working on that I have seen recently and also 
in the Senate are addressing the issues of sectors and looking 
at how we can better identify sectors regionally so that we can 
focus our dollars in retraining individuals that match up with 
those manufacturers and businesses that are there or that want 
to locate in an area, and that--and Silicone Valley is a very 
good example of that. Out in Florida we have NASA but we also 
have a good group of individuals there who are going to be 
transitioning. We have got to find out what other manufacturing 
or scientific industries we can begin to grow.
    And that is what we are doing with--we are doing that right 
now with the TAA Community College Fund. That is why that is so 
important. That is why they are--also the renaming of the 
community college career program overall, I believe, we have 
learned some great things with the TAA community college 
program but we know we can build it out.
    We are hearing very, very positive feedback from businesses 
and entrepreneurs because they have told me, ``Hilda, Secretary 
Solis, we don't necessarily need a Ph.D. or we don't need 
someone with a master's. What we need is a technician. We need 
someone who can get a 1-or 2-year credential at a community 
college that we can train. They can be trained even on our 
assembly floor or in our lab and then also get that certificate 
and move up creating, then, another slot for someone new to 
come in.'' And I have seen it; I have heard it as I have 
traveled around the country.
    These are positive gains that we have seen and I am sure 
that--I would be happy to share a lot of that through my ETA 
program, our assistant secretary who is here, Jane Oates, right 
behind me to help fill you in on what other opportunities there 
are.
    Chairman Kline. Gentleman's time has, indeed, expired.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    And thank you for being here, Madam Secretary. And thank 
you for withdrawing the fiduciary rule. I appreciate it.
    And to that end, you have solicited, I know, a significant 
amount of information from the investments sector, and I have 
heard from various industry groups that compiling the data that 
you have requested can be a very labor intensive process and 
there is the fact that it could compromise investor privacy. So 
is it really possible for the firms to retrieve this data? I 
know that it was very broad and they are not exactly sure what 
was supposed to be within it, and are you concerned that the 
investor privacy could be compromised?
    Secretary Solis. Well, thank you, Congressman Biggert. I 
know that we have heard much from the community, from the 
Congress as well, and we have taken note of that and that is 
why we are reproposing this particular regulation, and we do 
require more information. In fact, we asked particular groups 
that were involved in collecting data and when we asked them to 
provide that information they have been reluctant in giving us 
that information. And it is not as though, in my opinion, that 
we would be somehow----
    Mrs. Biggert. Well, I think that you had a----
    Secretary Solis [continuing]. Abusing--abusing----
    Mrs. Biggert [continuing]. There was a meeting with the 
EBSA, and--to go over what--what the data was supposed to be 
and wanted assurance that the participant confidentiality would 
be looked at.
    Secretary Solis. We certainly would be happy to continue 
our conversations, and my assistant secretary, Phyllis Borzi, 
is actually doing a lot now since I think I last came to this 
committee to actually get more information from the industry, 
to actually talk to individual stakeholders and really try to 
get the most competent, more efficient information as soon as 
possible. But I will say that we did attempt to work with a 
consulting firm--you probably know the firm, Oliver Wyman--and 
they were reluctant in passing along some information, and I 
understand they were actually doing a study on this rule.
    Mrs. Biggert. Right. Well, Assistant Secretary Borzi has 
indicated that the reproposal now--is going to be issued in 
May?
    Secretary Solis. At this time we are still collecting data, 
so I am not quite sure what she meant, but I can certainly get 
back to you on that.
    Mrs. Biggert. Okay. She also said that it is--that they 
will seek to greatly expand liability for the companies that 
provide services to IRAs and pension plans?
    Secretary Solis. I would only tell you that one of the 
things that we are looking at in terms of the rule is to make 
sure that we have a balance and that individuals understand 
that when they seed information and advice that it--that there 
is a difference when someone has a conflict of interest and 
they are making suggestions and informing individuals, and 
there is, how could I say, a clear line that someone is getting 
advantage because they are giving information and there is a 
conflict, then we do have--we do have an issue, and that is why 
we are looking at this rule in that manner. But we are 
collecting more data and we would be happy to sit down with you 
further and with any individuals that you think that we have 
somehow missed in our discussions with stakeholders.
    Mrs. Biggert. I would appreciate that.
    And then, it is my understanding that the SEC intends to 
issue a request for information in the coming months to ensure 
close coordination with the investment community as they work 
to comply with Section 913 of Dodd-Frank, so we are kind of 
back to where we were in the beginning. Do you plan to 
coordinate with the SEC as you work----
    Secretary Solis. Absolutely.
    Mrs. Biggert [continuing]. Towards the----
    Secretary Solis. Yes. Yes.
    Mrs. Biggert [continuing]. Reproposed rule?
    Secretary Solis. Absolutely.
    Mrs. Biggert. Do you plan to incorporate SEC's RFI findings 
into your proposal?
    Secretary Solis. Well, I think at the appropriate time we 
will have those meetings with my assistant secretary and 
representatives not only from the SEC but also with the CFTC, 
as well.
    Mrs. Biggert. Well, you have issued joint RFIs before with 
the Treasury Department. In order to ensure there is no 
misunderstanding about the degree to which your department is 
working with the SEC would you consider a joint RFI with the 
SEC?
    Secretary Solis. If it is a practice that we have used in 
the past I don't see why we would deviate, so I know that those 
consultations will be occurring.
    Mrs. Biggert. And you would put it into a joint RFI?
    Secretary Solis. I couldn't say at this point because I 
don't have all that material and, you know, we are currently in 
this process so I know I can only speak on this issue with 
limitation because of the Administrative Procedures Act.
    Mrs. Biggert. In just a minute that I have, could you tell 
us how the new proposed regulation will be significantly 
different from the one that you----
    Secretary Solis. Well, since we are in the rulemaking 
process I am not privileged to be able to get into all those 
details, but I would be happy to, after a point, be able to 
either sit down with you myself or have--my assistant secretary 
is more appropriately informed on this issue.
    Mrs. Biggert. Thank you so much. I yield back.
    Secretary Solis. Thank you.
    Chairman Kline. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Secretary Solis, it is good to have you back here. You 
mentioned the Job Corps. I am very proud of the Job Corps 
facility we have in Flint, Michigan. It is one of the state-of-
the-art Job Corps. We have a child care center, where many 
women who ordinarily would find it very difficult to get 
further training naturally come and live there with their 
children in an up-to-date child care center that meets all the 
criteria that the state of Michigan requires for such child 
care centers. So it has really changed people's lives. You 
mentioned Nate Ford.
    Nate, are you--can you just--stand up, Nate.
    Now, Nate illustrates that these are not just numbers.
    Thank you, Nate. Thank you very much.
    These are real people whose lives have been changed, and I 
often go down to the graduations for the--at the Job Corps, and 
you find a great deal of happiness, and joy, and expectation, 
hope because they have picked up skills--specific skills in 
welding, and electrical, food service, and still just in work 
habits that the Job Corps does. The truck plant in Flint, 
Michigan now has a third shift going. We haven't had a third 
shift going at that plant in most people's memory--my memory, I 
go back a long time, 82 years, but it is--and they need skilled 
people.
    The day used to be that you could graduate--or quit school 
on a Wednesday in Flint and go to work for General Motors on 
Thursday. Those days are gone forever. You need skills, and 
those skills--one good thing about the Job Corps is that the 
flexibility is there, what the need may be, what skills might 
be needed in that area served by that Job Corps or in our 
country, that you aren't static; you are dynamic, and I really 
appreciate that very much.
    And what more can we be doing with the Job Corps to really 
reach more people and touch more skills?
    Secretary Solis. Congressman Kildee, you hit it right on 
the nose. It is about getting--drilling down on providing 
better training either through apprenticeships, also that are 
offered at the Job Corps programs, or credentialing--better 
credentialing. And what that means is that the Job Corps 
programs also have to enlist the support of local employers and 
making sure that those connections are there, but not just 
employers but also the communities where they are fixed, 
because they also provide jobs for people who live in those 
communities.
    So there are many valuable things that are learned that can 
be ingrained, and obviously this young man here is obviously 
doing great work now, but there are so many that are still 
attempting to try to find exactly where they are going to be 
best suited. And that is the good thing about Job Corps, 
because it allows you to go through a series of training that 
can last anywhere from 6 weeks to 6 months, but nevertheless, 
in a 2-year period you can gain credentials as you start to 
move around at that center, so you may start out interested in 
being a truck driver or getting a license to do that but you 
may end up soon looking at what transportation jobs are 
available, say, with the local state department of 
transportation, or TSA, or any other entities that involve 
transportation security.
    I have seen that work effectively. I have also seen a new 
emergence in areas like I.T. and health care, so now we are 
also training up people in ambulatory care for health. That is 
the area that continues to grow, whether it is a pharmacist 
assistant, LPN, nursing, looking at some higher placed areas 
that are going to provide a better wage for these individuals, 
because many of them do have children. Some are parents--single 
parents; some have obligations.
    And it is really intriguing to me, when I get a chance to 
go out to visit the Job Corps centers--I think I have spent the 
most time of any secretary that I know of at the Department of 
Labor that has visited most of her Job Corps centers. I think I 
could say that with the exception of maybe Alaska and Hawaii; I 
have not been to those places. But genuinely visiting even the 
chairman's state, I have had the luxury of meeting many of our 
Job Corps students as well as our YouthBuild students.
    And I am really excited that we are focusing in on 
renewable energy. So that is another part. It is conservation; 
it is restoration of housing, commercial buildings. I have also 
seen the diversity factor because you see a lot of diversity in 
terms of our student population.
    Mr. Kildee. Thank you, Madam Secretary. You know, what I 
have noted, too, sometimes someone will go to Job Corps just to 
get some good work skills and very often will find their 
vocation there. And there is a--they see so many other things 
going on that they really find themselves and find a vocation. 
So that flexibility you find in the Job Corps is very----
    Chairman Kline. The gentleman's time has expired.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Kline. Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you. Thank you, Chairman.
    Madam Secretary, thanks for--it is good to see you again. 
Thanks for being here.
    I know, you know, I appreciate you being here because I 
know you must--you are busy, and one of the reasons I know that 
because I think the last--first time you were here I had posed 
a question on project labor agreements that I want to address 
here first and it took 14 months to get a response. So I 
attributed that to a very busy schedule.
    February 2010 I asked you about a project labor agreement 
imposed on construction of a Job Corps center in Manchester, 
New Hampshire, and I asked why the bid process was mysteriously 
canceled in November 2009, and you indicated--the department 
followed up with my office--2011, a year later, you were here 
for an annual budget hearing and still I hadn't heard back and 
you agreed to provide an answer in writing, and I always say, 
better late than never. I finally did receive a response 395 
days after the initial request.
    Now, the administration contends that project labor 
agreements control cost and the president put forth an 
executive order encouraging PLAs. However, in areas like New 
Hampshire or my state of Pennsylvania this removes about 85 
percent of the eligible firms from bidding on those projects--
firms that, frankly, provide some really great jobs.
    Now, I learned from your response that the department was 
taking time to reevaluate PLAs, so we fast-forward to 2012, the 
Job Corps center in Manchester has gone to bid again with 
another PLA. Now, this is another 2 years later--2 years that 
could have been a prime employment opportunity for hundreds of 
workers. Now, I don't represent the Granite State, but I don't 
want to see this happen nationwide.
    The president said in his State of the Union that he wants 
to reduce red tape. Well I ask, then, is the Department of 
Labor just flirting with the idea of job creation or has the 
administration learned something from New Hampshire and begun 
to reconsider the executive orders on project labor agreements?
    Secretary Solis. Thank you, Congressman Thompson, and I 
apologize if we did not get back to you in a timely manner, but 
this has been a area of, obviously, great concern to the 
Department of Labor, and while we are speaking right now you 
must know that there has been a bid protest filed with the GAO 
on the New Hampshire solicitation, so I am awaiting a 
determination on the protest by GAO right now. So I can't go 
into much detail because I am precluded while this 
investigation is ongoing.
    But I will tell you that the reason for looking at the PLA 
to begin with was we had a study--an extensive study--done. As 
you know, you laid out the course of what happened initially, 
and so we withdrew the first proposal that went out there and 
then we did our study and we looked at how this possibly could 
be redone, and we put it out again, and now as a result we have 
a--contest--protest bid at this time. So I can't get into much 
detail.
    But nothing could be further from the truth that I want to 
see jobs created. I want to see that these actually two centers 
that we are looking at--Manchester as well as in Wyoming--that 
we continue because they add to the local economy. There are 
local hires, obviously; there is staff that is brought in. And 
then the service that is provided there for the long term are 
all valuable. So I certainly want to see how we effectively use 
our tools.
    But also, when the president has asked us to look at these 
projects that are over a certain amount of money then I am also 
responsible for carrying out and implementing his policies, and 
obviously wanting to keep in mind and be mindful of the welfare 
of those treasury funds that I am able to apply. So yes, we 
look at these things very seriously. We want to also help the 
local community in their economic development because any time 
that we put together a project or proposal that goes out we 
obviously want to help locals obtain those jobs because we know 
we are in a very tough market.
    Mr. Thompson. Right. Though, I have to say, I am just--I am 
appalled by the president's policies who--you know, we have 
almost 14 million Americans who are unemployed, and yet at, you 
know, just the little bit of narrative I offered there, the 
president seems to be concerned about creating union jobs. But 
we should be just creating jobs, and then if unions are 
involved that is great in an open and free market of bidding 
and getting the best return on investment for the precious 
taxpayer dollar.
    I have a data question just real quick, because my time is 
just about out: There is 8 percent--over 8 percent 
unemployment, 14 million Americans, yet a lot of employers I 
talk with have good-paying jobs that are sitting open, and 
largely because of what I call the skills gap. You know, they 
can't find qualified and trained employees.
    Does the Department of Labor have data--do you collect data 
on the number of jobs that employers have been unable to fill 
with a qualified and trained worker?
    Secretary Solis. Well, you know, the information that we do 
get obviously changes and fluctuates but we do know that there 
are a number of jobs that are out there, and as I said earlier, 
there are a number of employers who are saying that there is a 
mismatch.
    Mr. Thompson. But do you collect that data?
    Chairman Kline. Sorry. The gentleman's time has expired and 
we will--I am sure we will ferret out the answer to that here--
--
    Mr. Thompson. Actually, I would just ask for a response----
    Chairman Kline. For the record?
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. Welcome home. Thank you for the 
role that you played in turning around a situation where from 
the bottom of the recession the nation's employers have created 
3.9 million private sector jobs, most of which, I would note, 
are not union jobs, and we appreciate your role in that.
    I want to walk through some of the criticisms we have heard 
about your department and the administration this morning and 
then look at the facts. We have heard about the explosion of 
federal spending. My understanding is that the budget you 
proposed this year is lower than the budget that you operated 
under last year, that you had $10.673 billion last year, it is 
$10.4 billion this year, so your proposal is $273 million less 
than last year. Is that correct--that you are going to be 
operating under?
    Secretary Solis. Yes.
    Mr. Andrews. We appreciate that example that you are 
setting.
    We have heard some criticism about the Office of Labor 
Management Standards. My understanding is that in a budget 
where you propose a $273 million overall cut in your budget you 
have proposed a nearly half million dollar increase in the 
budget of the Office of Labor Management Standards. Is that 
right?
    Secretary Solis. I don't have that in front of me, but I am 
sure--I am certain the figure is correct because we have made--
--
    Mr. Andrews. And my understanding is that Congress gave you 
less money than you asked for last year in that category by the 
time the appropriations were done. Am I correct about that?
    Secretary Solis. Yes.
    Mr. Andrews. I also see that the activities of the office 
have been rather substantial. My understanding is there were 
321 criminal investigations launched by that office last year, 
461 union audits, and combining 155 investigation of union 
elections. Is that reflective of the activities of the office?
    Secretary Solis. I have that information in front of me 
that I read off to you.
    Mr. Andrews. Yes.
    Secretary Solis. Our numbers have, I think, overall 
improved, and in areas of election investigations, where there 
was--there had tended to be fraud, we have actually upped that 
significantly.
    Mr. Andrews. And my understanding is that the criminal 
investigations are actually greater than that of the 
administration that came in before you.
    I know one thing that you haven't done. There have been a 
lot of legends floating around about the proposed youth 
agricultural rules that you proposed earlier and have since 
withdrawn and are reconsidering, and I know that what you have 
focused on there is the issue of the disproportionate number of 
young people dying in work-related injuries on farms.
    My understanding is that if you look at work-related 
fatalities for workers between the ages of 15 and 18 that in 
2010 53 percent of the young people who died on the job died in 
agriculture, but a--obviously a much lower number of young 
people employed are in that field. Is it correct that a 
disproportionate number of fatalities for teenage employers 
come in agriculture relative to other occupations?
    Secretary Solis. Well, the figures that you are citing are 
accurate, and that is why we are moving in the direction of 
trying to provide more protection, because as you know, back in 
2009 15,012 children were injured on farms, and I am not 
talking about just--we are talking about serious injuries and a 
cost to the industry overall----
    Mr. Andrews. I know what you are not talking about is, you 
know, battery-powered screwdrivers.
    Secretary Solis. Right.
    Mr. Andrews. Or abolishing 4-H programs. Am I correct about 
that?
    Secretary Solis. Absolutely.
    Mr. Andrews. Those are wild exaggerations and inaccurate.
    The other thing I wanted to say is that--and I thank our 
friend from Illinois for pointing this out--one of the so-
called job killing regulations that was under consideration was 
the new fiduciary rules. Now, I think there were many good 
things in those rules. I would like to see them revisited.
    But you withdrew that, didn't you, and you are 
reconsidering it because what you heard from industry?
    Secretary Solis. Right.
    Mr. Andrews. And why did you do that?
    Secretary Solis. We received a number of comments and 
letters from the House and from members of the Senate, and 
obviously from the community and stakeholders, and we are 
looking to see how we can actually create a better process. But 
we don't want to be rushed, also, into a situation where we are 
not actually doing our due diligence.
    Mr. Andrews. And then finally, I am glad we share this 
commitment to job training. I know it is sincere and important.
    Across the building today the Budget Committee is marking 
up a Republican budget that has a 48 percent cut by one measure 
in job training funds. What do you think that would do to the 
economic recovery?
    Secretary Solis. I haven't actually reviewed everything, 
but what I have seen so far and read in the press I know that 
it would have a devastating effect in terms of the vulnerable 
populations that we spoke about earlier--veterans, obviously, 
dislocated workers, and youth. And in particular, it would have 
an impact in terms of our ability to even conduct our 
enforcement efforts. So literally pulling back on some of the 
gains that we have made in the last 3 years.
    Mr. Andrews. Thank you----
    Chairman Kline. Gentleman's time has expired.
    Dr. Roe?
    Mr. Roe. I thank the chairman, and I also thank the 
secretary for being here. And I want to associate with your 
remarks about Don Payne. I very much appreciate it and I 
associate myself with those remarks.
    And just a couple of things. I was reading your testimony, 
and it--just a source of a little irritation for me was that we 
created over 2 million private sector jobs. I would say that 
the private sector employers did that and took risks, as I did 
as a private employer, to go out and borrow money and create 
jobs. So just a point--maybe you didn't mean that the 
government did. The government didn't create those jobs; 
private entrepreneurs like myself went out and took the risk 
and signed their name to a note, and entrepreneurs did that. So 
just a comment.
    On regulation--and I am going to just mention these just as 
a, again, a private business person. I visited a surface 
silicon mine and they got a MSHA ding for a toaster plug--two-
prong plug instead of a three-prong--nobody feels any safer in 
that mine because of that. A friend of mine--a very good friend 
of mine--had an OSHA ding because he had to stop building a 
bridge across a river because he didn't have a boat in the 
river, and of course, as you know, you are tethered to a cable 
when you are working on there and a climbing harness, and the 
only problem with it was if you would have fallen in this river 
you would have died on the rocks because the river wasn't as 
deep. So he had to stop, go buy a boat, drag it across the 
rocks, tie it off to a tree, and then go back to work.
    I can go on and on and on about just OSHA things that I 
have seen that just--that don't make workers any safer. Clearly 
you want a safe work place, but when you get that kind of 
minutia it is--I have seen a ding with a hand sanitizer being 
out of date. Well, the active ingredient in hand sanitizers is 
alcohol, and from the state of Tennessee where I am from 
usually it gets better with age, not worse, so----
    [Laughter.]
    Just a comment.
    Very quick comments on the veterans. On the HUD-VASH 
vouchers one of the holdup on those--because I am on the 
Veterans Affairs Committee--is the number of caseworkers, so 
that is holding it up some for you all. I know Mr. Miller made 
a point about that and the V.A. is trying to get those 
caseworkers. We have the vouchers; it is to get the caseworkers 
to manage the cases for the homeless veterans.
    I would like to--and one final comment: I certainly wish 
the Department of Labor had come along with those farm things 
when I was raised on a farm because I might have avoided a lot 
of work when I was a kid. I think that is maybe meddling beyond 
comprehension when you are on a family farm and that is how 
those folks--you start out as a child feeding the animals, 
cultivating the property, driving machinery. I learned how to 
drive on a farm when I was 10 and 11 years old. So I think you 
need to really re-look that family farms are struggling today 
to survive and you may make it impossible with these 
regulations for them to survive.
    I want to go back to Mrs. Biggert and the fiduciary rule. I 
served as a--on our--in our medical practice as the--in the 
retirement part, the pension part. With the fiduciary rule, 
what problem with small investors are you trying to fix? 
Because it is not clear to me--and the chairman and I wrote you 
a letter, and I am going to go through all of the incredible 
amount of material that your department asked for from private 
industry. So what problem are we trying to fix?
    I understand the big banking crisis and all that, but with 
small investors--like my daughter just got a small IRA in her 
first job--what problem are you fixing?
    Secretary Solis. Congressman, what we are looking at in 
that particular rule is protecting the retirement savings for 
Americans overall. The law currently says that if a person 
provides investment advice for a fee then that advice has to be 
unbiased. And what we have found is that there have been 
conflicts of interest so we are trying to clarify that.
    So if someone is also gaining some type of fund or making 
money because they are giving advice then that is a particular 
category----
    Mr. Roe. But here I have got these pages--I mean, I would 
be worried about just, for myself personally, I have an IRA, 
and the amount of information--personal information--you have 
asked for--and it is pages of things here, and you have seen 
it. I mean, you know what it is. Why do you need that?
    Secretary Solis. Well, I will tell you. Unfortunately, we 
do, through EBSA, our Employees Benefits Security 
Administration, get cases where individuals were being told 
where to make investments and were misled and their savings is 
gone. And we have actual cases, and I would be happy to share 
those with you and be happy to have----
    Mr. Roe. I would like to see those because an actual one or 
two or three cases--yes, you have got crooks out there----
    Secretary Solis. Entire savings, Congressman----
    Mr. Roe. We have laws against robbing banks and people 
still do it, so dishonest people are going to do dishonest 
things.
    Secretary Solis. Right.
    Mr. Roe. But most of these brokers, the ones I have dealt 
with, are not dishonest people. They are trying to give you a--
to share a small investor some advice so they can invest their 
$10,000 or $15,000 or $20,000----
    Chairman Kline. Gentleman's time has expired.
    Mr. Roe. I thank the chairman.
    Chairman Kline. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline.
    Madam Secretary, thank you for your testimony on the 
Department of Labor's budget priorities for fiscal year 2013. 
It is always a pleasure to have you testify before our 
committee.
    While our economy is moving in the right direction and we 
are creating jobs in the private sector I continue to have 
serious concerns about the unusually high unemployment rates in 
minority communities, among our young people, and for our 
nation's veterans. Madam Secretary, yesterday I joined my 
colleagues, Ranking Member George Miller and John Tierney, in 
introducing legislation to reauthorize the Workforce Investment 
Act.
    Unlike Chairwoman Foxx's bill, H.R. 3610, the Streamlining 
Workforce Development Programs Act, which calls for 
consolidating WIA programs, our Democratic bill develops a 21st 
century delivery system for workforce training and adult 
education that leads to career pathways, increased educational 
and workforce training opportunities, and economic self-
sufficiency for our nation's workers. What are your views on 
H.R. 3610 and the consolidation of WIA programs?
    Secretary Solis. Well, first of all, Congressman, thank you 
for the opportunity to speak to you about issues regarding 
disparities with respect to minority populations and the issue 
of unemployment, because we know that especially the Hispanic 
community and as well as African American community they have 
higher rates of unemployment, and for young people it is even 
higher. That is why I think the initiatives that we are 
undertaking and proposing in our budget are going to help 
provide them the tools, the education, the training that they 
are going to need to be competitive and hopefully get that 
assistance at a local community college or through our 
workforce investment programs.
    One of the things that you need to know is that our 
workforce investment programs overall, the Dislocated Program--
Worker Program in 2010 helped to serve over 500,000 African 
Americans. In our Job Corps, in our YouthBuild programs that 
some members have spoken about already, we have served well 
over 2,300 Hispanic students enrolled in the YouthBuild program 
where they traditionally get a certificate to get into 
construction, and now we are focusing on expanding that. With 
respect to enrollment in Job Corps, it is about 8,000 of the 
total number that are Hispanic in the Job Corps program, and 
that is a very good program for many of our young people to get 
to.
    With respect to your other issue, getting American back to 
work, the bill that you introduced here--Mr. Tierney, Mr. 
Miller, and yourself--I have had a chance to look at just a 
summary of what the bill contains and I would say that much of 
your ideas in this bill replicate what we are proposing in our 
budget. So I do believe we are on the same path but I also note 
that the Senate--both bipartisan--Republican and Democrat--are 
also integrating much of what you are presenting here, so----
    Mr. Hinojosa. I am glad to hear you say that. Can you talk 
about the impetus behind the agriculture child labor rules, 
what led the Department of Labor to issue them and how long it 
has been since they have been updated? I heard my colleague 
talk about owners of small farms having their children work. I 
have no problem with that. My father did that with seven boys 
including me, and we all worked as children.
    But I am talking about families that take their children 
out into the field because they have no daycare to take care of 
them while they are harvesting crops and doing that. That is 
what I am concerned about.
    Secretary Solis. First of all, Congressman, this particular 
regulation hasn't been looked at since 1970, so it is about 40 
years old that it hasn't been looked at. And you know farming 
has changed dramatically, and I am not just talking about 
family farms; I am talking about business-owned farms.
    And what I want to make clear here is that we are not 
talking about kids who are 16 years and older who are employed 
on farms, because there is a big difference there, whether they 
are family farms or big corporations. We are not talking about 
kids who are working for their parents or on a family farm, 
because we realize that is an important relationship to 
continue. We are not eroding that.
    And obviously we will be looking at much--many of these 
items as we expand the proposal here of this rule. So I can't 
go into a lot of detail, but I will say we have heard a lot 
from a lot of folks--from businesses and from families--that 
believe that this is an important aspect to have.
    But I will say that there are injuries and we have to be in 
a position where we are preventing that because they can also 
have an injury in terms of the businesses overall. We know that 
according to the academic--Academy of Pediatrics that injuries 
cost society an estimated $1.4 billion per year when we look at 
agricultural----
    Mr. Hinojosa. Would you, as secretary of labor, recommend 
that we look into this problem?
    Chairman Kline. Gentleman's time has expired.
    Secretary Solis. We are charged to do that, sir.
    Mr. Hinojosa. Thank you.
    Chairman Kline. Dr. Bucshon?
    Mr. Bucshon. Good morning and thanks for being here.
    The workforce participation rate--so 63.7 percent, 
ballpark--is at a 30-year low. You know, we frequently quote, 
not only politically but in the national press, about the 
unemployment rate, but this number is something you don't hear 
about very much, and so I would--the question I have is, do you 
have an estimate--is there a way to estimate the number of 
people that, although you can't--you are not finding them based 
on unemployment applications, that have quit looking for 
employment? Because clearly with the workforce participation 
rate at a 30-year low--the unemployment rate itself is not, in 
my view, a solid indicator of the number of people that really 
are in trouble out there.
    Secretary Solis. Congressman, I would tell you that we have 
in the last 3 years, I think, seen unprecedented constraints in 
our economic recovery overall, and I know that structuring of 
our jobs because of outsourcing and incentives to move jobs out 
over the last 30 years has had an impact, and while there are 
some businesses that are doing well because they have taken 
that approach that are--there are many jobs that are just not 
going to come back here that we have lost. So we have a lot 
of--large number of people who were trained maybe to work in 
one industry for 10 or 15 years now find themselves with no 
other source of income.
    So we do need to provide continued training and assistance.
    Mr. Bucshon. Sure.
    Secretary Solis. The best thing I can tell you is we need 
to do more with actually on-the-job training. We have actually 
invested money so we can allow for businesses to hire people 
that will help subsidize part of that wage so they can have on-
the-job training, and hopefully that business will----
    Mr. Bucshon. And I think that some states have done that, 
and that is, I think, a good idea. That also comes into the 
issue of the number of underemployed individuals, which you 
just touched on, I think. And is there a way the Department of 
Labor can estimate or does--or have you estimated and have the 
data on the number of people that are underemployed or the 
number of people who are not participating in the workforce and 
they are not applying for unemployment insurance so you can't 
track them that way, so that we can get a handle on the total 
number of people out there right now in our economy who not 
only are unemployed but have quit looking--have--their 
unemployment has run out, their insurance has run out, and the 
number of people who are underemployed? Those numbers are the 
ones that I would--if you have data I would like that to be 
provided to the committee.
    Secretary Solis. I would very much like to have my 
commissioner--acting commissioner for Bureau of Labor 
Statistics provide any information that perhaps isn't readily 
or easily available. But everything comes to the Bureau of 
Labor Statistics, and there are several reports that they 
compile to gauge how the economy is doing in all those 
representations that you just talked about. And----
    Mr. Bucshon. Sorry to interrupt, but the reason is is 
because the unemployment rate that is frequently quoted, you 
know, in the national press and others is--would you admit that 
that is a relatively poor indicator of overall employment? 
Considering the underemployed and the people that have quit, 
with the workforce participation rate at a 30-year low it seems 
to me that a better number would--to report would be not only 
the unemployment rate but the people who have quit looking and 
the number of people who are dramatically underemployed.
    Secretary Solis. Well, much of this area has been 
researched for the--and been in place for the last 72 years, so 
I can't assume that I could, as labor secretary, quickly change 
what the Bureau of Labor Statistics has provided for the last--
--
    Mr. Bucshon. No. What I am saying is can you report it, 
rather than when you release your unemployment reports you 
release an overall report on the unemployment rate but I never 
see a number that is estimating these others.
    I want to move on to another area. Thank you for your--but 
we will look into that----
    Secretary Solis. Be happy to have the Bureau of Labor--our 
commissioner get back----
    Mr. Bucshon. It would be important for those numbers to be 
reported, also. I am looking at your----
    Secretary Solis. We typically don't carry--we don't cover 
that information now--the Bureau of Labor Statistics. They 
don't do that. But certainly I have often asked them questions 
about things----
    Mr. Bucshon. Sure.
    Secretary Solis [continuing]. That they could be looking 
at. But we have--they have to get consensus, and in many cases 
it isn't just our own country. There are standards that are 
set, and treaties and I don't want to----
    Mr. Bucshon. I want to move on to another area here. I am 
looking at your budget request and the Office of Coal 
Enforcement and Office of Metal and Nonmetal Enforcement seeing 
increases in--you may not have those numbers but I have them 
here--increases in the enforcement area, and a little bit 
further up my list here I have the Federal Compliance 
Assistance, which is--you are requesting a decrease in the 
funding level for that. And from what I am hearing from 
employers out there is there has been a shift in how not only 
Department of Labor but other agencies in our federal 
government are going away--towards aggressive enforcement and 
less with helping with compliance, and you can submit that for 
the record. My time is expired.
    Thank you.
    Secretary Solis. Thank you.
    Chairman Kline. Thank the gentleman.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Madam Secretary. Thank you for 
coming in again. And thank you for all the work that you have 
been doing. I know that when you started your new job there was 
an awful lot on your plate, so we appreciate everything you 
have done and certainly I know you are not going to give up 
until we have the economy back to where it needs to be and 
certainly have the majority of Americans that are out of work 
back to work.
    I know that there has been critical work done under your 
tenure, and again, as I said, I appreciate that. And I am 
looking forward to doing whatever we can, certainly, here, 
building on some of the department's successes and hoping to be 
able to do that for our economical recovery.
    That said, and a number of my colleagues have brought this 
up on both sides of the aisle, I wanted to talk to you about 
the department's efforts to update its fiduciary definition 
under ERISA. There is no doubt that the economies of the day 
have changed greatly since ERISA was enhanced, as you said, in 
1974, and by those standards I do not oppose the department 
taking a fresh look at it. However, I am sure that you know my 
concerns lie more in the process by which the department has 
conducted its work on this proposal rather than the general 
ideas behind it.
    Many of us, including myself, are pleased the department 
withdrew their original proposal on fiduciary. There are 
several issues to point out, but one in particular was the 
department's rule which would--I happen to be on Financial 
Services, also; we worked on this.
    So there is a conflict with the Dodd-Frank Act objectively 
of the uniform standard for care of the investors, and I know 
that the president had put out an initiative to have 
departments working together when there is going to be a 
crossover on a piece of legislation. So we sent you a letter 
this past November--myself, and Mr. Neal--Richie Neal--and Mr. 
Himes--asking the departments what are some of the remedies of 
the glaring issues in the original proposal? Unfortunately, 
that was in November and we have not received a response yet. 
So hopefully--there are probably about 30 members that have 
signed onto this. We would appreciate if you could get that----
    Secretary Solis. I will have my assistant secretary call, 
if you would like, to set up a meeting with the three of you, 
if you would like----
    Mrs. McCarthy. That would be great.
    And if I could offer the letter into testimony I would 
appreciate it, Mr. Chairman.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Kline. Without objection.
    Mrs. McCarthy. You mentioned in your testimony that much 
progress has been made in implementing the executive order, and 
I thank you again for that. But the progress that has been made 
in the regard of the president's executive order regarding 
increased interagency cooperations, when we have asked 
different people, ``Have you been talking,''--and I am talking 
about the SEC, certainly your department, you know, we are told 
e-mails are going back and forth. And I think, you know, as we 
are hearing--you know, as you are asking for more information 
to come from those of interest sometimes they are only getting 
a day's notice to get back to you, or to get back to the 
department I should say.
    So I think that is, you know, poor timing, especially since 
the SEC has no timeline. And yet, Department of Labor is 
putting out a timeline sometime this spring or summer to get 
all the information out before they put a rule out.
    So I think it is time, to be very honest with you, for many 
of us that are members of Congress to really sit down with the 
heads and try and figure out how we are going to go on this 
when you have that information. I think it is really, really 
important because it has been dragging on now for quite a long 
time.
    Secretary Solis. Right.
    Mrs. McCarthy. It is not good. Businesses need to know what 
they are going to be doing, and certainly we--many of us here 
on this particular committee, many on the Financial Services 
Committee--would like to work together and see if we can come 
to some resolution in the near future.
    Secretary Solis. Well, I don't disagree. I think we have 
been working with the other agencies involved and I know that 
my assistant secretary has informed me about those meetings 
face to face. So it isn't all just e-mails; they do meet. 
Because of the enormous response that came out about this 
particular rule we have now reproposed it, so we are taking 
that input and we want to get as much as we can.
    But we did ask for the expertise by a group that was 
actually looking at the rule, and when we asked for that 
information they haven't been able to provide it. So we are 
open. We will meet with whoever we need to and be happy to see 
how we can accommodate this, because we want to have a fully 
fleshed out rule, but--and I certainly am not in a hurry to 
push things quickly until we have and feel comfortable that all 
parties' concerns and we feel we have done a good job.
    And I can't get into too much detail because we are in that 
process now where I am not able to because of restrictions and 
administrative procedures. So I will do what I can but I will 
have my assistant secretary meet with you and other members of 
the committee ifthey are interested.
    Mrs. McCarthy. With that being said--and I don't want you 
to say who the--who you have been working with as far as 
working on the rule on the outside, but if you would share that 
with me I would like to know only because I certainly will give 
a push, also, to get their recommendations in.
    Chairman Kline. The gentlelady's time has expired.
    Mrs. McCarthy. Thank you.
    Chairman Kline. Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for being here. We 
appreciate the opportunity, and probably my first couple issues 
will be more of a statement since we have had the privilege of 
having some of your undersecretaries and deputies in front of a 
subcommittee that I chair.
    But I did want to talk to you about the companionship 
services issue. Yesterday my Subcommittee on Workforce 
Protections held a hearing on the proposed rule. We appreciate 
Ms. Leppink being there with us and addressing issues of 
concern.
    At the hearing one of my constituents explained that a 
similar change to Michigan's law back in 2006 drastically 
changed, and I quote--``his companion care business, negatively 
affecting his caregivers and the seniors they serve.'' My 
constituent also explained that there has been widespread 
dissatisfaction with the law change in Michigan.
    As you may know, 21 states and the District of Columbia 
have, in varying degrees, extended wage and hour coverage to 
caregivers. It seems to me that a close examination of the 
impact in these states would go far to inform the department's 
proposed rulemaking.
    Unfortunately, it is my perception--and it is my 
perception--the department has failed to analyze the practical 
and economic effects of changing the law in each of these 
states. And so I would ask you, Madam Secretary, what 
assurances can you give the committee that you will take these 
concerns into consideration before moving forward?
    Secretary Solis. Thank you, Mr.--Congressman Walberg. I 
know that my director did come before your subcommittee 
yesterday and I understand that there was a good conversation, 
at least, explaining what the Department of Labor is doing in 
this area.
    As you know, the rule is intended to help provide support 
for the 2 million individuals who work in this industry, 
mostly--90 percent--women, low-wage workers, low-skilled, and 
we are----
    Mr. Walberg. That give amazing, amazing service.
    Secretary Solis. Absolutely.
    Mr. Walberg. We have experienced it in my own home.
    Secretary Solis. And clearly, as you said, 16 states 
already provide minimum wage and it varies--and overtime. And 
what we have noted in our analysis is that in terms of cost 
over time there is the notion--and I would be happy to have my 
staff provide more information--that there is a cushion 
available to allow for overtime pay, and it would help--
actually help to provide more jobs for people in this growing 
industry. We can't find enough people in the industry.
    Mr. Walberg. I just beg to differ on that issue because 
sound economics does not say that adding more costs will 
ultimately provide more services for caregivers, more jobs.
    Let me move on. But I just ask that you will seriously look 
at the impact of other states--negative impacts to jobs and 
caregivers.
    In the issue of I2P2, it appears that your department is 
taking a very adversarial approach to working with employers to 
ensure the safety of employees in the workplace. There is a 
great deal of concern about OSHA's work on a new Injury Illness 
and Prevention Program, otherwise known as I2P2. A recent study 
by the Rand Corporation concluded that a similar program--one 
operated by California OSHA--showed no demonstrable improvement 
in safety with the use of an I2P2-like regulation.
    I would just ask again, can you give this committee an 
assurance that this will not become one-size-fits-all, 
inflexible government mandate on our states' programs?
    Secretary Solis. Congressman, right now we are in the early 
drafting stages of the standard and we are hearing from our 
stakeholders, which include small businesses, both large and 
medium sized, and we are listening carefully in terms of 
drafting the standard. So we are taking every comment very 
seriously and I would be happy to make sure that you know that 
our intent is not to double-site a facility, because that is 
not what we want to do.
    What we want to do is try to bring conformity so that we 
know that employers are helping to maintain safe workplaces. 
That is really what we are trying to achieve. I know it is a 
laudable goal, but it is one that is a work in progress.
    Mr. Walberg. Well, thank you.
    Finally, in a letter to Senator Tom Harkin the America Farm 
Bureau Federation expressed some concerns about the new 
proposed youth worker rule, and they quoted from the proposed 
rule. Any activity involving physical contact with all 
machines, equipment, implement operated by any power source 
other than human hand or foot power, and the DOL has explicitly 
stated this includes batteries--now I don't know if it includes 
battery-driven screwdrivers, drills, or anything like that--but 
power equipment will be prohibited for youth.
    Now, while applauding the Jobs Corps successes I am 
concerned about our agricultural youth being impeded by the 
Department of Labor. And remember, there may be 
disproportionate injuries but there is a disproportionate 
number of non-farm youth that are working so of course there 
will be more injuries related to farm work.
    My concern is that until after the rulemaking process had 
commenced and completed with the rule--proposed rule being put 
forward, according to a letter received from your deputy 
director at a request of Chairman Kline and myself there was no 
opportunity for a listening session to agricultural community--
not agriculture worker advocates and all of the rest, but 
actual agricultural community--farmers. And then a hearing was 
given in October when my farmers were in the fields harvesting. 
So I am concerned that--that we have had the opportunity from 
the ag community to talk about why this is so much different 
for youth workers on a farm situation that feeds the world in 
comparison to the rest of the work situations----
    Chairman Kline. The gentleman's time has expired.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Madam Secretary, it is wonderful to see you and to 
feel the enthusiasm that you have, I think, for your job, for 
making sure that workers can go to work, and be safe, and come 
home and be with their families. I think that is what we all 
want and we all value.
    And I know that everyone believes that. I mean, we all want 
people to be safe at work, and the reality is, as I understand 
it as when you came into this position you found that there was 
little enforcement going on. And so I think, you know, we might 
all want to actually pick apart any one issue that has been 
raised, but overall I think that it is important for people to 
believe that at work there is going to be enforcement for all 
those safety standards--for OSHA, whatever that may be.
    Perhaps you might want to just give us one example of 
where, in fact, something had been going on for a long time 
affecting workers, and yet nobody had taken the time to really 
take a look at it.
    The other thing I just wanted to mention quickly is that 
you have done an awfully lot in terms of veterans, and I really 
am pleased to hear that. The issue that I think is a little 
difficult at times is the coordination and knowing what is it 
that is really making a difference for veterans in these 
programs? Because one of the things that I hear is, you know, 
the tie with a mentor, the tie with someone who is really 
available to be helpful and to be helping to be a champion, and 
a coach, and a real nudger, I think, for someone who needs 
somebody there.
    So I am hoping that you can maybe share a little bit about 
how we are looking at the value of these programs, and what are 
the themes that make a difference? And along with that, just 
the issues--and I think Secretary Duncan maybe here next week 
to talk about the G.I. bill and how that plays into the kind of 
education and certification programs the people are getting and 
to be sure that they are getting the best bang for their buck 
in regard to that. So I have thrown out a few issues and I 
wonder if you could just address that--the OSHA issue and--then 
the veterans problems.
    Secretary Solis. Well, I would go, again, to some of the 
efforts that we have undertaken under the VETS division in 
Department of Labor to try to really transform our TAP program. 
And I think when I served in the House with you I remember the 
TAP program not really able to show as much results, and there 
has been a lot of criticism about that.
    So we have revamped this program that has now been in 
existence for almost 20 years to actually follow, monitor, 
assess and make sure that we are in contact at every point with 
that veteran before they are even released from the military, 
and then continue it once they leave and instituting programs 
like new tools, like helping veterans through our DOL Internet 
programs to make sure that they can get information about where 
training, whatever it might be, wraparound services, but more 
importantly, employment, and getting them to understand that 
there are tools available through the Department of Labor that 
can actually help them identify the skill set that is 
transferable to a job.
    That is the biggest barrier right now for a veteran who is 
coming home who may have been in charge of a battalion, may 
have been a mechanic, but knows how to handle machinery, 
welding, and all kinds of things. How does that credential or 
how could that code that the military gives you for that job 
translate into a particular occupation that is easily 
accessible and understood?
    We have revamped our program to do that so we are going 
online in that way, but we also need to do more because there 
are so many that are not finding that--particular age group 
that is very young, the ones that are just coming back from 
Iraq and Afghanistan----
    Mrs. Davis. Madam Secretary, is it possible for the 
Department of Labor to also identify typical programs that have 
been useful? I think you don't necessarily identify certain 
schools, per se, but one of the frustrations I hear is that 
they don't know enough about those programs and get involved 
and give out--get out their G.I.--you know, G.I. dollars to 
schools that don't----
    Secretary Solis. I think that is why we are also asking our 
state veteran representatives that--actually, the states 
receive funding for our programs to help them better work and 
understand exactly the kind of assistance. It isn't just about 
showing them, ``There is the job,'' it is actually tracing it, 
monitoring them, giving the feedback that they need, the 
coaching, the resume-writing, and also just getting them 
involved with other--a network of other veterans so they feel 
some self support. That is really important.
    Those things work, and we can indicate, even in our own 
results that when people do receive more intensive services--
that is case management--they are successful. That is why we 
created this Gold Standard Card that for the first time is 
going to allow for that tracking for 6 months.
    Now that costs money, and those things are very intensive, 
and a lot of our states have to be ready to do this. And we are 
asking people to step up but we certainly want to work with 
people on this committee as well as the Veterans Committee to 
see how we can foster a better relationship. And we are doing 
that with Secretary Shinseki--I enjoy working with him in the 
Department of Defense--and our other friends and agencies like 
OPM, because we want to make sure that we can also hire these 
veterans for jobs.
    We find that there are some barriers there and we are also 
working and focusing in on that to make it easier for them to 
also come back and get the job that they left originally. That 
also requires funding and we find that there is a tremendous 
need to focus our attention in those areas.
    Chairman Kline. Gentlelady's time has expired.
    Dr. Foxx?
    Ms. Foxx. Thank you.
    And, Madam Secretary, it is good to see you. You are 
looking very well. It appears your job is agreeing with you and 
we are glad to have you back in the committee.
    Secretary Solis. Thank you.
    Ms. Foxx. I want to first associate myself with some 
comments the Congressman Roe said. I think it is very troubling 
to me to hear so many people in this administration blame the 
shortcomings of the administration on the previous 
administration and on Republicans in the Congress but then 
quick to take credit for what the private sector does despite 
the administration, and particularly the Department of Labor. 
So I will say that coming here and taking credit for the 
private sector jobs that have been created is quite a stretch.
    I would like to also say that in the bill that we have 
proposed that would revamp the WIA programs you say--Mr. 
Miller, I think, asked about cuts--there may be cuts in the 
budget that has been proposed, but certainly in the bill that 
we have put forward doesn't make any cuts whatsoever in the 
program. And I would like to know what you can point to as 
accomplishments in any WIA program. Give me numbers.
    I want specific numbers on something that, as a result of a 
program covered by WIA, that has created a positive effect. 
Because in the 47 programs only five have any kind of 
evaluation, and even those evaluations--I have looked at them--
can't show a positive--a cause and effect.
    And I am very big on accountability. We are taking money 
from hardworking taxpayers and spending that money, from people 
who are already working. So show me one--give me one positive 
impact, if you will.
    Secretary Solis. Okay. Thank you, Congresswoman.
    I would share with you that under our July 1, 2010 through 
June 30, 2011 the WIA Adult Dislocated Worker Program served 
8.4 million participants and nearly 6.2 million exiters--those 
are program completers. The figures represent an increase of 
300,000 recipients and over 400,000 exiters in program year 
2009.
    The Dislocated Worker Program completers received training, 
showed nearly a 25 percent increase compared to those who did 
not receive training at all. That is a 77.7 percent versus 52.6 
percent, respectively----
    Ms. Foxx. Okay. Let me stop you there. What in the program 
made the difference? That is what I want to know.
    Secretary Solis. I will tell you. We have really revamped 
our program since I have taken over, and part of it is more 
accountability, more feedback directly--you have my assistant 
secretary here, Jane Oates, who you may know, who is spending a 
lot of time----
    Ms. Foxx. We have met.
    Secretary Solis [continuing]. Conducting webinars and 
direct calls. I have made myself available with the directive 
that we now have to ask our workforce investment boards to do a 
better job of working with our employers and making sure that 
we are not just saying that the WIA boards have the onus of 
trying to create jobs. It is about really making investments--
--
    Ms. Foxx. Can you----
    Secretary Solis [continuing]. And coupling our federal 
dollars----
    Ms. Foxx. Can you prove that the--and I hate the word 
training, so can you prove that the materials presented and the 
guidance given resulted in a person getting a job in the field 
in which they were educated? Can you prove that?
    Secretary Solis. I would say that we have rigorous 
evaluation for all of our programs and we can show----
    Ms. Foxx. Will you give me copies of those?
    Secretary Solis [continuing]. We can show not just 
attestation that they are receiving certificates but we could 
also show that they are receiving jobs. And I would say----
    Ms. Foxx. Okay. I would like to see that, and I----
    Secretary Solis. Yes. We do have it. We do----
    Ms. Foxx [continuing]. I would like to see the numbers of 
how their income is increased.
    The other quick question I have to ask you--and this is 
very quick--you stated a little bit ago that the numbers of 
people who would be affected by the cuts in the budget were 
astronomical. You are very good at using hyperbole.
    Tell me what an astronomical figure is in terms of women 
homeless veterans. How many women homeless veterans--or any 
other astronomical figure that you have--would be affected by 
the budget cuts.
    Secretary Solis. I have----
    Chairman Kline. Gentlelady's time has expired. If we could 
get that for the record?
    Ms. Foxx. I would expect that in writing----
    Chairman Kline. For the record.
    Ms. Foxs [continuing]. And I don't want to wait 15 months.
    Secretary Solis. Certainly. Certainly.
    Chairman Kline. Thank you. The gentlelady's time has 
expired.
    Ms. Fudge?
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank you, Ranking Member Miller. It is a pleasure for 
me to be back on the committee.
    Certainly my friend and mentor, Donald Payne, does leave 
behind an impressive legacy of protecting workers' rights and 
improving educational opportunities for our children. I hope I 
can live up to that same standard. Thank you so much.
    Madam Secretary, thank you for being here. And I do want to 
at some point talk with your staff about the TAP program. It is 
still a major problem. I had a meeting just last week with some 
returning veterans and all of the agencies that are supposed to 
serve them. I would like to at some point have you--have 
someone from your staff interact with my staff.
    Secretary Solis. Absolutely.
    Ms. Fudge. First question, over the last year many of the 
media outlets have released reports on the difficulty of 
unemployed persons having problems getting jobs just because 
they are unemployed. Many of the long-term unemployed do face 
the reality that jobless people need not apply. What is your 
agency doing about that problem?
    Secretary Solis. Well, that is a very sensitive issue with 
me because we know in our meetings that I have had throughout 
the country we have heard individuals who are frustrated 
because in some cases there are employers that actually 
advertise jobs saying if you have been unemployed, period, we 
don't--we are not even going to bother to look at your resume. 
So we know that that is an issue and I have my staff--my 
solicitors office also working with White House staff and other 
agencies that have jurisdiction over this, because we think it 
is wrong.
    And I know that some states have actually taken on this as 
a major incentive to try to get employers not to list that on 
their postings. And we are hoping to work that out. I know I 
will have my assistant secretary meet with you more, if you 
would like, to give you an update on this, as well. Jane Oates 
would be happy to meet with you, our employment training 
administrator, because we have heard firsthand from people who 
are, how could I say, sick and tired of not being able to get 
even into the door to get interviewed.
    And it is highly competitive, but I will say that there are 
more people, or how could I say, there are fewer people now 
competing for that one job. When we first started in this 
recession there were seven people per one job; now it is four. 
But it is still tough competition. That is why we need to have 
more employment training, credentials, and we need to make that 
match occur better.
    And if we can use tools through the U.I. program like on-
the-job training to incentivize businesses to bring people on 
and we help to subsidize, chances are they are going to end up 
staying on that job.
    Ms. Fudge. Madam Secretary, the other thing I just want to 
say about that is that if we don't get a handle on this those 
people who have been employed become the long-term unemployed. 
They may never work if we don't find some way to keep them from 
being discriminated against in the workforce.
    My second question is that, you know, over recent years, as 
productivity gains have been made wages have actually gone 
down. You look from 2002 to 2007, productivity grew by 11 
percent but the hourly compensation of the typical high school 
or college educated worker actually fell.
    Now, you know, they have a lot of reasons that they say 
this is happening. One is that, you know, they say overseas 
competition and declining union density is to blame for the 
disconnect. What is, in your opinion, the problem here?
    Secretary Solis. It is a hard question to answer, but there 
are multiple things going on. I think there was a--just reading 
an article yesterday in the Washington Post about the fact that 
some economists say that American workers are the most 
productive and that what is happening in the workforce is that 
many businesses are not hiring more people because our 
workforce has either become more mechanized or that they are so 
efficient at their jobs that they are not--they are reluctant 
to hire up the next slot.
    What I see happening is that there are global factors at 
play here, and a lot of jobs that we lost overseas. But I think 
the real focus has to be in creating good manufacturing jobs. 
That is why the president has talked about insourcing jobs, 
bringing those jobs--some--not all of them will come back but a 
good majority will.
    Take as an example what happened in the automobile 
industry. With that assistance now you see 200,000 jobs in the 
last 2 years created not just solely around developing 
automobiles but also the other subsidiary industries that go 
with that. So you can look at almost a million jobs created 
because now you have a restaurant going up, now you have----
    Ms. Fudge. Madam Secretary, those jobs are much lower 
paying than the jobs that people lost, so the job creators may 
be hiring people but they are giving them lower wages.
    Secretary Solis. I would say that wages have been stagnant, 
and that is something that obviously we want to incentivize 
businesses to do the right thing and hopefully spur more growth 
by making those investments in areas--renewable energy, things 
that we know are going to have a long-lasting impact in our 
economy. We do have to have some major restructuring because it 
hasn't happened in the last 30 years.
    Ms. Fudge. Thank you.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank the gentlelady.
    Dr. DesJarlais?
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And thank you, Secretary Solis, for being here today.
    I think I am going to be fairly brief. It will depend on 
how long your answer is, but I was at the Rutherford County's 
annual farm bureau legislation luncheon this past Friday and 
one of their big concerns was the child labor laws. And given 
this great opportunity today to alleviate some of their fears 
on what their farm kids can and can't do, could you just maybe 
give me an update of where that stands and where it is headed?
    Secretary Solis. Well, we are looking at the parental 
exemption status, so I can't go into a lot of detail. But I 
said earlier to the committee what we are attempting to do and 
what it isn't. And first of all, I have to tell you again, 
reiterate that this is a rule that has been around for 40 
years.
    What we are trying to do here is we are not talking about 
kids who are currently employed, so if there is an employee 
relationship, you know, we do--we care about if there are kids 
16 and older that are working on a farm and they are exposed to 
maybe equipment that could be harmful. We are talking about 
grains; we are talking about equipment that can be injurious.
    And I said earlier that there was a high rate of injury in 
this area, so we want to protect them. We want better training. 
We obviously want to allow for the 4-H and education programs 
that we know have been around to also bring up their standards, 
because with 40 years gone by there have been people that still 
think it is done the old way, and in the old way you have more 
injuries and it costs businesses more money.
    But we are saying if it is a family farm then that is 
different and we are not going to intrude on that. If it is a 
farm where there is a relative we are looking at that as 
something that is wholesome, fine. But when we are talking 
about a business relationship with a business entrepreneur, and 
that is different, then they have an obligation, and that is 
where we are going.
    But I can't really say a whole lot except to say we are 
listening very carefully. We have gotten a lot of concerns, 
comments, many thousands of paper on this. So I know that my 
acting director now for Wage and Hour will be continuing to 
meet with stakeholders and going out.
    So as much as we can do and learn we are willing to do 
that, but without compromising the safety of these young 
people.
    Mr. DesJarlais. But as far as farm kids, say 12, 13, 14, it 
is not uncommon for them to drive the tractor----
    Secretary Solis. If they do chores--chores is chores.
    Mr. DesJarlais [continuing]. Driving the tractor down the 
hayfield. There were some concerns about moving irrigation 
lines. Somebody said that, you know, that could be considered 
dangerous--excuse me--dangerous to the point that, you know, 
they might even restrict them from standing in the front yard 
with garden hoses. Now, you know, that sounds like----
    Secretary Solis. Those are extreme.
    Mr. DesJarlais [continuing]. That is an exaggeration, but 
nonetheless, how intrusive is this going to be in terms of----
    Secretary Solis. Well, I can't talk definitively about it 
because we are proposing it, but I can tell--I can assure you, 
as I said, the idea that somehow we would be regulating the use 
of a battery-powered screwdriver is not my may of rationalizing 
how we want to protect people. We are talking about tractor-
trailers when people are not appropriately trained, and we are 
talking about a difference in terms of relationship. If it is a 
child whose family owns a farm that is a different 
relationship; I am talking about an employer relationship.
    Mr. DesJarlais. Tennessee has the largest farm bureau in 
the country and I know they are very interested in this, so I 
would encourage----
    Secretary Solis. We would be happy to meet----
    Mr. DesJarlais [continuing]. Further dialogue.
    Secretary Solis [continuing]. We would be happy to talk to 
them.
    Mr. DesJarlais. That would be great.
    Secretary Solis. Thank you.
    Mr. DesJarlais. I am losing my voice so I will yield back.
    Secretary Solis. Okay.
    Chairman Kline. Thank the gentleman.
    Mr. Holt?
    Mr. Holt. Welcome back, Madam Secretary. We are always 
proud and have been proud for years to call you colleague, and 
I am pleased to acknowledge all the good work you are doing at 
the department. It is gratifying to note that under your 
leadership the department has taken strong action to protect 
the health and safety of mine workers; that under your 
leadership the Wages and Hours Division has recovered more than 
$200 million in back wages on behalf of hundreds of thousands 
of workers; that under your leadership the workforce system has 
served 1.7 million veterans, as you have discussed, and helped 
tens of thousands of youth get high school diplomas.
    There is so much that you do. Let me just give you three 
questions, quickly. I think they can all be answered briefly, 
but maybe you will want to provide more information, then, 
later.
    First, with respect to the Workforce Investment Act, I am 
pleased to join our colleague, John Tierney, and others in 
proposing a good reauthorization. I am also pleased to 
acknowledge the good work of Jane Oates in that.
    As you know, I support the use of more online training 
under WIA and also support fuller inclusion of libraries----
    Secretary Solis. Right.
    Mr. Holt [continuing]. Public libraries--into WIA. Can you 
say that your plans for WIA include a greater role for 
libraries and increased online training?
    Secretary Solis. Right. Absolutely.
    Mr. Holt. And I would like to turn to a couple of other 
questions.
    Secretary Solis. Yes.
    Mr. Holt. With respect to the fiduciary rule, after our 
previous discussions you withdrew the draft rule for--so-called 
fiduciary rule, and I want to thank you for soliciting----
    Secretary Solis. We heard you.
    Mr. Holt [continuing]. More data to inform a better 
understanding of the problem before reproposing the rule. I am 
a little concerned, however, that the department is asking the 
wrong questions, and in requesting more data you won't get the 
data that will actually get to the issue of how employees make 
decisions, and whether--what you can do to help employees make 
decisions that will leave them better prepared for retirement, 
how we can increase access to investment advice.
    So the question I have is, are you finished asking for 
additional data? I hope not because----
    Secretary Solis. No. We are not finished. That is why it is 
open. And we definitely want to hear from stakeholders and your 
comments, and obviously hear from the public overall. So we are 
not in a hurry to do this.
    Mr. Holt. And if you could state at some point, you know, 
publicly that your goal here is to provide greater access to 
advice so people--so that people--this is a joint goal--so that 
people will be better prepared for their non-wage earning 
years. It is not advice for its own sake; it is advice so that 
people can be better prepared.
    Secretary Solis. Absolutely. We don't have disagreement 
with that.
    Mr. Holt. You may know that Representative Petri and I have 
introduced a bipartisan bill, the Lifetime Income Disclosure 
Act, also directed at helping people be better prepared for 
their non-wage earning years. It would provide clearer 
information about how well their savings would cover their 
monthly expenses. And it is my understanding that the 
department and Treasury--that your department and Treasury are 
close to finalizing a lifetime income rule.
    Will you call for clearer information to help people plan 
better for retirement so that they have an understanding of 
what their retirement package might mean for them day to day, 
month to month, so that they will have a sense of----
    Secretary Solis. I don't----
    Mr. Holt [continuing]. How well prepared they are?
    Secretary Solis. Right. I don't disagree that we are on the 
same wavelength, so to speak, because we do want to see more 
information, more transparency so people do have choices. So I 
think we are moving in that direction.
    And to the extent that we are asking for more public 
comment and meeting with stakeholders, if there are individuals 
that you think that we need to hear from please help us 
facilitate that. And I know Phyllis Borzi has met with you over 
the last 2 years on this issue, and she cares very deeply, as I 
do and this administration, in making sure that we get the most 
ample and very open process so we hear from everybody. So I 
will take that back.
    Mr. Holt. I certainly appreciate that. And I think she does 
understand, and I hope--I just want to emphasize and make sure 
everyone understands----
    Secretary Solis. And I want to thank you for your 
leadership----
    Mr. Holt [continuing]. That the goal here is to help people 
be better prepared, to get them access to information so that 
they can make good decisions. I thank you very much.
    Secretary Solis. Thank you.
    Chairman Kline. The gentleman's time has expired.
    Mrs. Roby?
    Mrs. Roby. Madam Secretary, thank you for your time today 
and answering our questions.
    I want to talk about health care. You, in one of your 
answers a few minutes ago, referred to the small businesses 
that are a result of larger business that creates jobs. The 
private sector creating these jobs then often leads to more job 
creation surrounding an industry, and you referenced that by 
mention of restaurants.
    And I want to talk specifically, because early on for me in 
Congress I had the opportunity to sit down with an owner of a 
Pizza Hut in Headland, Alabama, who explained to me that once 
implemented the government mandate that would require him to 
purchase health care--government approved health care--if he 
had over 50 employees would be devastating to his bottom line 
with all of his other expenses relating to owning that 
franchise. So I want to ask you specifically, because of the 
cost associated--the penalty that would have to be paid, the 
$2,000 per employee after the 30-employee exemption, the 
$42,000 that would come directly out of a small business that 
hires one additional employee to get over the 50-employee 
threshold, how in the world can we expect small business, which 
drives this economy, to be incentivized by that tax to create 
jobs?
    Secretary Solis. Well, obviously my role in the Health Care 
Act is more with overseeing the implementation of the plans, 
and Phyllis Borzi, who heads my Employee Benefits Security 
Administration has been my representative working with HHS and 
Treasury to help formulate and put the regulations out. And I 
know we are looking at how we can better provide more 
opportunities so small businesses and their employees aren't 
just thrown out and that they have some potential coverage. So 
we are going----
    Mrs. Roby. But certainly in your position, Madam Secretary, 
as the secretary you certainly have an opinion on whether or 
not that threshold and that penalty will help job creators, 
because certainly it will not. We know that this is going to 
cause these small businesses in some instances to have to close 
their doors. And I reference back to the Pizza Hut franchise 
owner in Headland, Alabama, who has stated just that.
    Secretary Solis. Well, there are several studies that have 
been done that actually have an opinion on this, and I would 
point you out--and I can certainly give those to you, but what 
I am hearing, like, as an example, from Thomson Reuters 
Consulting, they say that, quote-unquote--our clients, none of 
them have alluded to dropping coverage and would not have heard 
from a client. So I know that there has been a recent CBO 
study----
    Mrs. Roby. I think there would be--we would need to know 
the specifics around what those businesses look like, because 
in the case of this gentleman, different businesses have 
different overhead costs, and when you add the cost of the 
health care mandate on top of that it is going to severely hurt 
small business job creation throughout the country.
    Secretary Solis. Well, I know that there is an effort to 
get our states to begin to look at exploring the exchanges that 
would be developed so that small employers can attach 
themselves if they don't currently have health care coverage 
and be able to allow, also, for a more ample opportunity for 
people to choose what kind of health care is out there. And 
that could also help to be a softening blow and actually help 
many small employers because they----
    Mrs. Roby. But you agree it is a blow. It----
    Secretary Solis. Well, I don't agree with that because I 
agree with the Affordable Health Care Act, that it is providing 
coverage to many people who aren't being covered right now--not 
just----
    Mrs. Roby. But if the employer can't afford on its bottom 
line to cover those individuals then they are going to pay the 
penalty, but in order to get out from under the penalty they 
are not going to add more jobs so they can stay under that 50-
employer threshold, and that is the point, is that it is not an 
incentive to small business creation.
    One other thing real quick, because it has been referenced 
on more than one occasion throughout this hearing, is the 
regulation amending the definition of fiduciary. And 54 of my 
colleagues--we all signed on to a letter and we have yet to 
receive a direct response as it relates to that letter and the 
criteria that we would like for you to consider in promulgating 
that definition, so I would hope that there would be a more 
formal response as it relates to those specifics.
    Secretary Solis. I know that we had received letters from 
members of the Senate and the House, and when they came in at 
one point our period had already closed for comment, but that 
is not to say that what was included in your letter wasn't 
already submitted by other individual stakeholders that had the 
same type of----
    Mrs. Roby. Well, we didn't receive the response that was 
given to the other stakeholders, so if you would provide that 
information to us we would appreciate it.
    Secretary Solis. I am certain that we will do what I--what 
we can on that.
    Mrs. Roby. Okay. Thank you very much.
    I yield back.
    Chairman Kline. Thank the gentlelady.
    Ms. Woolsey, you are recognized.
    Ms. Woolsey. Thank you very much, Mr. Chairman. Mr. 
Chairman, I would like to ask unanimous consent to enter into 
the record the economic situation--Employment Situation Summary 
that goes along with each month's employment report that the 
gentleman from Indiana referred to, that actually reports long-
term unemployed, the--those who are discouraged workers, and 
the part-time workers----
    [The information follows:]

                    U.S. Bureau of Labor Statistics

                         Economic News Release
                      Employment Situation Summary

    Transmission of material in this release is embargoed USDL-12-0402 
until 8:30 a.m. (EST) Friday, March 9, 2012
    Technical information:
    Household data: (202) 691-6378 * <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99a898a90979f96b99b958ad79e968f">[email&#160;protected]</a> * www.bls.gov/cps
    Establishment data: (202) 691-6555 * <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="630006100a0d050c23010f104d040c15">[email&#160;protected]</a> * www.bls.gov/
ces
    Media contact: (202) 691-5902 * <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2474564157576b42424d4741644648570a434b52">[email&#160;protected]</a>

                the employment situation--february 2012

    Nonfarm payroll employment rose by 227,000 in February, and the 
unemployment ratewas unchanged at 8.3 percent, the U.S. Bureau of Labor 
Statistics reported today.Employment rose in professional and 
businesses services, health care and socialassistance, leisure and 
hospitality, manufacturing, and mining.
Household Survey Data
    The number of unemployed persons, at 12.8 million, was essentially 
unchanged inFebruary. The unemployment rate held at 8.3 percent, 0.8 
percentage point belowthe August 2011 rate. (See table A-1.)
    Among the major worker groups, the unemployment rates for adult men 
(7.7 percent),adult women (7.7 percent), teenagers (23.8 percent), 
whites (7.3 percent), blacks (14.1 percent), and Hispanics (10.7 
percent) showed little or no change in February.The jobless rate for 
Asians was 6.3 percent, not seasonally adjusted. (See tablesA-1, A-2, 
and A-3.)
    The number of long-term unemployed (those jobless for 27 weeks and 
over) was littlechanged at 5.4 million in February. These individuals 
accounted for 42.6 percent ofthe unemployed. (See table A-12.)
    Both the labor force and employment rose in February. The civilian 
labor forceparticipation rate, at 63.9 percent, and the employment-
population ratio, at 58.6 percent, edged up over the month. (See table 
A-1.)
    The number of persons employed part time for economic reasons 
(sometimes referredto as involuntary part-time workers) was essentially 
unchanged at 8.1 million inFebruary. These individuals were working 
part time because their hours had been cutback or because they were 
unable to find a full-time job. (See table A-8.)
    In February, 2.6 million persons were marginally attached to the 
labor force,essentially unchanged from a year earlier. (The data are 
not seasonally adjusted.)These individuals were not in the labor force, 
wanted and were available for work,and had looked for a job sometime in 
the prior 12 months. They were not counted asunemployed because they 
had not searched for work in the 4 weeks preceding thesurvey. (See 
table A-16.)
    Among the marginally attached, there were 1.0 million discouraged 
workers inFebruary, about the same as a year earlier. (The data are not 
seasonally adjusted.)Discouraged workers are persons not currently 
looking for work because they believeno jobs are available for them. 
The remaining 1.6 million persons marginally attachedto the labor force 
in February had not searched for work in the 4 weeks precedingthe 
survey for reasons such as school attendance or family 
responsibilities. (Seetable A-16.)
Establishment Survey Data
    Total nonfarm payroll employment rose by 227,000 in February. 
Private-sector employmentgrew by 233,000, with job gains in 
professional and business services, health care andsocial assistance, 
leisure and hospitality, manufacturing, and mining. (See table B-1.)
    Professional and business services added 82,000 jobs in February. 
Just over half ofthe increase occurred in temporary help services 
(+45,000). Job gains also occurred incomputer systems design (+10,000) 
and in management and technical consulting services(+7,000). Employment 
in professional and business services has grown by 1.4 millionsince a 
recent low point in September 2009.
    Health care and social assistance employment rose by 61,000 over 
the month. Withinhealth care, ambulatory care services added 28,000 
jobs, and hospital employmentincreased by 15,000. Over the past 12 
months, health care employment has risen by360,000. In February, social 
assistance employment edged up (+12,000).
    In February, employment in leisure and hospitality increased by 
44,000, with nearly allof the increase in food services and drinking 
places (+41,000). Since a recent low inFebruary 2010, food services has 
added 531,000 jobs.
    Manufacturing employment rose by 31,000 in February. All of the 
increase occurred indurable goods manufacturing, with job gains in 
fabricated metal products (+11,000),transportation equipment (+8,000), 
machinery (+5,000), and furniture and relatedproducts (+3,000). Durable 
goods manufacturing has added 444,000 jobs since a recenttrough in 
January 2010.
    In February, mining added 7,000 jobs, with most of the gain in 
support activities formining (+5,000). Since a recent low in October 
2009, mining employment has increasedby 180,000.
    Construction employment changed little in February, after 2 
consecutive months of job gains. Over the month, employment fell by 
14,000 in nonresidential specialty tradecontractors.
    Overall, employment in retail trade changed little in February. A 
large job loss ingeneral merchandise stores (-35,000) more than offset 
an increase in January (+23,000).Employment in motor vehicle and parts 
dealers continued to trend up in February.
    Government employment was essentially unchanged in January and 
February. In 2011,government lost an average of 22,000 jobs per month.
    The average workweek for all employees on private nonfarm payrolls 
was unchanged at 34.5 hours in February. The manufacturing workweek 
edged up by 0.1 hour to 41.0 hours,and factory overtime was unchanged 
at 3.4 hours. The average workweek for productionand nonsupervisory 
employees on private nonfarm payrolls edged up by 0.1 hour to 
33.8hours. (See tables B-2 and B-7.)
    In February, average hourly earnings for all employees on private 
nonfarm payrolls roseby 3 cents, or 0.1 percent, to $23.31. Over the 
past 12 months, average hourly earningshave increased by 1.9 percent. 
In February, average hourly earnings of private-sectorproduction and 
nonsupervisory employees rose by 3 cents, or 0.2 percent, to 
$19.64.(See tables B-3 and B-8.)
    The change in total nonfarm payroll employment for December was 
revised from +203,000to +223,000, and the change for January was 
revised from +243,000 to +284,000.
                                 ______
                                 
    Chairman Kline. Without objection.
    Ms. Woolsey [continuing]. So that it is clear we already 
have that information. Thank you.
    And then I also need, before I talk to our wonderful 
secretary of labor, clear up something that the gentleman from 
Michigan, Mr. Walberg, stated that he has--that we have 
corrected once and we need to correct again, and that is the 
Rand report about the costs of prevention for our workers. The 
Rand draft did not say--and Rand has corrected this--they did 
not say anything about it costing more; in fact, they said when 
inspectors investigate further and found failures to comply 
with provisions to train workers to identify and abate hazards 
and investigated injury causes the average injury rate at 
targeted businesses declined more than 20 percent. The cost did 
not go up; the cost went down. So we need to keep reminding the 
other side of the aisle that that is exactly what is happening.
    Madam Secretary, thank you for being here and I think we 
have been amiss in not saying to you how we were thinking of 
you during your loss when--the loss of your father who was so 
proud of you and had every right to be, and you just added to 
that today.
    My question is about OSHA, and we have a backlog of over 
2,000 whistleblower investigations. Some have been in line and 
languishing for 2.5 years. And since whistleblowers are 
actually proven to be essential to our society in protecting 
lives and property, because of fear of losing their jobs they 
don't always come forward and--like at the Upper Big Branch 
miners were afraid to call MSHA about unsafe conditions, that 
Enron accountants were afraid to report the Ponzi scheme until 
it was too late and billions in retirement savings were lost, 
and we all know that if big rig drivers are afraid to refuse to 
drive trucks that have unsafe brakes we are all in jeopardy.
    So I ask you, in this year of--whether our OSHA's budget, 
which has stayed flat but has proposed an increase of $5 
million for the whistleblowers, is this enough? Are we going to 
be able to serve the needs of the whistleblowers? And would you 
like to expand on that?
    Secretary Solis. Thank you, Congressman Woolsey. I know 
that this is of great interest to you and OSHA, I think, has 
done a tremendous job, given our budget situation. And you are 
correct in saying that our fiscal 2013 request for $565 million 
is up a bit, thank goodness, but our request obviously--you 
know, the focus is on expanding our responsibilities that you 
all gave us--that the Congress laid out for us in terms of 
providing help for the whistleblower program, and every--I 
mean, there have been changes in that and we definitely needed 
more support to help with the regulations and also enforcement. 
The GAO report stated that very clearly and we know that we 
have an obligation, and that is why we moved forward in 
actually putting the responsibility of the whistleblower 
programs under--directly under Dr. David Michaels, of OSHA, so 
that we could help elevate and make it an important area and 
function of the Department of Labor.
    Ms. Woolsey. Is there a cost to not supporting the 
whistleblowers?
    Secretary Solis. Well obviously, I mean, you outlined some 
of those already. And they are detrimental, and in many cases 
if you don't act on these cases right away you can lose the 
ability to do your investigation and go through the litigation 
process. And of course, the harmful effects and also the 
adverse effects that some employees go through, being harassed 
and going through a whole slew of bad activity that occurs once 
they do come forward and make a complaint.
    So we know we have an obligation. I feel very strongly 
about this. I know this committee does and I know members on 
your side of the aisle have been very important in helping us 
to structure this program.
    Ms. Woolsey. Thank you very much.
    Thank you----
    Chairman Kline. The gentlelady's time has expired.
    Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    Secretary Solis. Thank you.
    Mr. Goodlatte. We are glad you are here today. I would like 
to follow up on some questions about OSHA, as well.
    Yesterday OSHA published its Global Harmonization 
Regulation. Can you tell us what, quote--``hazards not 
otherwise classified,'' means in this regulation?
    Secretary Solis. Well, this is an exciting announcement 
that was made yesterday, and I was very proud to be able to do 
this because this is exactly what the president has been asking 
us to do is to help to harmonize and bring criteria together. 
This has been an ongoing process now, as you know. It is not 
easy to get different countries to come together, and----
    Mr. Goodlatte. I understand, but when you try to bring 
people together if you want to accomplish something you have 
got to have an understanding of what it is, and one of the 
catch-all phrases in that so-called Global Harmonization 
Regulation is ``hazards not otherwise classified.'' How are 
employers to quantify this in order to comply with the 
regulation? How will they know what ``hazards not otherwise 
classified'' means?
    Secretary Solis. Well, my understanding is that what we are 
trying to do is make sure that employers and employees, more 
respectively, are aware that when there are chemicals, as an 
example, that are harmful, that we have a system that actually 
provides better harmonization of how you articulate and explain 
that to a worker, say, from another country----
    Mr. Goodlatte. I understand the objective, but I don't know 
how you get to that objective if you categorize something as 
``hazards not otherwise classified.'' How do you know what they 
are? How do you know how to structure your business operation 
to avoid hazards that are not identified and are not 
classified?
    Secretary Solis. We hadn't heard many individuals that were 
opposed to this. In fact, I would say the industry--in 
particular, the chemical industry--Dow and others--came forward 
and many in chamber of commerces around the country were also 
supportive of this particular rule. So it is something that has 
been being worked on now for several years. So this is 
something that I know has been out there for some time, so I am 
reluctant to give you any more information other than I will 
make available my OSHA assistant secretary to clarify for you--
--
    Mr. Goodlatte. It would be helpful if you could help to 
clarify the meaning of that phrase.
    Another OSHA issue, a little over a week ago OSHA issued a 
memorandum to field enforcement personnel that was critical of 
employer safety incentive programs, which I would think are a 
good thing. Currently there is no law or regulation forbidding 
the use of these programs. Does OSHA intend to start issuing 
citations to employers that use employer safety incentive 
programs?
    Secretary Solis. No. You know, we typically--when there is 
an investigation it is because there has been an inquiry. 
Someone has actually called to ask for us to go out there. So I 
would say that that is what we are attempting to do.
    Mr. Goodlatte. But if an employer is using an employer 
safety incentive program to try to encourage safety in the 
workplace you are not intending to issue citations 
notwithstanding the fact that a memorandum was sent out to 
field personnel just 8 or 9 days ago criticizing----
    Secretary Solis. I don't know about that particular case, 
but I will certainly ask the--my assistant secretary to respond 
to you. But typically there are businesses that are involved in 
our compliance programs--there are VVP programs as they are 
noted--and many cases some employers fall behind and that may 
have been what happened here and someone may have lodged a 
complaint and said, ``Well, they are not really keeping up to 
par with what the program said that they should be at.'' So 
that is--it may have happened. I don't know, but I will get 
back to you on----
    Mr. Goodlatte. That also would be helpful if the committee 
could be informed about what was intended by a memorandum that 
criticized these programs.
    Lastly, let me ask you about an issue that the subcommittee 
I serve on held a hearing on yesterday, and that is related to 
the DOL's proposed rule on companionship services. As you know, 
the Office of Management and Budget's circular A-4 requires the 
Department of Labor to examine the proper extent of state and 
local discretion in the rulemaking context and to consider 
alternatives such as leaving regulatory issues to state and 
local authorities.
    In the context of companion care these are extremely 
important considerations, given that states can differ greatly 
in how they regulate care and reimburse for care under 
government-funded programs such as Medicaid. To what extent did 
DOL consider the fact that the rule would preempt the states' 
ability to design regulations to its local care market? Did the 
department consider the advantages of leaving the regulation of 
care to state and local authorities under OMB circular A-4, and 
if not, what assurances can you give the committee that you 
will take these concerns into consideration moving forward? We 
had a very good hearing yesterday on which----
    Secretary Solis. Right.
    Mr. Goodlatte [continuing]. A lot of concerns were raised 
about this initiative by the department.
    Chairman Kline. The gentleman's time has expired, but we 
would appreciate an answer in writing on that.
    Secretary Solis. Sure.
    Chairman Kline. It is an issue that has been raised again 
and again, as you know, Madam Secretary, this morning. I 
appreciate the gentleman from Virginia raising it, and we 
really would like some more feedback. A lot of concern 
yesterday in the subcommittee hearing and today.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. It is nice to see you here 
again.
    First, I want to start off by thanking you and your staff. 
As you know, Mr. Miller, Mr. Hinojosa, and I were working on 
the Workforce Investment reauthorization and we received a lot 
of very valuable technical assistance and advice, and we do 
appreciate that significantly on that basis. We are interested 
in so many different things in that bill, but a number of which 
I think sort of overlap with some direction from the White 
House and from your office, as well, particularly the Community 
College and Career Fund. I wonder if you will talk a little bit 
more about that specific piece that happens to be in our bills 
as well, but what you anticipate from it and how it will help 
people as they get back to work.
    Secretary Solis. Congressman Tierney, maybe before you 
walked in the room I spoke about the TAA Community College Fund 
that has now been in existence, and we are now at the second 
portion or part of the phase. We are now going to be rolling 
out the other $500 million. We have already rolled out $500 
million. Those grants went all over the state. Some states 
competed very well in consortiums, and I know your state did 
very well and so did the state of California, I might add.
    But also, what we are doing there is really looking at 
things in terms of innovation, but I like to say innovation-
slash-reform, because we are really asking community colleges 
to step up to the plate and not just teach for the sake of 
teaching but teach for a credential, or a license, or whatever 
it might be that would actually lead to the job. So now we are 
asking for measures of that, and that is what I think is 
different about this new program that the president has talked 
about. He is willing to put aside funding for K-12--$4 
billion--and $4 billion for community colleges.
    The same things that we have learned in the TAA Community 
College program will be applied but on a broader scale, and we 
found some very good evidence to show that we are actually 
seeing more investments in manufacturing, in I.T., in health 
care, and industries where we--we actually need to continue to 
have people getting into jobs like welding, like 
apprenticeships, because we are finding that there is a big 
shortage in manufacturing of those very highly skilled 
individuals--journeymen, as an example. I know you and I share 
our concern for some of these jobs that are out there but there 
is a great need to have a continual pool of people that are 
cycling into these kinds of jobs.
    Mr. Tierney. Well, we have such a variance just in my 
district alone, as you know--everything from the type of job 
you just described also to very technically oriented jobs, 
whether it is in the health care field and technology there, 
and radiology technicians, right on down the line. We have a 
program in Lynn in the GE site, obviously which brings in high 
precision----
    Secretary Solis. Right.
    Mr. Tierney [continuing]. Manufacturing on that, and----
    Secretary Solis. And your bill talks about sectors----
    Mr. Tierney. Sectors.
    Secretary Solis [continuing]. And that is exactly what we 
have been able to do with the TAA Community College Fund. So we 
know that it works. I mean, I am very excited to see that you 
and your colleagues here, but also in the Senate, have the--the 
same kind of idea or concept that we need to be looking to push 
out incentives to regionalize and look at sectors that are 
growing and help to incentivize that.
    And right now, as you know, many of our states are 
strapped. They are cutting their education budgets. So this is 
a shot in the arm for many of those programs that have been 
stagnant, especially in manufacturing, in bioindustry, in I.T., 
and health care.
    Mr. Tierney. Well, so much has changed since 1998 when we 
first did this law and the types of new industries that weren't 
even thought of at the time, so the flexibility that we are 
trying to provide in the bill, and we received help with as 
well, in allowing people to go to a new area and then be 
flexible. Yesterday we spoke with one employer in my district 
while we were on a conference who used some of the resources to 
actually train incumbent workers----
    Secretary Solis. Right.
    Mr. Tierney [continuing]. Because he was losing his 
business and he shifted from doing high precision medical 
devices and other types of work to the aerospace type of 
industry. And with the assistance of the workforce investment 
board partnering with a provider like the community college 
moving on that he was able to get his people certified and 
credentialed and now half his business is in that area. He 
would have had to lay those people off and move in a different 
direction.
    So your office is helping and helping us grapple with the 
innovation idea, the idea of being flexible on that, the 
partnershipping in the sectors. All of that, I think, is 
important, and no less so than the accountability aspect on 
that.
    And I just wanted to wrap up by--I wish Ms. Foxx was still 
here because my information is some 162,458 jobs, if you want 
to be exact, adults received training services, which I think 
is a pretty incredible number. And 69.6 percent--70 percent--
actually entered employment the first quarter after that. That 
is a marked fact that we could give Ms. Foxx and she could take 
it home. The same thing--almost 130,000 Americans got training 
services through WIA Dislocated Workers Program, and well over 
66 percent of those got jobs.
    So those are the kind of metrics that we want to be able to 
show on a regular basis, and unless we can show them we won't 
be able to continue the program and shouldn't.
    Secretary Solis. Right.
    Mr. Tierney. So the whole idea is the accountability 
wrapped in with the other aspects we talked about. I want to 
thank you for your work and your staff, again, for their great 
work.
    Secretary Solis. Thank you. Thank you.
    Chairman Kline. I thank the gentleman.
    Looks like all members have had an opportunity to ask 
questions. I certainly want to thank the secretary for being 
here with us today and giving so much of your time. I would 
like to recognize Mr. Miller for any closing remarks he may 
have?
    Secretary Solis. Thank you.
    Chairman Kline. I thank the gentleman.
    And again, Madam Secretary, thank you. This was a hearing 
about the president's budget and particularly about the 
Department of Labor's portion of that budget.
    I do want to note that just a moment ago in responding to 
Mr. Tierney you pointed out that many states were strapped. I 
would argue that the federal government is strapped as well, 
and the president's budget reflecting, again, another $1 
trillion deficit, so when we talk about setting aside billions 
for in many cases new programs many of us have a concern. We 
appreciate your addressing those concerns and we will continue 
the dialogue as we go forward.
    Again, thank you very much for being with the committee 
today.
    There being no further business, the committee stands 
adjourned.
    [Additional submission of Mr. Miller follows:]

                                             U.S. Congress,
                                    Washington, DC, March 21, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: I am pleased to report that the House 
Democratic Caucus has assigned Congresswoman Marcia Fudge to the 
Education and the Workforce Committee. Congresswoman Fudge will be 
joining the Subcommittee on Early Childhood, Elementary, and Secondary 
Education and the Subcommittee on Workforce Protections. With her 
addition, the composition of the subcommittees should be as follows:
  subcommittee on early childhood, elementary, and secondary education
Dale E. Kildee, Michigan
  Ranking Minority Member)
Robert C. ``Bobby'' Scott, Virginia
Carolyn McCarthy, New York
Rush D. Holt, New Jersey
Susan A. Davis, California
Raul M. Grijalva, Arizona
Mazie K. Hirono, Hawaii
Lynn C. Woolsey, California
Marcia Fudge, Ohio
                 subcommittee on workforce protections
Lynn C. Woolsey, California
  (Ranking Minority Member)
Dennis J. Kucinich, Ohio
Timothy H. Bishop, New York
Mazie K. Hirono, Hawaii
George Miller, California
Marcia Fudge, Ohio

    If you have any questions, please contact me or direct your staff 
to contact Megan O'Reilly at 202-225-3725.
            Sincerely,
                                             George Miller,
                                          Senior Democratic Member.
                                 ______
                                 
    [Additional submissions of Secretary Solis follow:]
    [The Bureau of Labor Statistics Jan. 6, 2012, news release 
may be accessed at the following Internet address:]

      http://www.bls.gov/news.release/archives/empsit_01062012.pdf

                                 ______
                                 
    [The Bureau of Labor Statistics Feb. 3, 2012, news release 
may be accessed at the following Internet address:]

      http://www.bls.gov/news.release/archives/empsit_02032012.pdf

                                 ______
                                 
    [The Bureau of Labor Statistics Mar. 9, 2012, news release 
may be accessed at the following Internet address:]

      http://www.bls.gov/news.release/archives/empsit_03092012.pdf

                                 ______
                                 
    [Additional submission of Mrs. Roby follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Questions submitted for the record and their response 
follows:]

                                             U.S. Congress,
                                      Washington, DC, May 18, 2012.
Hon. Hilda L. Solis, Secretary,
U.S. Department of Labor, 200 Constitution Avenue, NW, Washington, DC 
        20210.
    Dear Secretary Solis: Thank you for testifying at the Committee on 
Education and the Workforce's March 21, hearing on ``Reviewing the 
President's Fiscal Year 2013 Budget Proposal for the U.S. Department of 
Labor.'' I appreciate your participation.
    Enclosed are additional questions submitted by Committee members 
following the hearing. Please provide written responses that answer the 
questions posed no later than June 1, 2012, for inclusion in the 
official hearing record. Responses should be sent to Benjamin Hoog of 
the Committee staff, who can be contacted at (202) 225-4527.
    Thank you again for your contribution to the work of the Committee.
            Sincerely,
                                                John Kline,
                                                          Chairman.
Enclosures.

       QUESTIONS FOR THE RECORD SUBMITTED BY CHAIRMAN JOHN KLINE

    1. The committee has received inquiries regarding the Department of 
Labor's treatment of discretionary ``tips'' included on an invoice for 
ground transportation services as wage income. The committee 
understands there is some disagreement between the department and the 
ground transportation industry about whether such monies are non-
discretionary. As such, under the Fair Labor Standards Act, the 
department has held the view that such amounts are ``imposed 
gratuities,'' not ``tips,'' and classifies that income as wages subject 
to overtime.
    The committee understands that ground transportation 
representatives have met with the department and requested a formal 
Administrative Interpretation to resolve this matter. At DOL's request, 
the ground transportation industry advanced an industry-standard 
practice whereby the recommended tip amount is negotiated between the 
transportation provider and the customer, varies, is at the sole 
discretion of the customer, and is paid to the driver in full. Under 
this practice, and consistent with 29 CFR 531.52-53 and past Opinion 
Letters, the ground transportation representatives urged the department 
to classify those voluntary amounts received by operators as ``tips,'' 
not ``imposed gratuities.'' The committee understands that, as outlined 
above, the Houston field office agreed and views such amounts as 
``tips'' and not ``imposed gratuities.''
    What is the status of the ground transportation operators' request 
for an Administrative Interpretation?
    2. Stakeholders who regularly use the H-2A program have expressed 
their concern that in recent years the Wage and Hour Division has 
conducted a disproportionate number of audits of employers who utilize 
the H-2A program compared to employers who do not. Please provide a 
list of audits from FY 2007 to FY 2011 for investigations undertaken by 
the Wage and Hour Division in the agriculture industry, including the 
number of investigations involving H-2A compliance, and the number of 
investigations involving compliance under the Migrant and Seasonal 
Agricultural Worker Protection Act.
    3. More than a year ago the president signed an executive order 
directing federal agencies to undertake a review of their regulations. 
The president indicated his belief that reviewing, modifying, and 
repealing regulations would ``promote economic growth, innovation, 
competitiveness, and job creation.'' Currently, DOL is responsible for 
implementing close to 200 federal laws. How many regulations are 
currently in force at DOL to implement those laws? Provide an estimate 
of the net annual cost of these regulations. In 2011, when DOL reviewed 
its regulations, 11 were identified for modification, but no 
regulations were identified for repeal. What regulations has DOL 
identified for modification or repeal in 2012?
    4. The Employment and Training Administration claims it served more 
than 9.8 million individuals in the last program year. We have seen 
several articles about workers, including many in the green jobs 
industry, who receive training services but can't find employment in 
their chosen field. Of the 9.8 million individuals, how many people 
actually received job training? How many were placed into jobs related 
to that training? If a worker receives training but finds a low-paying 
job in another field, how is that worker counted on the program's 
performance measures?
    5. While the FY 2013 budget and the president's recent announcement 
includes a modest consolidation proposal saving $16 million, the 
administration wants to create several new job training programs 
costing taxpayers approximately $20 billion in new spending. Instead of 
working to simplify the 47 job training programs identified by GAO, the 
administration's plan would cause more confusion for unemployed workers 
struggling to navigate the maze of programs created at the federal 
level. Why has the administration chosen to further complicate the 
nation's job training system?
    6. The administration's proposal to consolidate Trade Adjustment 
Assistance (TAA) with the Workforce Investment Act's Dislocated Worker 
program into a new Displaced Worker program seemed to be a step in the 
right direction. However, as more details are learned, it seems to be 
less about streamlining the maze of confusing job training and more 
about dramatically expanding federal subsidies. When will the 
administration release its legislative proposal to Congress? How much 
will the new program cost taxpayers? Is the new program being funded 
out of mandatory or discretionary funds? Will privately contracted One-
Stop staff be prohibited from administering the program as is the case 
under TAA? How will the new program work within the existing federal 
workforce investment system?
    7. In 2011 and 2012, Congress provided approximately $150 million 
to the Department of Labor for a new Workforce Innovation Fund. This 
fund sounds eerily similar to the Race to the Top program operated by 
the Department of Education--a slush fund created outside the 
Congressional authorization process with few parameters around how the 
money should be spent. How is the department implementing the new 
program? How much money has been spent on the program already? The day 
following this hearing, March 22, 2012, the first solicitation closed. 
Why has it taken more than a year and half to get the program up and 
running?
    8. One of the goals of the new Workforce Innovation Fund is to 
develop new service delivery services and processes to improve outcomes 
for workers in the job training system. These activities aren't new--
they mirror what state and local workforce investment boards do every 
day and reflect the fundamental mission of the programs authorized 
under the Workforce Investment Act. How is this program different from 
initiatives currently being funded? How will the department ensure 
these new programs are not duplicating efforts already underway?

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE VIRGINIA FOXX

    1. During your recent testimony before the committee, you stated 
that the department has rigorous evaluations for all programs. Please 
provide copies of these evaluations as well as the results (specific 
numbers) the participants in the programs received in obtaining 
employment, increasing their wages, and receiving a job in the field 
they were trained.
    2. The president's FY 2013 request proposes a new $8 billion 
Community College to Career Fund, which is in part based on a similar 
program, the Trade Adjustment Assistance Community College and Career 
Training Grant Program (TAACCCTG). Please provide an evaluation of the 
TAACCCTG program and the results (specific numbers) it has achieved in 
helping individuals obtain degrees and credentials for high-skill 
occupations.

    QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE TODD ROKITA

    1. In response to a rule proposed by your department on March 18, 
2011, that has since been finalized which would alter the H2B program, 
the Small Business Administration Office of Advocacy noted that the 
``rule creates numerous administrative burdens and compliance costs,'' 
``underestimates compliance costs, and fails to analyze the cumulative 
impact of [the rule's] requirements,'' and urged ``DOL to consider 
significant alternatives to this proposed rule recommended by small 
entities that would meet the agency's objectives without jeopardizing 
small businesses.''
    The rule was finalized anyway. How did your department justify this 
rule in light of SBA's concerns?
    2. In response to a rule proposed by your department on March 18, 
2011, that has since been finalized which would alter the H2B program, 
the Small Business Administration Office of Advocacy noted that DOL's 
Initial Regulatory Flexibility Analysis was inadequate because it 
failed to properly evaluate the number of small businesses impacted by 
the rulemaking, underestimated the economic impact of the rule on small 
businesses and did not discuss significant alternatives that may have 
minimized the impact of the rule on small businesses.
    Did DOL subsequently perform a proper Initial Regulatory 
Flexibility Analysis as it is legally required to do?
    3. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. Thousands of small businesses 
throughout the country have made it clear that those rules are a threat 
to them and their full-time employees. Even the SBA opposed the rules 
and noted that your department did not adequately study the impact of 
the rules as it is required to do by law.
    Can you tell me how many existing full-time jobs these rules will 
either eliminate or threaten?
    4. Madame Secretary, on January 18, 2011, President Obama issued a 
presidential memorandum which expressed his administration's commitment 
to eliminating excessive and unjustified burdens on small businesses. 
However, the very next day your department issued a new rule that 
dramatically inflated the cost of the using the H2B program. In fact, 
Congress blocked the rule because there was so much concern about it. 
Recently your department issued another rule that thousands of small 
businesses throughout the country as well as the Small Business 
Administration consider highly excessive and unjustifiably burdensome.
    How can your department's new rules be consistent with the stated 
intent of the presidential memorandum?
    5. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. I understand that one of the rules is 
the subject of two lawsuits which claim that the law states that 
authority to issue rules lies with the Department of Homeland Security 
and that the Department of Labor only acts in an advisory role to DHS 
with no rulemaking authority over the program.
    Can you tell me specifically where the statute is that states that 
DOL has rulemaking authority over the H2B program?
    6. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. I understand that one of the rules is 
the subject of two lawsuits and that one of the claims against the rule 
states that your department did not take employer interest into account 
when the rules were promulgated as it is supposed to do.
    Did your department take into consideration employer interest in 
issuing these rules and if so, in what way specifically?

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE LYNN WOOLSEY

    In my District, I have seen firsthand the value of life-saving and 
life-renewing services offered by community-based nonprofits that 
provide residential treatment for substance use disorder. They treat 
addiction first and foremost, but also help reintegrate people into 
society.
    1. How is the Department supporting ex-offender reentry through its 
programs and the resources it makes available to the states?
    2. Understanding that drug and alcohol treatment centers do not 
deploy the traditional One Stop Career Center model, when considering 
how to deal with re-entry, it seems sensible that the Department of 
Labor would tailor the program to work with groups that specialize in 
dealing with ex-offenders. Has the Department considered these benefits 
when thinking of ex-offender re-entry, and how can these rehabilitation 
centers work with the Department to provide job training services, on 
their own or with One-Stop Centers?

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE MARCIA FUDGE

    1. Community based organizations (CBOs,) both private and non-
profit, possess firsthand knowledge and experience implementing 
effective and successful workforce development measures to meet the 
needs of the unemployed, especially the long-term unemployed and 
individuals with multiple barriers to employment. Because of this, CBOs 
must not be relegated to the role of service providers only, CBOs must 
also be included in policy discussions. CBOs are an integral and 
effective component of our nation's workforce development system. CBOs, 
especially minority-serving CBOs, represent the perspective and needs 
of diverse populations including African American, Hispanic and other 
people of color.
    What efforts has the Department of Labor undertaken to ensure 
minority community based organizations receive equitable representation 
on state and local Workforce Investment Boards (WIBs,) or other local 
governing mechanisms that may be established by WIA, where policy and 
programmatic decisions are made?
    What efforts has the Department of Labor undertaken to ensure 
community based organizations, of demonstrated effectiveness, are 
included as an integral and effective component of our nation's 
workforce development system and its evolving partnership with 
community colleges?
    How has the Department of Labor enforced conflict of interest 
provisions to prevent Workforce Investment Boards from functioning as 
direct service providers?
    2. Urban communities need community based organizations, like the 
National Urban League, to be supported by the Federal Government. Their 
innovative and culturally competent programs are operated by local 
community leaders who have lived and worked in the communities they 
serve for many years. As the economy slowly gains steam, it is clear 
that we cannot recover without targeted measures to address 
unemployment in the hardest-hit communities. We congratulate groups 
like the National Urban League for recognizing what needs to be done 
every day on the front lines and fighting for the communities we 
represent.
    What efforts has the Department of Labor undertaken to encourage 
partnerships with national community based organizations that have been 
anchors in urban communities? Can you share any lessons the Department 
has learned about what the government can do to encourage such 
partnerships?
                                 ______
                                 
    [Secretary Solis' response to questions submitted follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       QUESTIONS FOR THE RECORD SUBMITTED BY CHAIRMAN JOHN KLINE

    1. The committee has received inquiries regarding the Department of 
Labor's treatment of discretionary ``tips'' included on an invoice for 
ground transportation services as wage income. The committee 
understands there is some disagreement between the department and the 
ground transportation industry about whether such monies are 
nondiscretionary. As such, under the Fair Labor Standards Act, the 
department has held the view that such amounts are ``imposed 
gratuities,'' not ``tips,'' and classifies that income as wages subject 
to overtime.
    The committee understands that ground transportation 
representatives have met with the department and requested a formal 
Administrative Interpretation to resolve this matter. At DOL's request, 
the ground transportation industry advanced an industry-standard 
practice whereby the recommended tip amount is negotiated between the 
transportation provider and the customer, varies, is at the sole 
discretion of the customer, and is paid to the driver in full. Under 
this practice, and consistent with 29 CFR 53 1.52-53 and past Opinion 
Letters, the ground transportation representatives urged the department 
to classify those voluntary amounts received by operators as ``tips,'' 
not ``imposed gratuities.'' The committee understands that, as outlined 
above, the Houston field office agreed and views such amounts as 
``tips'' and not ``imposed gratuities.''
    What is the status of the ground transportation operators' request 
for an Administrative Interpretation?

    The Department received a request from the National Limousine 
Association (NLA) for guidance on whether service fees charged to 
companies and individuals who contract for transportation services 
constitute tips under the Fair Labor Standards Act (FLSA). The NLA 
specifically requested an Administrator Interpretation. The Wage and 
Hour Division (WHD) has agreed to engage the NLA in additional 
discussions about these practices and whether these service charges 
constitute a tip.
    The WHD issues formal guidance through a variety of means 
including: Administrator Interpretations, Field Assistance Bulletins, 
Fact Sheets, and FAQs. The Division's national office and regional 
office staff also regularly provide assistance and guidance to 
individual employees, employers, or their representatives by discussing 
with and/or referring the requester to the applicable statutory and 
regulatory provisions and the guidance documents listed above. The WHD 
has met with the NLA and during the meeting discussed and directed the 
association to the Division's existing and longstanding guidance on the 
issue of the application of the FLSA's tip credit provisions to service 
fees charged customers by employers.
    The WHD has continued its discussions with the NLA and last met 
with its representatives on June 14, 2012. Based on these discussions 
and additional information provided, the WHD is considering if the 
practices as described by the NLA are compliant with the FLSA. Once the 
WHD has had the opportunity to fully consider the information provided 
by the NLA, the WHD position on whether and under what circumstances 
the service charges levied by the transportation companies may be 
considered gratuities under the FLSA will be communicated to the NLA.

    2. Stakeholders who regularly use the H-2A program have expressed 
their concern that in recent years the Wage and Hour Division has 
conducted a disproportionate number of audits of employers who utilize 
the H-2A program compared to employers who do not. Please provide a 
list of audits from FY 2007 to FY 2011 for investigations undertaken by 
the Wage and Hour Division in the agriculture industry, including the 
number of investigations involving H-2A compliance, and the number of 
investigations involving compliance under the Migrant and Seasonal 
Agricultural Worker Protection Act.

    Workers who are engaged in labor intensive agricultural employment 
are among the most vulnerable workers in today's workplace. The pay is 
typically low, the work is arduous, and the conditions often harsh. 
Farm workers simply do not file complaints with the Department when 
they are faced with adverse, and often illegal, working conditions. 
Consequently, the WHD has long maintained a directed or targeted 
enforcement program in this industry.
    The agency protects farm workers through enforcement of the FLSA, 
the Migrant and Seasonal Agricultural Worker Protection Act (MSPA), the 
field sanitation provisions under the Occupational Safety and Health 
Act (OSH Act), and through the enforcement of the H-2A temporary 
agricultural worker provisions of the Immigration and Nationality Act 
(INA). When Wage and Hour investigators conduct an investigation of an 
agricultural employer, whether a fixed-site farm or a farm labor 
contractor, they investigate compliance with all applicable statutes 
that provide protections for farm workers. While an investigation may 
be initiated under one statute, e.g., MSPA, the investigator will 
examine compliance with FLSA, OSH Act, and the H-2A provisions within 
the INA, if applicable to that employer. WHD's data system captures the 
``registration Act,'' which is generally the statute under which the 
investigation was initiated. WHD's data system also captures the 
``violation Act'' (statute under which a violation was found), and this 
may include multiple statutes under a single case. The following chart 
provides a sum of all agricultural investigations conducted in each 
fiscal year beginning with FY 2007. It also provides the number of 
cases registered as an H2A case and those registered as a MSPA case. 
Because a MSPA registered investigation may result in an H-2A violation 
if the employer utilizes H-2A workers, the chart also provides the 
number of cases in which H-2A or MSPA violations were found.


----------------------------------------------------------------------------------------------------------------
                                                                      FY2007   FY2008   FY2009   FY2010   FY2011
----------------------------------------------------------------------------------------------------------------
Agriculture:
    All Cases in the Agricultural Industry\1\......................    1,667    1,600    1,323    1,259    1,527
Agriculture Investigations by Registration Act:
    Cases Registered as H-2A.......................................      110      159      165      135      240
    Cases Registered as MSPA.......................................    1,426    1,356    1,107    1,005    1,035
Agriculture Investigations by Violation Act Regardless of
 Registration Act:
    Cases with H-2A Violations.....................................      101      117      128      108      180
    Cases with MSPA Violations.....................................      867      776      667      670      700
----------------------------------------------------------------------------------------------------------------
\1\ Some agriculture industry investigations may be registered as Fair Labor Standards Act cases.

    3. More than a year ago the President signed an executive order 
directing federal agencies to undertake a review of their regulations. 
The President indicated his belief that reviewing, modifying, and 
repealing regulations would ``promote economic growth, innovation, 
competitiveness, and job creation.'' Currently, DOL is responsible for 
implementing close to 200 federal laws. How many regulations are 
currently in force at DOL to implement those laws? Provide an estimate 
of the net annual cost of these regulations. In 2011, when DOL reviewed 
its regulations, 11 were identified for modification, but no 
regulations were identified for repeal. What regulations has DOL 
identified for modification or repeal in 2012?

    The nature of regulations, their promulgation and revision do not 
lend themselves to a numerical count. However, the regulations that the 
Department of Labor currently enforces include those contained in four 
CFR titles and many accompanying subparts. Please see chart below.
    In accordance with the requirements of Executive Orders 12866 
(Regulatory Planning and Review) and 13563 (Improving Regulation and 
Regulatory Review), the Department designs its regulations to be 
flexible, cost-effective, maximize benefits, and impose the least 
possible burdens. The Department strives to ensure that the benefits of 
its various regulations exceed the costs whenever possible.
    In compliance with Section 610 of the Regulatory Flexibility Act, 
E.O. 12866, and E.O. 13563, the Department's agencies regularly conduct 
retrospective analysis of their regulations to identify those that are 
outmoded, require modification, are ineffective or should be expanded 
or repealed. In 2012, the Department issued its Hazard Communications 
final rule (3/26/12) and updated an OSHA standard based on National 
Consensus Standards for Acetylene (3/8/12). The Department is currently 
working on the remaining items previously identified for modification.

                                 CODE OF FEDERAL REGULATIONS TITLES AND CHAPTERS
----------------------------------------------------------------------------------------------------------------
           Title                Chapter          Parts                       DOL Regulatory Agency
----------------------------------------------------------------------------------------------------------------
                                                                              Employees' Benefits
Title 20                               I              1-199   Office of Workers' Compensation Programs
                                      IV            500-599   Employees Compensation Appeals Board
                                       V            600-699   Employment and Training Administration
                                      VI            700-799   Office of Worker's Compensation Programs
                                     VII            800-899   Benefits Review Board
                                      IX          1000-1099   Veterans' Employment and Training Service
----------------------------------------------------------------------------------------------------------------
                                                                                     Labor
                                                                 Subtitle A--Office of the Secretary of Labor
Title 29                                               0-99   Office of the Secretary of Labor
                                                                   Subtitle B--Regulations Relating to Labor
                                      II            200-299   Office of Labor--Management Standards
                                      IV            400-499   Office of Labor--Management Standards
                                       V            500-899   Wage and Hour Division
                                    XVII          1900-1999   Occupational Safety and Health Administration
                                      XX          2200-2499   Occupational Safety and Health Administration
                                     XXV          2500-2599   Employee Benefits Security Administration
----------------------------------------------------------------------------------------------------------------
                                                                               Mineral Resources
Title 30                               I              1-199   Mine Safety and Health Administration
----------------------------------------------------------------------------------------------------------------
                                                                   Public Contracts and Property Management
                                                              Subtitle B--Other Provisions Related to Public
                                                                                   Contracts
Title 41                              50        50-1-50-999   Public Contracts
                                      60        60-1-60-999   Office of Federal Contract Compliance Programs
                                      61        61-1-61-999   Veterans' Employment and Training Service
----------------------------------------------------------------------------------------------------------------

    4. The Employment and Training Administration claims it served more 
than 9.8 million individuals in the last program year. We have seen 
several articles about workers, including many in the green jobs 
industry, who receive training services but can't find employment in 
their chosen field. Of the 9.8 million individuals, how many people 
actually received job training? How many were placed into jobs related 
to that training? If a worker receives training but finds a low-paying 
job in another field, how is that worker counted on the program's 
performance measures?

    In the 21st Century global economy, businesses and industries in 
the United States must continually transform and innovate to remain 
competitive. The Administration has invested in preparing the American 
workforce for jobs in industries that will drive this economy, 
including clean energy and health care.
    For the four-quarter period ending June 30, 2011, 9.8 million 
individuals were participants in one of the Employment and Training 
Administration's (ETA) workforce programs (excluding the Wagner-Peyser 
Employment Service and Unemployment Insurance), as reported in ETA's 
quarterly Workforce System Results. For the same time period (June 30, 
2011), about 2.6 million individuals were reported by states and 
grantees as program completers (exiters). All ETA program performance 
measures and outcomes are derived based on exiters, as many of the 
outcome components occur after program completion. Therefore, the total 
number of exiters is provided for a better comparison. Additionally, 
the total participant count includes self-service participants (those 
who may receive services virtually or access services with little or no 
staff assistance), whereas these self-service participants are excluded 
from performance outcomes (except for the Employment Service) as well 
as counts of those who received training services.
    ETA's entered employment measure is primarily calculated via an 
automated match to state wage records. If a worker has received wages 
in the first quarter after program completion and is thus ``found'' in 
the wage record file, this person is considered a positive outcome for 
this measure regardless of occupation. In order to further validate 
employment as it relates to the participant's training, some programs 
conduct manual follow-up with the participant to verify if the 
employment was related to the training received. However, with limited 
resources and the inability to contact some participants who are no 
longer receiving services, measures based on this sort of follow-up 
will inevitably understate the number of participants in employment.
    For the four-quarter period ending June 30, 2011, approximately 
575,000 program completers (exiters) received training services. The 
number of those receiving training services is influenced by the demand 
of such services as well as the availability of resources for training.
    Please see the attached chart for a break-out of program completer 
(exiter) counts and entered employment outcomes by ETA workforce 
programs.

    5. While the FY 2013 budget and the President's recent announcement 
includes a modest consolidation proposal saving $16 million, the 
administration wants to create several new job training programs 
costing taxpayers approximately $20 billion in new spending. Instead of 
working to simplify the 47 job training programs identified by GAO, the 
administration's plan would cause more confusion for unemployed workers 
struggling to navigate the maze of programs created at the federal 
level. Why has the administration chosen to further complicate the 
nation's job training system?

    We agree that there are opportunities to improve the current 
system, and our 2013 Budget makes some changes to do just that. While 
it is important to minimize duplication and maximize efficiency, we 
believe that a coherent public workforce system does not necessarily 
mean a single program, supplier, or agency. Our goal should be a 
rational system whose elements fit together logically, with minimal 
duplication, and provide ready and seamless access to services for 
jobseekers and workers looking for skills development and to employers 
looking for skilled workers. The Department is committed to better 
alignment of Federal investments in job training and improving models 
to deliver quality services across programs at lower cost.
    The 2013 Budget eliminates some programs that overlap with other 
services. For example, the Budget ends funding for the Women in 
Apprenticeship in Non-Traditional Occupations (WANTO), whose important 
mission of expanding apprenticeship opportunities for women can be met 
through Labor's work to expand registered apprenticeships and ensure 
equal access to apprenticeship programs. It also terminates the $15 
million Veterans Workforce Investment Program (VWIP), instead 
supporting service delivery innovations through the Workforce 
Innovation Fund and continuing funding for other veterans' employment 
programs.
    The Administration's proposal also integrates different existing 
programs providing services to similar populations to more effectively 
help unemployed workers back to work. For example, President Obama 
wants to help dislocated workers navigate multiple employment and 
training programs, so that from now on, these individuals have one 
program, one website, and one place to go for all the information and 
help they need. The proposed Universal Dislocated Worker program would 
replace the Trade Adjustment Assistance and WIA Dislocated Worker 
program with a single, uniform set of services to help displaced 
workers.
    The Workforce Innovation Fund, for which the 2013 Budget proposes a 
third year of funding, also encourages States and localities to 
integrate services across programs and achieve more cost-effective 
results. The Workforce Innovation Fund will support States and 
localities that are coordinating across programs to more efficiently 
achieve better outcomes for participants. Each grant will include an 
evaluation component to identify effective practices that can be 
replicated throughout the workforce system. The Budget again proposes 
broader waiver authority that grantees could use to do bolder 
experimentation across program silos.
    The Administration also introduced efforts to improve coordination 
among federal training and employment programs. The American Job Center 
initiative is intended to improve the visibility and accessibility of 
the one-stop system, so job-seekers and employers have a readily 
identifiable physical and online place they can go to access the range 
of services they need.
    In some cases programs provide the same services and serve similar 
populations but the overlap between the programs is minimal. For 
example, WIA Adult and TANF overlap in terms of training and job search 
services; and both serve disadvantaged adults, but only five percent of 
those served by WIA Adult program are also served by TANF. As 
recommended by the GAO report, the Departments of Labor and Health and 
Human Services work together to conduct and publish research that 
identifies best practices in WIA/TANF coordination. A study released in 
July compiled information from 10 sites about WIA and TANF partnerships 
that used Recovery Act funds to support youth employment. Another study 
currently underway will look at exemplary cross-program coordination 
models and the extent to which WIA services are provided to TANF 
clients.
    Together, this rational approach will provide ready access to 
services for jobseekers and other workers looking for good jobs and to 
employers looking for job-ready skilled workers who met their needs.

    6. The administration's proposal to consolidate Trade Adjustment 
Assistance (TAA) with the Workforce Investment Act's Dislocated Worker 
program into a new Displaced Worker program seemed to be a step in the 
right direction. However, as more details are learned, it seems to be 
less about streamlining the maze of confusing job training and more 
about dramatically expanding federal subsidies. When will the 
administration release its legislative proposal to Congress? How much 
will the new program cost taxpayers? Is the new program being funded 
out of mandatory or discretionary funds? Will privately contracted One-
Stop staff be prohibited from administering the program as is the case 
under TAA? How will the new program work within the existing federal 
workforce investment system?

    The Universal Displaced Worker (UDW) program would integrate proven 
aspects of the current Trade Adjustment Assistance (TAA) for workers 
and Workforce Investment Act (WIA) Dislocated Worker programs to 
provide a universal core set of services to a broader number of 
unemployed Americans. Combining these programs eliminates the complex 
administrative process needed to determine why workers are dislocated. 
The new, streamlined program would serve as many as 1 million workers 
per year.
    UDW will give displaced workers the support they need to reenter 
the job market by providing:
    <bullet> Up to $8,000 in training vouchers over two years.
    <bullet> Stipends of $150 for up to 78 weeks for childcare, 
transportation, and other expenses as individuals look for work or 
build their skills through training.
    <bullet> Low-income workers are eligible for more generous 
stipends.
    <bullet> Job search and relocation allowances of up to $1,250 per 
worker.
    <bullet> Wage insurance for up to two years for workers over 50 who 
have re-employment earnings of less than $50,000.
    <bullet> Guaranteed reemployment and case management services.
    UDW will be a mandatory program for eligible displaced workers. The 
program will cost an average of about $2.7 billion per year above the 
current baseline. We expect that, as in the present WIA Dislocated 
Worker system, One-Stop Career Center staff would provide various 
reemployment services to UDW participants, and that the UDW program 
would be a fully integrated partner in the workforce system.
    The Department looks forward to working with Congress as we 
continue to develop the UDW program and accompanying legislation.

    7. In 2011 and 2012, Congress provided approximately $150 million 
to the Department of Labor for a new Workforce Innovation Fund. This 
fund sounds eerily similar to the Race to the Top program operated by 
the Department of Education- a slush fund created outside the 
Congressional authorization process with few parameters around how the 
money should be spent. How is the department implementing the new 
program? How much money has been spent on the program already? The day 
following this hearing, March 22, 2012, the first solicitation closed. 
Why has it taken more than a year and half to get the program up and 
running?

    The Federal government currently invests over $9 billion annually 
in employment and training programs designed to support an efficiently 
functioning labor market through the public workforce investment 
system. As the economy recovered in the 12-month period ending June 30, 
2011, 9.8 million individuals were participants in one of the 
Employment and Training Administration's (ETA) workforce programs 
(excluding the Wagner-Peyser Employment Service and Unemployment 
Insurance), as reported in ETA's quarterly Workforce System Results. 
These individuals faced a range of employment challenges, including 
long-term unemployment and skill and credential deficiencies. The 
Innovation Fund provides an opportunity to competitively procure and 
evaluate innovation strategies that are best positioned to help the 
entire workforce system meet these challenges.
    The Fiscal Year (FY) 2011 appropriation provided a Federal 
obligation deadline of September 30, 2012 for the Workforce Innovation 
Fund to allow adequate time to develop a robust grant solicitation in 
consultation with Congress, the Administration, federal agency 
partners, and workforce system stakeholders. Federal partner programs 
were asked to develop written materials and power point presentations 
regarding flexibilities and waiver authorities that could be used by 
grantees in developing proposals. This material was presented to a wide 
audience of potential applicants in a webinar with remarks by senior 
officials such as the Assistant Secretary of ETA and the Commissioner 
of the Department of Education's Rehabilitation Services Administration 
to encourage applicants to use available flexibilities.
    The Department also engaged in an extensive stakeholder 
consultation process in the summer of 2011. Based on those 
consultations, the Department developed a grant competition that will 
award grants to projects that:
    1. Deliver services more efficiently and achieve better outcomes, 
particularly for vulnerable populations (e.g. low-wage and less-skilled 
workers) and dislocated workers, especially those who have been 
unemployed for many months;
    2. Support both system reforms and innovations that facilitate 
cooperation across programs and funding streams in the delivery of 
client-centered services to jobseekers, youth, and employers;
    3. Ensure that education, employment, and training services are 
developed in partnership with specific employers or industry sectors 
and reflect current and future skill needs; and
    4. Emphasize building knowledge about effective practices through 
rigorous evaluation and translating ``lessons learned'' into improved 
labor market outcomes, the ability to bring such practices to scale in 
other geographic locations and increased cost efficiency in the broader 
workforce system.
    It is our goal that grants funded under the Workforce Innovation 
Fund will achieve the following within the public workforce system:
    1. Better results for jobseekers and employers--such as reduced 
duration of unemployment, increased educational gains that lead to work 
readiness, academic and industry-recognized credential attainment, 
increased earnings, and increased competitiveness of employers;
    2. Greater efficiency in the delivery of quality services--such as, 
more customers (job seekers or employers) served, decreased program 
attrition/customer throughput, faster job placement, achieving outcomes 
for lower cost or reduction in program overlap and administrative 
costs; and
    3. Stronger cooperation across programs and funding streams--such 
as integrated data management information systems, braided funding, or 
changes that create a more seamless service delivery experience for 
participants who need help from multiple programs.
    The Department received a tremendous response to the SGA. We 
announced the award of the full amount of the FY 2011 appropriation 
plus $27 million from the FY 2012 appropriation, for a total of nearly 
$147 million on June 14, 2012. Twenty-six grants, ranging from $1 
million to $12 million each, were awarded to a combination of state 
workforce agencies and local workforce investment boards, as well as 
one Workforce Investment Act Section 166 grantee serving Indian and 
Native American communities. We also announced the Pay for Success 
Solicitation for Grant Applications, which makes up to $20 million of 
the FY 2012 appropriation available for Pay for Success pilot grants. 
The Solicitation closes on December 14, 2012. More information about 
the recent grant announcements and Pay for Success SGA can be found at 
http://www.doleta.gov/workforce_innovation/.

    8. One of the goals of the new Workforce Innovation Fund is to 
develop new service delivery services and processes to improve outcomes 
for workers in the job training system. These activities aren't new--
they mirror what state and local workforce investment boards do every 
day and reflect the fundamental mission of the programs authorized 
under the Workforce Investment Act. How is this program different from 
initiatives currently being funded? How will the department ensure 
these new programs are not duplicating efforts already underway?

    The Workforce Innovation Fund is designed to strengthen the 
Federally-funded workforce investment system by implementing and 
evaluating projects that achieve: 1) better results for jobseekers and 
employers; 2) greater efficiency in the delivery of quality services; 
and 3) stronger cooperation across programs and funding streams. 
Through the Workforce Innovation Fund, the Department will invest in 
projects along a continuum of innovation and evidence, from new ideas 
that have never been tried, to well-tested ideas being adapted to new 
contexts. By evaluating projects along this continuum, the Fund will 
significantly increase the body of knowledge about what works in 
workforce development and strengthen the evidence pool that will drive 
future investments.

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE VIRGINIA FOXX

    1. During your recent testimony before the committee, you stated 
that the department has rigorous evaluations for all programs. Please 
provide copies of these evaluations as well as the results (specific 
numbers) the participants in the programs received in obtaining 
employment, increasing their wages, and receiving a job in the field 
they were trained.

    The Department has an extensive history of using applied research 
and evaluation of existing programs and for the exploration of new 
ideas. For example, within the last three years, the Employment and 
Training Administration (ETA) has completed rigorous impact evaluations 
of major public workforce system programs that clearly show the 
benefits received from training and employment services. These 
evaluations include:
    <bullet> Individual Training Accounts. Perez-Johnson et al. (2012) 
reports the results of the Individual Training Account (ITA) 
Experiment. The ITA Experiment is the most comprehensive study to date 
of the long-term impacts of different individual training account 
delivery models for public workforce system participants. The study 
found that ITA-related counseling alone had little effect on training 
choices, training outcomes, employment rates, or the average number of 
hours participants worked in a quarter. However, earnings increased 
more steeply and plateaued at a higher level for participants in the 
Structured Choice model, which required ITA counseling, granted the 
counselor more discretion to tailor training to the participants' 
needs, and provided a larger training benefit. Structured Choice 
participants were also slightly more likely to be employed in high-wage 
jobs and in the field for which they trained than participants in the 
other models studied. (http://wdr.doleta.gov/research/
keyword.cfm?fuseaction=dsp_resultDetails&pub_id=2485&mp=y.)
    <bullet> Workforce Investment Act. Heinrich et al. (2009) report 
results of a non-experimental net impact evaluation of the Adult 
program under the Workforce Investment Act (WIA). The result for all 
participants in the WIA Adult program (regardless of services received) 
show that participating is associated with a several-hundred dollar 
increase in quarterly earnings over the period of the study. Due to the 
non-experimental design, it is possible that this increase reflects 
unmeasured characteristics of individuals receiving services rather 
than the impact of the WIA Adult program. (http://wdr.doleta.gov/
research/keyword.cfm?fuseaction=dsp_puListingDetails&pub--
id=2419&mp=y&start=41&sort=7)
    <bullet> Reemployment of Unemployment Insurance Claimants. In a 
recent report that examines the Reemployment Eligibility Assessment 
(REA) Program in Nevada, Michaelides et al. (2012) estimate the impact 
of the Nevada REA program on claimant UI receipt and quarterly wage 
outcomes following program entry. The key finding was that the Nevada 
REA program led to significantly shorter UI durations and lower benefit 
amounts--REA treatment group claimants collected 3.13 fewer weeks and 
$873 lower total benefit amounts than their peers. These savings 
exceeded average program costs by more than four times, providing 
strong evidence that the Nevada REA program is a cost-effective 
intervention. In addition, the Nevada REA program was effective in 
assisting claimants to find employment in the period following program 
entry. Nevada REA treatment group members were nearly 20 percent more 
likely than their peers to obtain employment in the first two quarters 
after program entry. (http://wdr.doleta.gov/research/
keyword.cfm?fuseaction=dsp_resultDetails&pub_id=2487&mp=y)
    <bullet> The Role of Unemployment Insurance During Recession. 
Vroman (2010) used Moody's Economy.com macro-economic simulation models 
to reaffirm the value of UI as an automatic economic stabilizer during 
the latest recession. The study found that UI benefits: 1) reduced the 
fall in GDP by 18.3% in 2009; 2) kept an average of 1.6 million 
Americans on the job in each quarter: at the low point of the 
recession, lowering the unemployment rate by approximately 1.2 
percentage points; 3) had a multiplier effect of 2.0, where for every 
dollar spent on unemployment insurance, economic activity increased two 
dollars. (http://wdr.doleta.gov/research/
keyword.cfm?fuseaction=dsp_resultDetails&pub_id=2447&mp=y)
    Other reports on rigorous impact evaluations of major programs are 
nearing completion and the Department anticipates that they will be 
released in the coming months, including an evaluation of the 
Registered Apprenticeship Program, and the evaluation of the Trade 
Adjustment Assistance Program. In addition, several ongoing evaluations 
of workforce programs are underway including an evaluation of the 
YouthBuild program, the WIA Gold Standard evaluation and an evaluation 
of the Transitional Jobs demonstration grants.
    ETA has made available on its Web site an annotated bibliography of 
selected evaluation and research studies that it has conducted between 
1995 and 2011. This bibliography, titled ``Employment Research in 
Brief: An Annotated Bibliography of ETA-Sponsored Studies'' (http://
wdr.doleta.gov/research/FullText_Documents/ETAOP_2012_01.pdf) includes 
124 publications and links to their location on the ETA Web site. Since 
2011, ETA has completed 12 additional research and evaluation studies:
    <bullet> Impact of the Reemployment and Eligibility Assessment 
(REA) Initiative (http://wdr.doleta.gov/research/FullText_Documents/
ETAOP_2012_08_Impact_of_the_REA_Initiative.pdf)
    <bullet> Green Jobs and Health Care Implementation (http://
wdr.doleta.gov/research/FullText_Documents/ETAOP_2012_07.pdf)
    <bullet> Improving the Effectiveness of Individual Training 
Accounts: Long-Term Findings from an Experimental Evaluation of Three 
Service Delivery Models (http://wdr.doleta.gov/research/
FullText_Documents/ETAOP_2012_06.pdf)
    <bullet> Process Evaluation and Outcomes Analysis: Twin Cities 
RISE! Performance-Based Training and Education Demonstration Project 
Final Report (http://wdr.doleta.gov/research/FullText_Documents/
ETAOP_2012_05.pdf)
    <bullet> Innovative Programs and Promising Practices: Indian and 
Native American Summer Youth Employment Initiatives and the 2009 
Recovery Act (http://wdr.doleta.gov/research/FullText_Documents/
ETAOP_2012_04.pdf)
    <bullet> Beyond a Summer Work Experience: The Recovery Act 2009 
Post-Summer Youth Employment Initiative (http://wdr.doleta.gov/
research/FullText_Documents/ETAOP_201_03.pdf)
    <bullet> Using TANF Funds to Support Subsidized Youth Employment: 
The 2010 Summer Youth Employment Initiative (http://wdr.doleta.gov/
research/FullText_Documents/ETAOP_2012_02.pdf)
    <bullet> Evaluation of the Technology-Based Learning Grants Final 
Report (http://wdr.doleta.gov/research/FullText_Documents/
ETAOP_2011_21.pdf)
    <bullet> Implementation and Early Training Outcomes of the High 
Growth Job Training Initiative: Final Report (http://wdr.doleta.gov/
research/FullText_Documents/ETAOP_2011_20.pdf and http://
wdr.doleta.gov/research/FullText_Documents/
ETAOP_2011_20_Appendices.pdf)
    <bullet> Early Implementation Report: Mentoring, Educational, and 
Employment Strategies (MEES) to Improve Academic, Social and Career 
Pathway Outcomes in Persistently Dangerous Schools--Generation I 
(http://wdr.doleta.gov/research/FullText_Documents/ETAOP_2011_19.pdf)
    <bullet> Early Implementation Report: Mentoring, Educational, and 
Employment Strategies (MEES) to Improve Academic, Social and Career 
Pathway Outcomes in Persistently Dangerous Schools--Planning Report 
(http://wdr.doleta.gov/research/FullText_Documents/ETAOP_2011_18.pdf)
    <bullet> Evaluation of the Career Advancement Accounts 
Demonstration Project: An Implementation Study (http://wdr.doleta.gov/
research/FullText_Documents/ETAOP_2011_17.pdf)
    All ETA research and evaluation studies published since 1977 are 
publically available for download from the ETA Evaluation Database at 
http://wdr.doleta.gov/research/keyword.cfm.
    ETA's research and evaluation efforts include the study of impacts 
and outcomes of workforce development and employment strategies and 
programs, as well as the testing of concepts to determine their 
potential viability.

    2. The President's FY 2013 request proposes a new $8 billion 
Community College to Career Fund, which is in part based on a similar 
program, the Trade Adjustment Assistance Community College and Career 
Training Grant Program (TAACCCTG). Please provide an evaluation of the 
TAACCCTG program and the results (specific numbers) it has achieved in 
helping individuals obtain degrees and credentials for high-skill 
occupations.

    The Community College to Career Fund will ensure that workers have 
a stronger likelihood for success in the classroom and job market. The 
TAACCCT grant program provides postsecondary education institutions 
with an opportunity to expand and improve their ability to deliver 
education and career training programs that can be completed in two 
years or less, and are suited for workers who are eligible for training 
under the Trade Adjustment Assistance (TAA) for Workers Program of the 
Trade Act of 1974 (as amended) 19 U.S.C. 2271-2323, as well as other 
adults. The Department did not require institutions funded in the first 
round of grants (awarded in 2011) to conduct third-party evaluations of 
their projects. However, reporting requirements for the TAACCCT grant 
program are designed to ensure that grantees maintain data on students 
and their participation and credential attainment, and continuously 
monitor and improve program performance throughout the grant period. 
Grantees must report on the progress of the grants quarterly and 
provide an annual update on the progress of participants to the 
Department. Since the first round grantees have been active only since 
October 1, 2011, and the grantees currently are in the capacity-
building phase of their projects, the Department expects to have the 
first data after grantees submit their initial yearly report in late 
2012. Accordingly, the Department does not yet have performance data to 
share. These first round grantees are responsible for the deliverables 
identified in their statements of work, quarterly reports, as well as a 
final report.
    In the second round of TAACCCT grants, which the Department expects 
to award in late summer 2012, grantees will be required to conduct 
third-party evaluations. In addition, the Department expects to 
procure, in summer 2012, a separate, third-party to conduct a national 
evaluation of the TAACCCT grant program that will cover both rounds of 
grantees. The evaluator will survey all grantees to obtain descriptive 
information about their grant-funded programs and activities, review 
the designs of third-party evaluations of round two grantees and any 
round one grantees that have third-party evaluations, and conduct an 
analysis and synthesis of all findings from the grantees' evaluations 
(from both rounds). The national evaluation will use a mixed-method 
design to conduct an outcome analysis, implementation analysis, 
performance assessment, and an assessment of the feasibility of 
conducting more detailed impact analysis using random assignment 
methods in selected round two or round one grantees to obtain more 
precise evidence on particular strategies or interventions that appear 
to hold the most promise for increasing attainment of industry-
recognized credentials, employment and earnings. The Department has 
planned for several interim deliverables (grantee assessment, cross-
site implementation analyses) under the national evaluation, as well as 
a final report following the grant completion.

    QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE TODD ROKITA

    1. In response to a rule proposed by your department on March 18, 
2011, that has since been finalized which would alter the H2B program, 
the Small Business Administration Office of Advocacy noted that the 
``rule creates numerous administrative burdens and compliance costs,'' 
``underestimates compliance costs, and fails to analyze the cumulative 
impact of [the rule's] requirements,'' and urged ``DOL to consider 
significant alternatives to this proposed rule recommended by small 
entities that would meet the agency's objectives without jeopardizing 
small businesses.''
    The rule was finalized anyway. How did your department justify this 
rule in light of SBA's concerns?

    The Department carefully considered written comments to the 
proposed rule submitted by the Chief Counsel for Advocacy of the Small 
Business Administration (SBA), along with written comments and 
significant regulatory alternatives from small businesses and their 
representatives. We also considered feedback gathered during an April 
26, 2011 roundtable discussion conducted by the SBA, which included 
Department representatives, small businesses, and SBA representatives.
    The Department does not believe that the referenced rule, Temporary 
Non-Agricultural Employment of H-2B Aliens in the United States 
(Comprehensive Final Rule), will impose a significant economic burden 
on a substantial number of small businesses; however, the Department 
made a number of changes to the proposed rule that addressed many of 
the concerns SBA expressed and that were expressed in the comments 
received from other small business employers. Among other changes, you 
may be interested to know that the Department's response to comments 
resulted in the inclusion of an ``acts of God'' provision, which could 
relieve employers of certain requirements and a significant reduction 
in the referral period.
    The preamble of the Comprehensive Final Rule (77 FR 10038) provides 
further details on how the Department of Labor responded to the 
concerns of SBA and small businesses as well as our consideration of 
significant regulatory alternatives suggested by small businesses and 
their representatives.

    2. In response to a rule proposed by your department on March 18, 
2011, that has since been finalized which would alter the H2B program, 
the Small Business Administration Office of Advocacy noted that DOL's 
Initial Regulatory Flexibility Analysis was inadequate because it 
failed to properly evaluate the number of small businesses impacted by 
the rulemaking, underestimated the economic impact of the rule on small 
businesses and did not discuss significant alternatives that may have 
minimized the impact of the rule on small businesses.
    Did DOL subsequently perform a proper Initial Regulatory 
Flexibility Analysis as it is legally required to do?

    The Department prepared an Initial Regulatory Flexibility Analysis 
(IRFA) that complied with SBA guidance and procedures. The Final 
Regulatory Flexibility Analysis (FRFA) addressed written comments to 
the proposed rule submitted by the Chief Counsel for Advocacy of the 
SBA, along with written comments and significant regulatory 
alternatives from small businesses and their representatives.
    The Chief Counsel for Advocacy of the SBA commented that the 
economic impact calculated in the IRFA was underestimated because it 
failed to account for higher wages that employers may have to pay 
resulting from a separate rule published by the Department on January 
19, 2011 that changed the way H-2B prevailing wages are determined. The 
Chief Counsel for Advocacy also commented that the IRFA underestimated 
the proportion of small businesses that would be impacted.
    In response to these assertions, the Department explained in the 
Comprehensive Final Rule that the full cost impact of the January 2011 
prevailing wage Final Rule was accounted for in that rule's FRFA. 
Regarding the Comprehensive Final Rule's IRFA calculation of the 
proportion of small businesses affected, the Department evaluated the 
economic impact across 1.1 million employers, which represents all 
small businesses, according to SBA's definition of a small entity, 
within the five most common industries using the H-2B program. In our 
final analysis the Department determined that this rulemaking would not 
have a significant impact on a substantial number of small entities.
    The preamble of the Comprehensive Final Rule (77 FR 10038) provides 
details on how the Department of Labor evaluated the number of small 
businesses impacted, the economic impact of the rule on small 
businesses, and the alternatives considered by the Department to 
minimize the impact the rule would have on small businesses.

    3. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. Thousands of small businesses 
throughout the country have made it clear that those rules are a threat 
to them and their full-time employees. Even the SBA opposed the rules 
and noted that your department did not adequately study the impact of 
the rules as it is required to do by law.
    Can you tell me how many existing full-time jobs these rules will 
either eliminate or threaten?

    The Department does not believe that the Wage Methodology for the 
Temporary Non-Agricultural Employment H-2B Program Final Rule (Wage 
Final Rule) or the Comprehensive Final Rule will eliminate full-time 
jobs but instead will provide unemployed U.S. workers with meaningful 
access to job opportunities.
    The Department also believes that these rulemakings will help 
ensure that employers and small businesses are able to find qualified 
U.S. workers to fill their temporary positions in a timely manner, 
while addressing the critical issue that the employment of foreign 
workers will not adversely impact the wages and working conditions of 
U.S. workers.
    The Department carefully considered written comments submitted by 
SBA's Office of Advocacy and addressed these recommendations in the 
preambles of our final rules.

    4. Madame Secretary, on January 18, 2011, President Obama issued a 
presidential memorandum which expressed his administration's commitment 
to eliminating excessive and unjustified burdens on small businesses. 
However, the very next day your department issued a new rule that 
dramatically inflated the cost of the using the H2B program. In fact, 
Congress blocked the rule because there was so much concern about it. 
Recently your department issued another rule that thousands of small 
businesses throughout the country as well as the Small Business 
Administration consider highly excessive and unjustifiably burdensome.
    How can your department's new rules be consistent with the stated 
intent of the presidential memorandum?

    Executive Order 13563 calls for public participation, with agencies 
directed to seek the view of those who are likely to be affected, 
ensuring that rules will be informed and improved by the knowledge of 
those affected. The Executive Order also calls for careful analysis of 
the likely consequences of regulation, maximizing net benefits, 
selecting the least burdensome alternatives and considering alternative 
approaches.
    The Department engaged in public participation and careful cost-
benefit analysis for the 2011 wage rule and the 2012 comprehensive 
rule. The preamble of each final rule contains extensive discussion on 
these matters.

    5. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. I understand that one of the rules is 
the subject of two lawsuits which claim that the law states that 
authority to issue rules lies with the Department of Homeland Security 
and that the Department of Labor only acts in an advisory role to DHS 
with no rulemaking authority over the program.
    Can you tell me specifically where the statute is that states that 
DOL has rulemaking authority over the H2B program?

    The Department is engaged in litigation concerning its rulemaking 
authority over the H-2B program The Department's position on this 
matter, as well as a comprehensive description of the Department's 
legal authorities, are set out in the attached appellate court brief, 
which is the latest brief on the issue. We trust this brief will 
provide a complete picture of the Department's regulatory authority 
over the H-2B program.

    6. Madame Secretary, your department recently finalized two rules 
that will alter the H2B program. I understand that one of the rules is 
the subject of two lawsuits and that one of the claims against the rule 
states that your department did not take employer interest into account 
when the rules were promulgated as it is supposed to do.
    Did your department take into consideration employer interest in 
issuing these rules and if so, in what way specifically?

    The Department of Labor considered comments provided by employers 
in both the Wage Final Rule and the Comprehensive Final Rule. For the 
Wage Final Rule (76 FR 3452), the Department received and considered 
comments from SBA and small businesses. The preamble of the Wage Final 
Rule provides details on how the Department responded to their concerns 
and proposals for alternative prevailing wage-setting methods.
    The Comprehensive Final Rule (77 FR 10038) responded to 
recommendations made by employers and their representatives as well. 
For example, the Department responded to employer recommendations to 
limit the potential reach of the corresponding employment provision and 
more clearly articulated which U.S. workers could be considered 
corresponding workers for the purposes of receiving the same wages and 
benefits as H-2B workers.
    The Comprehensive Final Rule also incorporated employer 
recommendations about the proposed requirement to pay for or reimburse 
a worker for the cost of inbound transportation and subsistence by 
qualifying that the requirement to reimburse is in effect after the 
worker completes 50 percent of the job contract and the outbound 
transportation is only paid if the worker completes the job order 
period or is dismissed early. This addressed employer concerns that 
they may be paying transportation for workers who did not perform a 
significant amount of work.
    The Comprehensive Final Rule also responded to employer 
recommendations about the proposed requirement to pay an H-2B worker 
for three quarters of the hours offered in the job order, even if there 
is less work, by increasing the length of time over which that amount 
is determined and relieving employers of this requirement if there are 
man-made catastrophic events outside their control or acts of God.
    Finally, the Comprehensive Final Rule reduced the period during 
which employers have an obligation to hire U.S. workers to 21 days 
before the date of need. This responds to employers' assertions that 
the Department's proposal in 2011 extending the period for accepting 
referrals of U.S. applicants until the later of 3 days before the date 
of need or the date on which last H-2B worker departs for the job 
opportunity would be unworkable and potentially costly for employers.
    Other examples of how the Department responded to comments provided 
by SBA's Office of Advocacy and by small businesses and their 
representatives can be found in the preamble of the Comprehensive Final 
Rule (77 FR 10038).

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE LYNN WOOLSEY

    In my District, I have seen firsthand the value of life-saving and 
life-renewing services offered by community-based nonprofits that 
provide residential treatment for substance use disorder. They treat 
addiction first and foremost, but also help reintegrate people into 
society.
    1. How is the Department supporting ex-offender reentry through its 
programs and the resources it makes available to the states?

    The Department of Labor's Reintegration of Ex-Offenders 
Appropriation funds both an adult program, which serves released 
prisoners returning home, and a youthful ex-offender program, which 
serves juvenile and young adult ex-offenders and at-risk youth. The 
adult program is an employment-centered initiative that seeks to 
strengthen urban communities that have large numbers of returning 
prisoners. The program funds competitive grants to local faith-based 
and community-based organizations to provide mentoring, job training, 
and other comprehensive transitional services. It is designed to reduce 
recidivism by helping inmates find work when they return to their 
communities, as part of an effort to improve community life.
    The youthful ex-offender program provides competitive grants to 
local non-profit community-based organizations and state and local 
juvenile justice agencies to provide training, mentoring, service-
learning, career exploration and employment opportunities. These grants 
focus on youth ages 14 to 24 and serve young offenders and youth at 
risk of criminal involvement, including school dropouts.
    The Department makes a concerted effort to ensure that local, 
community-based organizations are aware of these grant opportunities 
and have the tools they need to be competitive applicants and 
participants. One of the primary responsibilities of the Department's 
Center for Faith-based and Neighborhood Partnerships is to disseminate 
information about these and other grant opportunities to community-
based organizations and to provide technical assistance and guidance on 
how to apply as a lead applicant and how to partner with another 
eligible organization as a sub-grantee. Additionally, in 2010 the 
Department released a Grants 101 Toolkit specifically designed to help 
community-based organizations respond to competitive solicitations for 
grant applications.
    In Program Year 2011 (July 2011--June 2012), the Department has 
awarded or will award:
    <bullet> $30 million to serve young adult ex-offenders ages 18 to 
24 through service-learning activities that allow them to provide a 
valued service to their communities while learning marketable skills;
    <bullet> $19.5 million to serve youth ex-offenders between the ages 
of 14 to 21 through regional intermediate organizations that will 
provide training in demand industries that result in credential 
attainment;
    <bullet> $12 million to serve youth and adult ex-offenders through 
strategies targeting the characteristics common to female ex-offenders; 
and
    <bullet> $20.5 million for a fifth round of Adult Reintegration of 
Ex-Offender grants to faith-based and community non-profit 
organizations in 18 urban communities across the country to serve 
returning adult ex-offenders.

    2. Understanding that drug and alcohol treatment centers do not 
deploy the traditional One Stop Career Center model, when considering 
how to deal with re-entry, it seems sensible that the Department of 
Labor would tailor the program to work with groups that specialize in 
dealing with ex-offenders. Has the Department considered these benefits 
when thinking of ex-offender re-entry, and how can these rehabilitation 
centers work with the Department to provide job training services, on 
their own or with One-Stop Centers?

    In order to successfully reintegrate into the community, it is 
essential that ex-offenders possess the skills and support necessary to 
enter and compete for jobs in the labor market as well as avoid 
recidivism. Faith-based and community-based organizations (FBCBOs) 
provide critical infrastructure and resources to assist with the 
reintegration of ex-offenders; FBCBOs often have strong roots within 
the local communities they serve and are able to bring together 
networks of social support organizations. Department of Labor grantees 
are required to develop partnerships with organizations that provide 
supportive services, such as: substance abuse and mental health 
treatment centers, vocational rehabilitation, housing assistance, child 
care, family reunification services and legal services etc.

   QUESTIONS FOR THE RECORD SUBMITTED BY REPRESENTATIVE MARCIA FUDGE

    1. Community based organizations (CBOs,) both private and non-
profit, possess firsthand knowledge and experience implementing 
effective and successful workforce development measures to meet the 
needs of the unemployed, especially the long-term unemployed and 
individuals with multiple barriers to employment. Because of this, CBOs 
must not be relegated to the role of service providers only, CBOs must 
also be included in policy discussions. CBOs are an integral and 
effective component of our nation's workforce development system. CBOs, 
especially minority-serving CBOs, represent the perspective and needs 
of diverse populations including African American, Hispanic and other 
people of color.
    What efforts has the Department of Labor undertaken to ensure 
minority community based organizations receive equitable representation 
on state and local Workforce Investment Boards (WIBs,) or other local 
governing mechanisms that may be established by WIA, where policy and 
programmatic decisions are made?

    The Workforce Investment Act (WIA) recognizes that community-based 
organizations (CBOs) have an important role in the public workforce 
system, both to deliver services and to help shape workforce policy. 
WIA Section 111(b)(1)(C)(v) reserves two or more seats on every State 
Workforce Investment Board (SWIB ) for representatives of organizations 
that have experience and expertise in the delivery of workforce 
investment activities, including chief executive officers of community 
colleges and CBOs within the State. SWIB members are appointed by the 
Governor. At the local level, WIA Section 117(b)(2) (A)(iv) requires 
that each Local Workforce Investment Board (LWIB) have two or more 
representatives from CBOs; chief local elected officials are 
responsible for LWIB appointments.
    In addition to the representatives of CBOs who sit on SWIB and 
LWIBs, any CBO has the opportunity to attend Local Board meetings and 
provide comments on Board proceedings, including the eligible provider 
process. The Department reviews WIA Strategic State Plans, which must 
describe Board composition and membership, and the Department conducts 
regular monitoring of States and local areas to ensure that Board 
requirements are met.
    The Department's Center for Faith-based and Neighborhood 
Partnerships has a specific focus on informing CBOs, as well as 
community and faith leaders, about the SWIBs and LWIBs. They work with 
local stakeholders to encourage community-based organizations to attend 
WIB meetings and provide information on meeting dates and locations. 
For example, the Center has been working with the Outreach Coordinator 
for the Faith-Based and Community Initiatives Office of Ohio Governor 
John R. Kasich to spread the word about WIB meetings. The Center also 
encourages community groups to inquire with the local WIB leadership 
about membership on the boards.

    What efforts has the Department of Labor undertaken to ensure 
community based organizations, of demonstrated effectiveness, are 
included as an integral and effective component of our nation's 
workforce development system and its evolving partnership with 
community colleges?

    In addition to CBOs' representation on state and local workforce 
investment boards, many provide services through the One-Stop delivery 
system at the local level. The Department has issued a number of 
competitive grants that encourage partnerships among the public 
workforce system, CBOs, and community colleges, as well as other 
organizations. These grants include the Senior Community Service 
Employment Program, Pathways out of Poverty, the Add Us In initiative, 
the Green Jobs Innovation Fund, and the Health Care Virtual Career 
Platform. We also anticipate that CBOs will be local grantee partners 
in some projects funded under the proposed Community College to Career 
Fund initiative, helping participants acquire the basic skills that 
improve their employability, learn technical skills, and access support 
systems that allow them to meet the needs of their families while they 
concentrate on gaining new skills and competencies.
    In addition, CBOs are eligible applicants for the Department's 
YouthBuild discretionary grants that focus on providing education and 
construction skills training to disadvantaged young people who are high 
school dropouts. They also are eligible to apply for many of the 
Department's Reintegration of Ex-Offender grants that focus on helping 
youth and adult offenders to successfully reenter their communities and 
increase their education and employment outcomes.
    The Department's Center for Faith-based and Neighborhood 
Partnerships helps to facilitate partnerships between community-based 
organizations and the workforce development system, including One-Stop 
Career Centers and Community Colleges. For example, the Center recently 
hosted a webinar to highlight examples of CBOs that are partnering with 
local workforce development systems to host job fairs. In another 
example, the Center has been working with Cuyahoga Community College's 
Advanced Technology Academy to develop partnerships with CBOs in order 
to recruit youth for their training programs and offer supportive 
services that assist with successful completion.

    How has the Department of Labor enforced conflict of interest 
provisions to prevent Workforce Investment Boards from functioning as 
direct service providers?

    Under 20 CFR 661.310, Local Workforce Investment Boards may 
function as direct service providers only with the agreement of, or 
waiver from, the Governor. In addition, there are a number of statutory 
and regulatory provisions that govern conflict of interest related to 
Workforce Investment Boards (WIB) and service providers. The Uniform 
Administrative Requirements are government-wide standards regarding 
procurement that all Federal grantees must follow, including standards 
for conflict of interest. The Department of Labor codified these 
requirements at 29 CFR Part 97 for governmental grantees and at 29 CFR 
Part 95 for non-governmental grantees. Conflict of interest regulation 
for entities receiving Workforce Investment Act (WIA) title I funds (20 
CFR 667.200(a)(4)) indicates that in addition to the uniform 
administrative requirements mentioned above, a state or local WIB 
member, or a Youth Council member must neither cast a vote, nor 
participate in decision-making, on the provision of services by that 
member or any organization which that member directly represents. The 
WIB member also must not cast a vote, nor participate in decision-
making, on any matter that would provide any direct financial benefit 
to that member or a member of his or her immediate family. WIA 
regulations note that neither membership on a WIB or Youth Council 
alone, nor the receipt of WIA funds to provide training and related 
services violates these conflict of interest provisions. The Department 
of Labor monitors both State and local WIA grant recipients for 
compliance with statute and regulations. The Employment and Training 
Administration also includes state policies related to these 
requirements in its oversight and monitoring of states, including its 
review of policies submitted with the WIA Strategic State Plans. In 
2011, ETA published Training and Employment Guidance Letter 3510, 
titled ``Transparency and Integrity in Workforce Investment Board 
Decisions,'' to remind state and local boards of the conflict of 
interest provisions in the law.

    2. Urban communities need community based organizations, like the 
National Urban League, to be supported by the Federal Government. Their 
innovative and culturally competent programs are operated by local 
community leaders who have lived and worked in the communities they 
serve for many years. As the economy slowly gains steam, it is clear 
that we cannot recover without targeted measures to address 
unemployment in the hardest-hit communities. We congratulate groups 
like the National Urban League for recognizing what needs to be clone 
every day on the front lines and fighting for the communities we 
represent.
    What efforts has the Department of Labor undertaken to encourage 
partnerships with national community based organizations that have been 
anchors in urban communities? Can you share any lessons the Department 
has learned about what the government can do to encourage such 
partnerships?

    National community-based organizations are critical access points 
for workers seeking to transition into new industries and careers. They 
understand the importance of leveraging resources, engaging employers 
to better understand their workforce needs and secure employment for 
their participants, and providing comprehensive supportive services in 
a manner that is culturally and linguistically appropriate. By serving 
as key providers of basic skills training, technical skills training, 
and workforce development services through local affiliates in many 
urban, rural, and suburban communities across the country, national 
community-based organizations bring a broad perspective to workforce 
partnerships that is rooted in their experiences in local communities.
    National community-based organizations are grantees or key partners 
in many of the Department's grant initiatives, such as the Senior 
Community Service Employment Program, Pathways out of Poverty, and the 
Green Jobs Innovation Fund, and we anticipate that they will be local 
grantee partners in some projects funded under the proposed Community 
College to Career Fund initiative to help participants acquire the 
tools and skills to be successful in knowledge-based economy. The 
National Urban League is a current grant recipient under the 
Reintegration of Ex-Offenders-Adult Generation 4 grant project and a 
number of its affiliates are grantees under other Departmental grant 
programs.
    In addition to these competitive grant programs, national 
community-based organizations and their local affiliates operate local 
One-Stop Career Centers through contracts with local agencies. Two such 
examples include Instituto del Progreso Latino, an affiliate of the 
national community-based organization National Council of La Raza, 
which operates a local One-Stop in Chicago; and in New York City, the 
local Goodwill Industries operates the Brooklyn One Stop Center under a 
contract with the City of New York.

                  ADDITIONAL OUTSTANDING HEARING ITEMS

    Rep. Biggert requested an update timetable for a re-proposal for 
the Definition of ``Fiduciary'' rulemaking.

    The Department's Employee Benefits Security Administration (EBSA) 
announced on September 19, 2011, that it will repropose its rule on the 
definition of a fiduciary. The reproposal is designed to ensure an open 
exchange of views and protect consumers while avoiding unjustified 
costs and burdens. This continues to be a high priority project for the 
Department. While we are making good progress, we are taking the time 
we need to get the regulation and economic analysis right and to ensure 
proper coordination with the SEC and other relevant government offices 
and agencies, so we cannot predict with specificity when the reproposal 
will be published.
    We are examining a wide array of evidence with the goal of 
developing a more robust economic analysis. The analysis will focus not 
only on the economic impact of a new rule on workers and retirees, but 
also on plan sponsors who often critically rely upon expert advice to 
discharge their own fiduciary responsibilities with respect to the 
management of plan assets and selection of plan investment options.
    As part of this process, we sent out two voluntary data requests in 
mid-December 2011. One was for the underlying data supporting the 
conclusion in the Oliver Wyman report, a document which was submitted 
as a comment on the Department's October 2010 proposal, and which has 
been cited as demonstrating that the costs of applying fiduciary rules 
to IRA advisers would be prohibitive. The Department's request was 
addressed to the commenter who, on behalf of a group of twelve 
financial firms that offer services to retail investors, engaged Oliver 
Wyman to prepare the report, and then submitted the report for the 
record. In response, the Department received some additional, but 
limited, aggregated data, while other, more granular underlying data 
was not forthcoming.
    The Department also sent another, broader request to leading 
financial services industry groups. This was part of our ongoing effort 
to make sure we give interested stakeholders every opportunity to 
provide input. While the Department was disappointed not to receive 
many of the suggested data elements from the industry sources, we have 
met with industry representatives and asked them to provide whatever 
information they had that would be useful to our efforts.
    We appreciate the information that has been sent and are working 
diligently to review and assess it. The Department also has been 
collecting information from a variety of other sources. We will 
incorporate all of this information and feedback into our updated 
economic analysis of our updated proposal. We continue to welcome the 
receipt of any additional relevant data that interested stakeholders 
wish to provide in order to assist us with our work on this project, 
and will likewise incorporate any such data into our analysis as well.
    Our objective is to craft a clear and workable regulation that 
provides the strongest possible consumer protections to employees in 
employee benefit plans and IRA owners as well as plan sponsors who 
offer retirement plans to workers, supported by a robust and fully 
transparent economic analysis to accompany the new proposed regulation. 
Since all components of the reproposed regulation will be open to 
public review and comment once published, we expect another opportunity 
to receive input.
    Also under consideration are updates to current prohibited 
transaction exemptions and new exemptions addressing concerns about the 
impact of the regulation on current fee practices of brokers and 
advisers. Here again, our aim is to promote advice that is both 
impartial and affordable, and that is provided under circumstances that 
protect plans, participants and IRA owners from abusive practices. We 
will propose a package of amendments to current prohibited transaction 
exemptions and most likely at least one new exemption that will be 
issued at the same time as the reproposal. Like the reproposed 
regulation itself, the proposed exemptions will be open for public 
comment.

    Rep. Thompson asked if DOL collects data on the number of jobs 
which employers are unable to fill with qualified workers.

    The Department of Labor does not collect data that distinguishes 
between companies unable to find qualified workers for vacancies and 
those that have vacancies due to other reasons. However, you may be 
interested to know that the Bureau of Labor Statistics publishes data 
on job openings, hires, and separations in its Job Openings and Labor 
Turnover Survey (JOLTS). This, along with background information about 
the survey, may be found at (http://www.bls.gov/jlt/).

    Rep. Foxx requested copies of the evaluations conducted by DOL on 
the programs--including numbers for how recipients' income has 
increased--referenced in her exchange with Secretary Solis.

    All ETA research and evaluation studies since 1977 are publically 
available for download from the ETA Evaluation Database at http://
wdr.doleta.gov/research/keyword.cfm.
    ETA's research and evaluation efforts include the study of impacts 
and outcomes of workforce development and employment strategies and 
programs, as well as the testing of concepts to determine their 
potential viability.

    Rep. Foxx requested detailed information concerning funding for job 
training program, including funding for homeless women veterans.


------------------------------------------------------------------------
                                     FY2011*      FY2012*      FY2013*
             Programs               Enacted w/   Enacted w/  President's
                                   Rescissions  Rescissions    Request
------------------------------------------------------------------------
Adult Employment & Training......      769,576      770,811      769,465
Dislocated Workers...............    1,061,807    1,008,151    1,006,526
Workforce Innovation Fund........      124,750       49,906      100,000
Youth Activities.................      825,914      824,353      824,353
Reintegration of Ex-Offenders....       85,390       80,238       85,238
Youth Build......................       79,840       79,689       79,689
Native Americans.................       52,652       47,562       52,562
Migrants & Seasonal Farmworkers..       84,451       84,291       84,291
Job Corps Operations.............    1,570,932    1,569,078    1,545,872
------------------------------------------------------------------------
*Figures are in thousands.

    In regard specifically to homeless women veterans, a group that is 
greatly overrepresented in the homeless population, the Department's 
Veterans Employment and Training Service operates the Homeless Veterans 
Reintegration Program, from which it has funded grants to assist 
homeless female veterans and veterans with families.
    The Department awarded $5,256,580 on such grants in PY 2010. A 
total of 1,406 participants were served, of which 805 were female 
veterans, at a cost per participant, based on award level, of $3,738. 
Moreover, 60.6% of the veterans served were placed into employment. 
Through the 2nd quarter of PY 2011, 705 female participants have been 
served, out of a total 1,257 participants.
    The HVRP program awarded $33,767,000 during PY 2010 and served 
15,951 veterans, of which 1,533 were female. The total cost per 
participant, based on award level, was $2,116; 59% of the participants 
were placed into employment. Through the 2nd quarter of PY 2011, 8,719 
veterans are enrolled in HVRP, of which, 1,279 are female veterans.
    Additionally, during Program Year 2010 (7/1/2010--6/30/2011), ETA 
programs served over 1.8 million veteran participants nationwide in its 
workforce programs.
    Over 1.4 million veterans completed their program during the 12-
month period spanning from 4/1/2010--3/31/2011. The majority of these 
services were funded via the Wagner-Peyser and Workforce Investment Act 
programs.

    Rep. Goodlatte requested clarification on the meaning of ``hazards 
not otherwise classified'' under the Global Harmonization rulemaking.

    The phrase ``hazards not otherwise classified'' (HNOC) covers 
adverse physical or health effects identified through evaluation of 
scientific evidence during the classification process that do not meet 
the specified criteria for the physical or health hazard classes in the 
new rule. In essence, this definition requires classifiers who find 
scientific evidence that a chemical can cause death, illness, or injury 
to workers in a way not currently covered by the Globally Harmonized 
System of Classification and Labeling of Chemicals (GHS), disclose that 
fact. It is meant to be a modest and narrow requirement triggered only 
when the classifier has objective, scientific evidence of a hazard not 
covered by the specific GHS criteria. The definition does not expand 
the scope of the prior hazard communication rule or add new burdens but 
rather ensures that the new rule will not be less protective than the 
prior rule. The prior rule's definition of ``health hazard'' included 
any chemical for which there was at least one scientific study showing 
that acute or chronic health effects could occur. The definition of 
HNOC preserves this coverage by picking up hazards that would be within 
the scope of the prior rule but fall outside the specific GHS hazard 
classes. It is likely that only very few such hazards exist, inasmuch 
as the GHS classifications are the product of over thirty years of 
international experience in hazard communication.

    Rep. Goodlatte requested clarification on the intent of a 
memorandum issued to OSHA field enforcement personnel concerning 
employer safety incentive programs.

    On March 12, 2012, OSHA issued a guidance memorandum to OSHA 
Regional Administrators and Whistleblower Program Managers on 
``Employer Safety Incentive and Disincentive Policies and Practices.'' 
This memorandum discussed several types of employer policies and 
practices that can discourage employees from reporting occupational 
injuries or illnesses to their employer. Employee reports of injuries 
and illnesses are an important way to ensure that dangerous conditions 
are identified and corrected and that affected employees receive proper 
medical treatment, and the right to report injuries and illnesses is 
therefore a core right guaranteed to employees by the Occupational 
Safety and Health Act.
    OSHA recognizes the value of safety incentive programs, which are 
attempts by employers to incentivize safe behavior by their employees, 
and it supports programs that effectively encourage employees to 
participate in safety related-activities. However, as noted by the 
recent GAO report on Safety Incentive Programs, one type of incentive 
program--where incentives are tied to low recorded injury and illness 
rate, such as a bonus to all who do not suffer an injury or illness--
could discourage injury reporting and thus have the perverse, if 
unintended, result of actually reducing safety.
    The programs OSHA is concerned about have the potential to be 
inconsistent with both Section 11(c) of the Occupational Safety and 
Health Act and OSHA's recordkeeping regulations in 29 CFR 1904. Section 
11(c) prohibits discrimination against an employee for exercising a 
protected right, including the right to report an injury or illness, 
and 29 CFR 1904 require employers to keep accurate records of injuries. 
While some incentive programs might be well-intentioned efforts to 
promote safety, it is also possible that safety incentive programs can 
offer awards of sufficient size that a reasonable worker might be 
dissuaded from reporting an injury or illness. In such a case, the 
program could result in the employer's failure to record injuries or 
illnesses that it is required to record under OSHA's recordkeeping 
regulations, and OSHA might issue a citation for those violations. If 
the program leads to workers who report injuries or illnesses not 
receiving benefits or compensation they would have received without 
such reports, that could be considered discrimination in violation of 
section 11(c), and OSHA could bring an action to remedy that 
discrimination.
    OSHA does not believe that all types of safety incentive programs 
are problematic; it is positive when employers place a high priority on 
safety and health, and create appropriate incentives to encourage safe 
and healthful workplaces.

    Rep. Goodlatte requested a description of DOL's consideration of 
OMB circular A-4 during the rulemaking process for the Companionship 
Care regulation.

    The Department's Application of Fair Labor Standards to Domestic 
Service proposed rule contains a preliminary regulatory impact analysis 
that was prepared in accordance with the guidance provided in OMB 
Circular A-4, which OMB reviewed. The complete preliminary regulatory 
impact analysis was published to provide the public with an opportunity 
to review and comment on it. See Application of the Fair Labor 
Standards Act to Domestic Service; Notice of Proposed Rulemaking (76 FR 
81190, Dec. 27, 2011). We take our rulemaking responsibilities 
seriously, will continue to comply with Executive Orders 12866 and 
13563, and OMB's implementing guidance, Circular A-4, in the 
promulgation of rules and regulations.
                                 ______
                                 
    [Whereupon, at 12:21 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
